Report No. DODIG-2012-024                November 30, 2011




          Independent Engineering Assessment of
             the Army's Transportation Plan for
         the BRAC Recommendation #133 Project
            Fort Belvoir - Mark Center, Virginia.
Additional Information
The Department of Defense Office of the Deputy Inspector General for Policy and Oversight,
prepared this report. If you have questions, contact the signer of the report.

Suggestions for Future Reviews
To suggest ideas for or to request future reviews, contact the Office of the Deputy Inspector
General for Policy and Oversight at (703) 602-1017 (DSN 664-1017) or fax (703) 604-9808.
Ideas and requests can also be mailed to:

                               Office of the Inspector General
                                  for Policy and Oversight
                           Department of Defense Inspector General
                                  4800 Mark Center Drive
                                 Alexandria, VA 22350-1500
                                        INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE
                                      ALEXANDRIA, VA 22350-1500




                                                                               November 30, 2011


MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Independent Engineering Assessment of the Army's Transportation Plan for BRAC
         Recommendation #133 Project Fort Belvoir- Mark Center, Virginia,
         (Report No. DODIG-2012-024)

        On July 19, 2011, we initiated an independent engineering assessment of the Army's
Transportation Plan for BRAC Recommendation #133 Project Fmi Belvoir- Mark Center,
Virginia. This project was initiated in response to a requirement in Section 2704,
"Transpmiation Plan for BRAC 133 Project under Fort Belvoir, Virginia, BRAC Initiative," of
the National Defense Authorization Act for Fiscal Year 2011 (Public Law 111-383). The
assessment was contracted to the engineering team of Strategy and Management Services
(SAMS), Inc. Attached please find our findings and recommendations (Attachment 1) and the
SAMS repmt (Attachment 3).

        The SAMS assessment concluded that the traffic studies used to develop the Army
Transportation Plan were based on faulty baseline data; therefore, the findings and conclusions
presented in the Transportation Plan are umeliable. In addition, the traffic studies used to
develop the Transportation Plan failed to adequately address the issues related to site
ingress/egress. This ;finding may result in severe traffic congestion during peale hours. The
resultant congestion could constrain single occupancy vehicle traffic, emergency response
vehicles, and undermine the efficiency ofthe high frequency bus and shuttle services to and from
the Mark Center. Also, the measures proposed by the Transpmiation Plan will not maintain the
existing level of service at the six intersections. The required project mitigations, scheduling of
programmed improvements, and their related funding requirements may be invalid.
Furthermore, the goal of the proposed Transportation Management Plan to increase non-single
occupancy vehicle traffic may not be achievable.

       On November 7, 2011, the Army responded to our draft repmt with non-concurrence to
all SAMS findings and recommendations (Attachment 2). We reviewed the Army responses and
found that they did not respond to the concerns addressed in the SAMS assessment report.
Therefore, we request that additional comments be provided by December 30, 2011. DoD
Directive 7650.3, "Follow-up on General Accounting Office (GAO), DoD Inspector General
(DoD IG), and Intemal Audit Repmts," requires that recommendations be resolved promptly.

     · Please send a .pdf file containing your comments to james.howell@dodig.mil. Copies of
your comments must have the signature of the authorizing official for your organization. If you
anange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).
        We appreciate the cowiesies extended to our engineering staff and assessment team. If
you have any questions, please contact Mr. James Howell at (703) 604-9096 (DSN 664-9096) or
e-mail at james.howell@dodig.mil.




                                  Randolph R. Stone, SES
                                  Deputy Inspector General
                                    Policy and Oversight



Attachments:

1. Office of the Inspector General Findings, Recommendations, Summaries of Army
   Responses, and Responses to the Depatiment of the Army' s Comments
2. Depmiment of the Army Comment to the Findings and Recommendations of DoD Draft
   Report - Dated October 7, 2011.
3. SAMS fmal repmi "Independent Engineering Assessment of the Army's Transportation Plan
   for BRAC Recommendation# 133 Project Fmi Belvoir - Mm·k Center, Virginia"
   September 30, 2011


cc:
USD(AT&L)
DIRDA&MOSD
DIRWHS
CDR,IMCOM




                                             11
Table of Contents                                                           Page No.
Attachment 1                                                                      1
      Office of the Inspector General Findings, Recommendations, Summaries of
      Army Responses, and Responses to the Department of the Army’s Comments

Attachment 2                                                                     19
      Department of the Army Comment to the Findings and Recommendations of
      DoD Draft Report – Dated October 7, 2011.

Attachment 3                                                                     41
      SAMS final report “Independent Engineering Assessment of the Army's
      Transportation Plan for BRAC Recommendation # 133 Project
      Fort Belvoir - Mark Center, Virginia” September 30, 2011
This page intentionally left blank
                         Attachment 1




      Office of the Inspector General Findings, Recommendations,
Summaries of Army Responses, and Responses to the Department of the
                        Army’s Comments




                                 1
This page intentionally left blank




                2
   Office of the Inspector General’s Findings, Recommendations,
 Summary of Army Responses, and Responses to the Department of
                        the Army’s Comments
Finding 1 –Transportation Plan Development Process Deficiencies
The process and procedures used to develop the Transportation Plan are inconsistent with
industry standards, as stated in the Institute of Transportation Engineers (ITE) recommended
practices.1F The deficiencies of the baseline data are of such significance, they render the
findings and conclusions of the Transportation Plan unreliable,1A explained below:
    • Traffic Counts/Background Traffic – The existing traffic counts and estimated
        background traffic volumes used in the Army’s transportation studies do not accurately
        represent existing baseline traffic conditions at the Mark Center.
            o Traffic counts were conducted around national holidays and while schools were
                not in session, which could have resulted in peak hour traffic volumes of up to 35
                percent less than average peak hour volumes.1B (ITE, 2010: Traffic Volumes,
                Table 3-2, Suggested Background Data, pg. 17)
            o None of the studies evaluated the traffic impact of the four million gross square
                feet (gsf) of approved background development identified in the Transportation
                Plan.1C (ITE, 2010: Background Traffic, pg. 23, Paragraph 2)
    • Trip Generation – Application of ITE and the Virginia Department of Transportation
        (VDOT) recommended guidelines suggest, the BRAC 133 Project Fort Belvoir - Mark
        Center site generated peak hour volumes could be as high as 3000 vehicles per hour, or
        approximately double the peak hour volumes shown in the Transportation Plan.1D (ITE,
        2010: Procedure for Determining Appropriate Trip Generation Estimates, Table 5-1, pg.
        36)
    • Trip Distribution/Traffic Assignment – The procedure used to determine site trip
        distribution patterns for the Transportation Plan only accounted for the residential
        location of federal employees and did not include the residential location of defense
        contractors, who account for 31 percent of the 6,809 employees (2,111 employees).
        Further, traffic assignment patterns were based on assumed employee travel routings,
        instead of considering possible alternative routes based on minimum travel times. This
        may have resulted in unrealistic traffic patterns for BRAC 133 Project Fort Belvoir -
        Mark Center site generated traffic.1E (ITE: Procedure for Determining Appropriate Trip
        Generation Estimates, pg. 50, Paragraph 8)

Impact 1
The traffic studies used to develop the Transportation Plan were based on faulty baseline data
and application of non-standard methodologies to estimate site generated impact; thus, negating
the value of any subsequent analysis of the traffic impact generated by the BRAC 133 Project
Fort Belvoir - Mark Center. The findings and conclusions presented in the Transportation Plan
based on these analyses are unreliable.




                                                3
Army Response to Finding 1
The Army non-concurs with IG Finding 1. The Army states, “The process and procedures used
to develop the Army's Transportation Plan and Transportation Management Plan (TMP) were
consistent with industry standards. The Army's transportation Plan and TMP were a result of
extensive study, public vetting, decision making and execution of transportation demand
management strategies, and transportation network improvements over the past 3 years. The
studies upon which the transportation planning decisions are based were prepared by recognized
transportation engineering professionals using accepted transportation engineering principles,
practices and procedures….” (Attachment 2, Page 22)

DOD IG Response to “Army Response to Finding 1”
The Army’s response did not adequately address the impact of using faulty traffic data nor did
they provide any new data. The SAMS Assessment Report indicated the traffic studies used to
develop the Transportation Plan were based on faulty baseline data and application of non
standard methodologies to estimate site generated impact, which negates the value of any
subsequent analysis of the traffic impact generated by the BRAC 133 Project Fort Belvoir - Mark
Center. As noted in our finding, the traffic counts were conducted around national holidays and
while schools were not in session, which could have resulted in peak hour traffic volumes of up
to 35 percent less than average peak hour volumes.1B The findings, conclusions, and planned
actions, presented in the Transportation Plan, based on these analyses, are unreliable.

Recommendation 1
We recommend the Army conduct a new traffic study1A utilizing the most accurate, reliable, and
sufficient data and methodology in accordance with industry standards or the Institute of
Transportation Engineers recommended practices and processes. Specifically, the study should
include the following:1D
    • AM and PM peak hour turning movement traffic counts1B which represent an “average
        worst case” volume scenario; and
    • An accurate representation of background traffic1C growth to include ambient and
        pipeline project traffic;
    • An accurate representation of trip distribution1E patterns based on all employees
        occupying the site;
    • An accurate representation of traffic assignment1E patterns reflecting alternative routings,
        resulting from system congestion and other factors, which dictate route selection.

The Transportation Plan should be updated based on the results of the new traffic study.1F

Army Response to Recommendation 1
The Army non-concurs with DoD IG Recommendation 1. The Army states, “the studies upon
which the transportation planning decisions have been based were prepared by recognized
transportation engineering professionals using professionally accepted transportation engineering
principle, practices and procedures and in an open, public, coordinated process with VDOT and
the, City of Alexandria. Additionally, post site selection, all transportation studies have been
performed either at the direction of the City of Alexandria, or VDOT…” (Attachment 2, Page
24)



                                                4
DOD IG Response to “Army Response to Recommendation 1”
The Army did not adequately address the specific issues identified in the SAMS report. The
Army argued that to interpose another study is redundant and an unwise expenditure of funds.
They referred to three additional studies to satisfy our recommendation.

The studies referenced are 1) VDOT's HOV/Bus only ramp study, 2) Virginia Governor's Traffic
Monitoring Task Force and 3) the City of Alexandria's federally funded Alternatives Analysis of
a High Capacity Transit Corridor. These studies were not used in developing the Transportation
Plan and, therefore, they are not relevant to the assessment. Furthermore, they are not focused
on identifying and mitigating the traffic impact created by BRAC 133 Project Fort Belvoir -
Mark Center.

The Army also failed to consult effectively with local jurisdiction planning and transportation
officials, including VDOT and City of Alexandria. SAMS assessment report stated the key
transportation agencies within the NCR reported little or no involvement in the preparation or
review of the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, Transportation Plan
and/or its Transportation Management Plan.1G The previous DoD IG Assessment of July 2010
BRAC 133 Transportation Plan also stated the inadequate coordination with local jurisdiction
planning and transportation officials.II

       …the heavy reliance on the City of Alexandria and the BRAC 133 Advisory Group to
       serve as the primary avenue for the Virginia Department of Transportation and county
       officials to provide input may not have been the most effective approach for ensuring
       close coordination and mutual support of interrelated programs and projects in the
       development of the TMP…




                                                5
References:   I.   SAMs Independent Engineering Assessment of the Army’s Transportation
                   Plan for BRAC Recommendation #133 Project Fort Belvoir – Mark Center,
                   Virginia. September 30, 2011.

                      1A.   4.1.1 Traffic Studies (page 78)
                      1B.   4.1.2 Traffic Counts (page 78)
                      1C.   4.1.3 Background Traffic (page 78)
                      1D.   4.1.4 Traffic Generation (page 79)
                      1E.   4.1.5 Trip Distribution/Traffic Assignment (page 79)
                      1F.   4.1.6 Transportation Plan (page 79)
                      1G.   Table 4-7: Agency-Reported Involvement in the BRAC 133 Project
                            Fort Belvoir – Mark Center, Virginia, Transportation Plan and/or
                            Transportation Management Plan (page 58)

              II. Assessment of BRAC 133 Final Environmental Assessment of July 2008
                  and Transportation Management Plan of July 2010, Attachment 3:
                  Acelsior’s Report, pg, 3-23, 3.3.4.4 OBSERVATIONS: 3-C PLANNING




                                               6
Finding 2 – Inadequate Analysis of Site Ingress/Egress
The traffic studies used to prepare the Transportation Plan do not adhere to Institute of
Transportation Engineers (ITE) standards, VDOT requirements (24VAC30-155-60), or City of
Alexandria requirements necessary to analyze the impact and determine mitigation measures
required to provide a safe and highly functional ingress/egress roadway network for the BRAC
133 Project Fort Belvoir - Mark Center employees and the immediate community.
   • Congestion – The Transportation Plan fails to adequately address expected congestion on
       I-395, local arterial roadways, and roadways within the site.2C, 2D, 2G
            o Additional traffic added to an already congested freeway will have a
                disproportionate impact on freeway operations that could result in gridlock.
                (Transportation Research Board (TRB) Special Report 302, 2011)
            o Previous studies failed to:
                     mitigate the impact of queuing on the adjacent arterial street which
                       constrains site access;2E
                     mitigate the impact of on-site queuing created by congestion on the local
                       arterial roadways serving the site;2E
                     appropriately analyze and mitigate potential congestion at the parking
                       garage access created by the substandard roundabout design within the site
                       itself.2E (WSDOT Design Manual, Chapter 1320, Exhibit 1320-8)
   • Study Area – The Transportation Plan fails to evaluate the project impact at all signalized
       intersections within a two-mile radius and all un-signalized intersections within a one-
       mile radius.2B (ITE Recommended Practice, Table 2-3, pg. 10)
   • Construction Impacts & Mitigation – The Transportation Plan fails to evaluate the traffic
       impact associated with the construction of short/mid/long-term improvements and
       identify appropriate mitigation measures.2J
   • High Occupancy Vehicle (HOV) Access – Travel options at the Mark Center are severely
       limited with rail access 4.31 miles away, and no HOV freeway lanes directly serving the
       site. Under these conditions, the BRAC 133 Project Fort Belvoir - Mark Center
       Transportation Management Plan strategy for achieving 43 percent non-Single
       Occupancy Vehicle (SOV) trips may fail.2A
   • Parking Supply – The Transportation Plan fails to provide a sufficient amount of parking
       spaces to accommodate the TMP goal of 57 percent SOV, forcing employees to seek
       parking offsite, which will increase traffic congestion and impact adjoining
       neighborhoods.2F
   • Safety – None of the traffic studies used in the formulation of the Transportation Plan
       evaluated the impact of BRAC 133 Project Fort Belvoir - Mark Center on high crash
       locations within the study area. The safety issues at these locations will adversely affect
       site ingress and egress.2H
   • Emergency Response – The Transportation Plan fails to identify the impact of the
       increased volume of calls for emergency services, and the impact on emergency vehicle
       response time due to anticipated traffic congestion. The Transportation Plan does not
       provide the mitigation strategies necessary to meet the requirement of emergency
       services for the BRAC 133 Project Fort Belvoir - Mark Center employees and the
       immediate community.2I




                                                7
Impact 2
The traffic studies used to develop the Transportation Plan failed to adequately address the issues
related to site ingress/egress. Failure to address these issues is likely to result in extreme traffic
congestion with possible gridlock conditions during peak hours. The resultant congestion will
constrain SOV traffic, emergency response, and undermine the efficiency of the high frequency
express bus and shuttle services, envisioned to move employees quickly to and from the site. As
a result, more employees will drive their vehicles and seek alternative routes through residential
neighborhoods to avoid arterial congestion; emergency response time will be hindered impacting
life safety; and the Transportation Plan’s goal to achieve 43 percent non-SOV will not be
achieved.

Army Response to Finding 2
The Army non-concurs with IG Finding 2. The Army states, “The traffic studies used to prepare
the Transportation Plan comply with applicable federal, state and local standards. The results of
the traffic operational analysis displayed in the Transportation Plan are based on an extended
study area analysis conducted by VDOT. City officials, though well aware of the existing
congestion conditions and the potential future impacts to I-395 and other primary arterials, had
approved the proposed zoning and development following a thorough public review process that
included consideration of transportation management issues…” (Attachment 2, Page 24)

DOD IG Response to “Army Response to Finding 2”
The Army failed to provide sufficient additional studies to address DoD IG concerns with
supporting facts. Specifically, the Army did not provide the necessary additional studies to
sufficiently address the impact of BRAC 133 Project Fort Belvoir - Mark Center on I-395, local
arterial roadways, and roadways within the site; the project impact at all signalized intersections
within a two-mile radius and all un-signalized intersections within a one-mile radius; the project
related traffic impact associated with the anticipated roadway construction; the impact on
emergency vehicle response time due to anticipated traffic congestion; and safety mitigation for
the project impact at high crash locations, etc.

Although the Army stated micro simulation modeling was used to analyze the congestion
condition, the output of the simulation is only as good as the validity of the input. The
deficiencies in the baseline data, as stated in our independent assessment, will result in unreliable
simulation outputs. For instance, SAMS assessment report, section “4.1.2 Traffic Counts”,
specifically stated the VDOTII, III studies failed to use seasonal adjustment for traffic counts, as
suggested by the ITE practice. Furthermore, the VDOTIII study of 2011 used 2008 traffic
volumes – which are outside the one-year time horizon as suggested by ITE Recommended
Practice.

The SAMS assessment report, section “4.1.1 Traffic Studies”, performed a detail analysis of the
traffic studies and their deficiencies that were used to develop the Transportation Plan. The
SAMS assessment report stated that the amount of transportation studies prepared to address the
impact of BRAC 133 project Fort Belvoir – Mark Center, Virginia, creates the illusion that the
transportation issues have been thoroughly addressed and mitigated. The SAMS report further
stated,




                                                  8
       All of the studies were based on faulty baseline data, including existing peak hour traffic
       volumes. Many of the studies were flawed in their assessment of the issues, which led to
       inaccurate conclusions. None of the studies, individually or collectively, provided a
       thorough and accurate analysis of the impact of BRAC 133 project Fort Belvoir – Mark
       Center, Virginia.

The previous DoD IG Assessment of July 2010 BRAC 133 Transportation Plan also found
deficiencies in the traffic studies used to develop the TMP and suggested that a new traffic
impact analysis be performed. The report stated, IV
        …a more technically robust stand-alone traffic impact analysis would be needed to
        confirm the accuracy of the BRAC 133 TMP’s findings with respect to:
           • Existing and projected peak-hour traffic volumes;
           • Appropriate site variables (for purposes of accurate modeling);
           • Potential queues caused by the access control facility to the south parking garage;
                and
           • Effects of BRAC 133 traffic on additional intersections and interchanges beyond
                the narrowly defined BRAC 133 study limits.

In addition, the SAMS report stated the VDOTIII study employed a Transportation Planning
Board (TPB) Regional Travel Model (Version 2.2) to forecast background traffic. The impact of
using such a model is explained in the SAMS report as, “typically, these models are used to
identify the needs of the regional highway network, not local arterial streets. The use of the
regional model output to estimate turning movements may not replicate reasonable forecasts.”

The Army raised a concern regarding the use of Washington State Department of Transportation
(WSDOT) Design Manual to evaluate the design of a roundabout located at WHS circle. The
SAMS assessment report, section “4.2.7 On-Site Circulation (Vehicle and Pedestrian)”, stated
their justification for using WSDOT Design Manual,

       The WSDOT is a national leader in the design and installation of roundabouts. WSDOT
       has done extensive national and international research in the development of roundabout
       design criteria. A cursory review of the Virginia Department of Transportation found no
       reference to roundabouts or roundabout design parameters. Thus, the proposed WHS
       Circle roundabout was compared against WSDOT design standards.

The SAMS assessment report also showed the deficiencies of the roundabout in the “Table 4-2
Summary of Critical Roundabout Design Features” and “Figure 4-3: Independent Evaluation of
the Roundabout.” The SAMS assessment report further stated, “according to the WSDOT
Design Manual, small changes in geometry can result in substantial changes in operational
performance.”




                                                9
Recommendation 2
We recommend the Army address the ingress/egress of all personnel and services to and from
the BRAC 133 Project Fort Belvoir - Mark Center site with adherence to ITE, VDOT, and the
local City of Alexandria requirements and standards in the updated Transportation Plan. The
Transportation Plan should:
    • Evaluate and mitigate the impact of additional congestion on I-395 created by BRAC 133
        Project Fort Belvoir - Mark Center;2C,2D,2E
    • Evaluate and mitigate the traffic impact created by BRAC 133 Project Fort Belvoir -
        Mark Center on the adjacent local arterial roadways within a two-mile radius;2B,2E and
    • Evaluate and mitigate the traffic impact on the roadways within the site itself;2E,2G
    • Document an effective strategy for achieving 43 percent non-SOV;2A
    • Provide sufficient parking supply to accommodate anticipated employee demand;2F and,
    • Identify and adequately address appropriate mitigation measures in order to reduce safety
        hazards at high crash locations, the impact of congested traffic on the emergency
        response services, and the impact and mitigation measures to reduce congestion during
        roadway improvement construction activities.2E, 2H, 2I, 2J

Army Response to Recommendation 2
The Army non-concurs with DoD IG Recommendation 2 stating, “the Army believes that
sufficient ingress/egress analysis has been conducted and that appropriate improvements are
being proactively pursued with full participation by stakeholders. The Army TP identified three
primary ingress/egress location intersections for road improvements and the Army has completed
improvements that facilitate site and parking garage access. Additionally, the road network will
undergo added improvements to include construction of a pedestrian bridge across Seminary
Road. The Army believes it has sufficiently addressed the ingress/egress of all personnel and
services.”

DoD IG Response to “Army Response to Recommendation 2”
The Army fails to provide sufficient additional studies to address DoD IG concerns.
Specifically, the Army did not provide the necessary studies to:
   • Evaluate and mitigate the impact of additional congestion on I-395 created by the BRAC
       133 Project, and the traffic impact on the local arterial roadways, and roadways within
       the site itself;
   • Document an effective strategy for achieving 43 percent non-SOV;
   • Identify the impact of congested traffic on emergency response services to BRAC 133
       Project Fort Belvoir - Mark Center;
   • Identify the impact and mitigation measures to reduce congestion during BRAC 133
       related roadway improvement construction activities; and
   • Identify appropriate mitigation measures to reduce safety hazards at high crash locations.




                                              10
References:    I. SAMs Independent Engineering Assessment of the Army’s Transportation
                  Plan for BRAC Recommendation #133 Project Fort Belvoir - Mark Center,
                  Virginia, September 30, 2011.

                    2A. 5.2.1 High Occupancy Vehicle Access (page 80)
                    2B. 5.2.2 Study Area (page 81)
                    2C. 5.2.3 Capacity of I-395 (page 81)
                    2D. 5.2.4 I-395 Congestion (page 81)
                    2E. 5.2.5 Mitigation (page 81)
                    2F. 5.2.6 Parking Supply (page 82)
                    2G. 5.2.7 On-Site Circulation (Vehicle and Pedestrian) (page 82)
                    2H. 5.2.8 Safety (page 82)
                    2I. 5.2.9 Impact on Emergency Response (page 82)
                    2J. 5.2.10 Construction Impacts (page 82)

              II. Mark Center (BRAC 133) Access Study-Operational Analysis Report / IJR –
                  VDOT, February 2010

              III. Mark Center (BRAC-133) Short/Mid-Term Improvements Alternatives
                   Technical Memorandum, VDOT, February 2011

              IV. Assessment of BRAC 133 Final Environmental Assessment of July 2008 and
                  Transportation Management Plan of July 2010, Attachment 3: Acelsior’s
                  Report, Page, 3-70, Page 3-71, 3.6 BRAC 133 TMP SUMMARY OF
                  RESULTS




                                            11
Finding 3 – Proposed Improvements Inadequate to Maintain Existing
Level of Service
The proposed short-, mid-, and long-term infrastructure improvements fail to maintain the
existing level of service (LOS) at six intersections, as required by the Public Law 111-383, even
though the Transportation Plan identifies an adequate amount of funding, $112 million, to
construct the proposed improvements.3B
    • Proposed improvements fail to maintain existing LOS at three out of six intersections, as
        addressed in Public Law 111-383.3B
    • The Transportation Plan fails to evaluate the impact of BRAC 133 Project Fort Belvoir -
        Mark Center five years into the future, as suggested by Institute of Transportation
        Engineers (ITE) guidelines. Failure to provide this analysis complicates the
        determination of actual facility needs for the future planning and programming of the
        responsible jurisdiction.3A, 3D
    • The Transportation Plan does not provide an assessment of cost or programming of funds
        for the shuttle-bus program beyond FY2012.3C
    • The Transportation Plan does not address funding for the critical administrative elements
        of the Transportation Management Plan, such as funding for the Employee
        Transportation Coordinator, support staff, marketing strategies and programs, and
        program monitoring. The Transportation Plan also does not provide a viable strategy for
        achieving the BRAC 133 Project Fort Belvoir - Mark Center Transportation Management
        Plan goals for future years.3D

Impact 3
The measures proposed by the Transportation Plan will not maintain existing LOS at the six
intersections mentioned in the Public Law 111-383. The proposed Transportation Management
Plan strategies to mitigate project impacts are likely to be unsuccessful because of anticipated
traffic congestion on the surrounding arterial network and on-site roadway. Furthermore, the
Transportation Plan fails to identify funding for the Transportation Management Plan beyond
2012. As a result, required project mitigations and anticipated program improvements may be
invalid.

Army Response to Finding 3
The Army non-concurs with IG Finding 3. The Army states, “the Army is aware that there may
be intersections incapable of achieving pre-BRAC 133 Levels of Service (LOS) following
completion of the short-, mid- and long-term improvements. It should be noted that the City
issued a Development special Use Permit for the density of development and traffic projections
of the BRAC 133 Project…” (Attachment 2, Page 28)




                                               12
DOD IG Response to “Army Response to Finding 3”
The Army fails to offer any supporting documentation to support their non-concurrence
response.

Although the Army acknowledges the Transportation Plan does not maintain existing level of
service at all six intersections, as required by Public Law 11-383, the Army fails to document
why they are unable to accomplish this requirement. The Army did not provide any additional
information to adequately address the assessment of cost or programming of funds for their
shuttle bus program beyond FY2012. They also did not address funding for the administrative
elements of the Transportation Management Plan or a strategy for achieving the BRAC 133
Project Fort Belvoir - Mark Center Transportation Management Plan goals for future years. The
Army also fails to address the impact of BRAC 133 Project Fort Belvoir - Mark Center five
years in the future, as suggested by Institute of Transportation Engineers (ITE) guidelines.

Recommendation 3
We recommend the Army revise and update the Transportation Plan to identify the required
infrastructure improvements with associated costs and programming necessary to maintain
existing LOS in the vicinity of the Mark Center.3A, 3B, 3D The Transportation Plan should identify
available funding for the shuttle-bus program beyond FY2012 to relieve anticipated congestion
in the future years.3C The updated Transportation Plan should also include the funding source of
the administrative elements of the BRAC 133 Project Fort Belvoir - Mark Center Travel Demand
Management program and the proposed funding source for additional funding necessary to
maintain existing LOS.3B, 3D

Army Response to Recommendation 3
The Army non-concurs with DoD IG Recommendation 3. The Army states “as noted, the
development permit issued for the site anticipated a traffic increase and included road
improvements in mitigation thereof. Presumably, the City considered these improvements as
adequate mitigations for the expected traffic volumes of the new development. The Army
provided $12 million to construct these improvements. Public Law 11-383 imposed an entirely
new set of standards well after the construction of the BRAC 133 project had been initiated,
standards which are atypical of those customarily envisioned by urban jurisdictions attempting to
balance continued growth with adequate infrastructure…” (Attachment 2, Page 28)

DoD IG Response to “Army Response to Recommendation 3”
The Army does not concur with our recommendation to identify mitigation measures to maintain
level of service (LOS) at the six intersections. This is based on the Army’s assumption there
may be intersections incapable of achieving pre-BRAC 133 level of service (LOS) following the
completion of the short-, mid-, and long-term improvements. Furthermore, they consider their
current mitigation measures, which fail to address significant adverse project impacts, as
adequate without presenting any sufficient supporting facts. They also did not address funding
for the administrative elements of the Transportation Management Plan and strategy for
achieving the BRAC 133 Project Fort Belvoir - Mark Center Transportation Management Plan
goals for future years.




                                               13
References:   I. SAMs Independent Engineering Assessment of the Army’s Transportation Plan
                 for BRAC Recommendation #133 Project Fort Belvoir – Mark Center,
                 Virginia, September 30, 2011.

                    3A.   5.3.1 Horizon Year (page 83)
                    3B.   5.3.2 Maintaining Existing Level of Service (LoS) (page 83)
                    3C.   5.3.3 Cost Estimate (page 84)
                    3D.   5.3.4 Programming of Project Funding (page 84)




                                             14
Finding 4 – Inadequate Implementation of Alternative Methods of
Transportation Necessary to Maintain Existing Level of Service
The goal of maintaining Level of Service (LOS) at six intersections, required by the National
Defense Authorization Act (NDAA) Public Law 111-383, may not be achievable because the
Transportation Plan has several deficiencies in its proposed alternative methods of transportation
to reduce Single Occupancy Vehicles (SOVs).4C, 4D, 4E

The Army Transportation Plan is based on the July 2010 Transportation Management Plan
(TMP) for other methods of transportation, which was reviewed and granted conditional
approval by the National Capital Planning Commission (NCPC). However, the TMP and the
Transportation Plan do not comply with several NCPC policies, which is the violation of this
Federal standard.4A The deficiencies in the Transportation Plan undermine the efficiency of
alternative methods of transportation necessary to maintain the LOS.
    • NCPC Policies – The Transportation Plan violates six NCPC policies, which are the
        Federal standard for ensuring that Federal projects built in the National Capital Region
        comply with traffic management and mitigation objectives.
            1. The Transportation Plan fails to provide a timeline updating the Travel Demand
                Management (TDM) program every two years. (ISTMP Section 1- pg. 3,
                Paragraph 3, and CPNC-TE, Pg. 87, Item #7)
            2. The Transportation Plan fails to discuss transportation infrastructure or service
                improvements within five miles of the BRAC 133 Project Fort Belvoir - Mark
                Center. (ISTMP Section 1 – pg. 3, Paragraph 2, and CPNC-TE, pg. 87, Item #5)
            3. The Transportation Plan fails to “select reasonable goals and objectives, plan
                appropriate strategies and tasks for carrying them out, and develop a timetable
                and establish a budget.” (ISTMP Section 2 – pg. 11 – Bullet 2)
            4. The Transportation Plan fails to provide a management framework in sufficient
                detail to assess effectiveness or sustainability of the TDM programs. (ISTMP
                Section 1 – pg. 7, left column)
            5. The Transportation Plan fails to address safe travel routes in unfavorable weather
                conditions for walking and bicycling. (ISTMP Section 3 - pg. 28, Paragraph 2,
                right column)
            6. The Transportation Plan fails to consult with local jurisdiction planning and
                transportation officials that would be impacted by the BRAC 133 Project Fort
                Belvoir - Mark Center. (ISTMP Section 2 – pg. 9, Paragraph 5, right column)
    • Shuttle Bus Strategy – The transit time and frequencies of the public bus and shuttle
        services may not be met due to failing LOS on roadways serving BRAC 133 Project Fort
        Belvoir - Mark Center.4B
    • Pedestrian Services – A well-connected, continuous sidewalk system for pedestrian
        safety and access is not adequately provided at specific locations within the vicinity of
        the Mark Center and at specific locations at the site. The lack of a continuous, well-
        connected and safe pedestrian system does not comply with the Americans with
        Disabilities Act (ADA).4F
    • Bicycle Services – The Transportation Plan assumption that 2 percent of the BRAC 133
        Project Fort Belvoir - Mark Center employees will bicycle to work may not be achievable
        because there is no safe and direct bicycle route serving the site. In addition, the




                                                15
       Transportation Plan fails to identify bicycle circulation within, to, and through the
       campus.4G, 4H

Impact 4
The deficiencies in the Transportation Plan, as noted below, undermine the efficiency of
alternative methods of transportation necessary to maintain the LOS due to increased traffic
congestion. Failure to achieve the TMP goal of 43% non-SOV will increase the congestion and
invalidate the FONSI.
    • The Transportation Plan violates six NCPC policies, as follow:
        1. Fails to provide a timeline updating the Travel Demand Management (TDM) program
            every two years;
        2. Fails to discuss transportation infrastructure or service improvements within five
            miles of the BRAC 133 Project Fort Belvoir - Mark Center;
        3. Fails to “select reasonable goals and objectives, plan appropriate strategies and tasks
            for carrying them out, and develop a timetable and establish a budget.”
        4. Fails to provide a management framework in sufficient detail to assess effectiveness
            or sustainability of the TDM programs;
        5. Fails to address safe travel routes in unfavorable weather conditions for walking and
            bicycling; and
        6. Fails to consult with local jurisdiction planning and transportation officials that would
            be impacted by the BRAC 133 Project Fort Belvoir - Mark Center.
   • The inability of the proposed employee bus and shuttle services to achieve sufficient
      headways and travel time objectives, and
   • The lack of adequate and safe pedestrian and bicycle facilities at specific locations within
      the vicinity and at the Mark Center site.

Army Response to Finding 4
The Army non-concurs with IG Finding 4. The Army states, “the claim that the Transportation
Management Plan and Transportation Plan are non-compliant with National Capital Planning
Commission (NCPC) policies is inaccurate. The BRAC 133 development was briefed to NCPC
on September 3, 2010 and the Final Transportation Management Plan was approved by NCPC
under Staff Recommendation No. 6903, which specifically notes that the "proposed TMP for the
BRAC 133 development adequately demonstrates how the proposed modal split will be
achieved". Attached is the approval letter (figure 1). The Army coordinated extensively with the
NCPC staff resulting in a comprehensive TMP that was in accordance with NCPC policies and
guidelines…” (Attachment 2, Page 30)




                                                16
DoD IG Response to “Army Response to Finding 4”
The Army failed to address why they are unable to comply with six NCPC policies with
supporting facts. The SAMS report stated the approved TMP and the Transportation Plan fail to
comply with six NCPC policies, which are the Federal standard for ensuring that Federal projects
built in the National Capital Region comply with traffic management and mitigation objectives.

Recommendation 4
We recommend the Army revise and update the Transportation Plan to comply with NCPC
policies and guidelines.4A The Transportation Plan should evaluate and address the shuttle bus
strategy,4B mode choice assumption,4D TDM marketing strategy,4E and needs of
pedestrian/bicycle routes, facilities and services4F, 4G, 4H to achieve the goals stated in the
Transportation Management Plan. This will ensure safe access and compliance with ADA and
ITE recommended practices.4F, 4G, 4H

Army Response to Recommendation 4
The Army non-concurs with DoD IG Recommendation 4. The Army states, “the BRAC 133
Transportation Plan incorporates the plans set forth in the NCPC approved BRAC 133 TMP. The
TMP is comprehensive, continuously monitored and implemented and if changes are necessary
they will be coordinated with the City of Alexandria.”

DoD IG Response to “Army Response to Recommendation 4”
The Army did not agree to update their Transportation Plan to comply with NCPC policies. The
Army also failed to adequately address other concerns identified in the SAMS report to ensure
compliance with ADA and ITE recommended practices. These concerns include the shuttle bus
strategy, mode choice assumption, TDM marketing strategy, and pedestrian/bicycle route
facilities and services. Failure to address these concerns may compromise the Transportation
Management Plan goal of reducing SOV traffic. The previous DoD IG Assessment of July 2010
BRAC 133 Transportation Plan also found weaknesses in the TMP that may compromise the
ability to meet its SOV reduction goal. The reportII stated, “...the BRAC 133 TMP has the
following weaknesses that may compromise the feasibility of achieving a 40-percent reduction in
single-occupancy-vehicle trips and may consequently impose further adverse impacts on the
roadway network...”




                                               17
References:   I. SAMs Independent Engineering Assessment of the Army’s Transportation
                 Plan for BRAC Recommendation #133 Project Fort Belvoir - Mark Center,
                 Virginia, September 30, 2011.

                   4A. 5.4.1 National Capital Planning Commission (NCPC) Compliance
                       (page 85)
                   4B. 5.4.2 Public Transportation – Shuttle Bus Strategy (page 85)
                   4C. 5.4.3 Transportation Demand Management Goal (page 86)
                   4D. 5.4.4 Mode Choice Assumption (page 86)
                   4E. 5.4.5 TDM Marketing Strategy (page 86)
                   4F. 5.4.6 Pedestrian Service (page 86)
                   4G. 5.4.7 Bicycle Service At or Near Site (page 86)
                   4H. 5.4.8 Bicycle Routings in Proximity to Site (page 87)

              II. Assessment of BRAC 133 Final Environmental Assessment of July 2008
                  and Transportation Management Plan of July 2010, Attachment 3: Acelsior’s
                  Report, Page, 3-70, 3.6 BRAC 133 TMP SUMMARY OF RESULTS




                                           18
                Attachment 2



Department of the Army Comment to the Findings and
                Recommendations of
     DoD Draft Report – Dated October 7, 2011




                        19
This page intentionally left blank




                20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
This page intentionally left blank




                40
                       Attachment 3




  SAMS final report “Independent Engineering Assessment of the
Army's Transportation Plan for BRAC Recommendation # 133 Project
               Fort Belvoir - Mark Center, Virginia”
                        September 30, 2011




                               41
This page intentionally left blank




                42
     Independent Engineering Assessment of the
           Army’s Transportation Plan for
       BRAC Recommendation #133 Project Fort
            Belvoir – Mark Center, Virginia
          (Project No. D2011-DT0TAD-0002)


                                                Submitted To:

                              Office of the Inspector General
                           United States Department of Defense
                                   Policy and Oversight
                            Technical Assessment Directorate




                                                Submitted By:




                                       7001 Loisdale Road, Suite C
                                          Springfield, VA 22150


                                            Date: Sept. 30, 2011



This report was prepared for the Department of Defense Inspector General (DoD OIG) by Strategy and Management
    Services (SAMS), Inc., and provides an independent engineering assessment of BRAC 133 at Mark Center.

  This report is exempt from release under the Freedom of Information Act. This report is solely for the use of the
     Office of Inspector General, Department of Defense personnel. No part of it may be circulated, quoted, or
     reproduced for distribution outside the client organization without prior written approval from Strategy and
Management Services (SAMS), Inc., or DoD OIG. The data subject to this restriction are contained in sheets marked
    “Use or disclosure of data contained on this page is subject to the restriction on the title page of this report.
This page intentionally left blank
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




                                                    Table of Contents

1.0  Executive Summary.............................................................................................. 1
2.0  Introduction ........................................................................................................... 4
2.1  History and Overview ........................................................................................... 4
2.2  Scope of Report .................................................................................................... 5
3.0  Method of Assessment ........................................................................................ 7
4.0  Issues, Analyses and Findings............................................................................ 8
4.1  Process .................................................................................................................. 8
    4.1.1 Traffic Studies ............................................................................................................. 8
    4.1.2 Traffic Counts ........................................................................................................... 12
    4.1.3 Background Traffic ................................................................................................... 14
    4.1.4 Trip Generation ......................................................................................................... 17
    4.1.5 Trip Distribution/Traffic Assignment ....................................................................... 20
    4.1.6 Transportation Plan ................................................................................................... 23
4.2 Ingress/Egress .................................................................................................... 25
    4.2.1 High Occupancy Vehicle Access .............................................................................. 25
    4.2.2 Study Area ................................................................................................................ 26
    4.2.3 Capacity of I-395 ...................................................................................................... 31
    4.2.4 I-395 Congestion ....................................................................................................... 33
    4.2.5 Mitigation .................................................................................................................. 34
    4.2.6 Parking Supply .......................................................................................................... 35
    4.2.7 On-Site Circulation (Vehicle and Pedestrian)........................................................... 37
    4.2.8 Safety ........................................................................................................................ 41
    4.2.9 Impact on Emergency Response ............................................................................... 42
    4.2.10 Construction Impacts ................................................................................................ 43
4.3 Assessment of Costs ......................................................................................... 44
    4.3.1 Horizon Year ............................................................................................................. 45
    4.3.2 Maintaining Existing Level of Service (LoS) ........................................................... 46
    4.3.3 Cost Estimates ........................................................................................................... 48
    4.3.4 Programming of Project Funding.............................................................................. 52
4.4 Use of Other Methods of Transportation that are Necessary to Maintain
Existing LoS ................................................................................................................ 53
    4.4.1 National Capital Planning Commission (NCPC) Compliance ................................. 54
    4.4.2 Public Transportation - Shuttle and Bus Strategy ..................................................... 59
    4.4.3 Transportation Demand Management Goal .............................................................. 66
    4.4.4 Mode Choice Assumptions ....................................................................................... 66
    4.4.5 TDM Marketing Strategy .......................................................................................... 68
    4.4.6 Pedestrian Service ..................................................................................................... 69
    4.4.7 Bicycle Service At or Near Site ................................................................................ 73
    4.4.8 Bicycle Routings in Proximity to Site ...................................................................... 74
5.0 Findings and Conclusions ................................................................................. 78
5.1 Conclusion: Process .......................................................................................... 78
    5.1.1 Finding: Traffic Studies ............................................................................................ 78
    5.1.2 Finding: Traffic Counts............................................................................................. 78


                                                                     i
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




    5.1.3 Finding: Background Traffic .................................................................................... 78
    5.1.4 Finding: Trip Generation .......................................................................................... 79
    5.1.5 Finding: Trip Distribution/Traffic Assignment ........................................................ 79
    5.1.6 Finding: Transportation Plan .................................................................................... 79
5.2 Conclusion: Ingress/Egress .............................................................................. 80
    5.2.1 Finding: High Occupancy Vehicle Access ............................................................... 80
    5.2.2 Finding: Study Area .................................................................................................. 81
    5.2.3 Finding: Capacity of I-395 ........................................................................................ 81
    5.2.4 Finding: I-395 Congestion ........................................................................................ 81
    5.2.5 Finding: Mitigation ................................................................................................... 81
    5.2.6 Finding: Parking Supply ........................................................................................... 82
    5.2.7 Finding: On-Site Circulation (Vehicle and Pedestrian) ............................................ 82
    5.2.8 Finding: Safety .......................................................................................................... 82
    5.2.9 Finding: Impact on Emergency Response ................................................................ 82
    5.2.10 Finding: Construction Impacts .................................................................................. 82
5.3 Conclusion: Assessment of Costs.................................................................... 83
    5.3.1 Finding: Horizon Year .............................................................................................. 83
    5.3.2 Finding: Maintaining Existing Level of Service (LoS) ............................................ 83
    5.3.3 Finding: Cost Estimates ............................................................................................ 84
    5.3.4 Finding: Programming of Project Funding ............................................................... 84
5.4 Conclusion: Use of Other Methods of Transportation Necessary to Maintain
Existing LoS ................................................................................................................ 85
    5.4.1 Finding: National Capital Planning Commission (NCPC) Compliance ................... 85
    5.4.2 Finding: Public Transportation - Shuttle and Bus Strategy ...................................... 85
    5.4.3 Finding: Transportation Demand Management Goal ............................................... 86
    5.4.4 Finding: Mode Choice Assumptions ........................................................................ 86
    5.4.5 Finding: TDM Marketing Strategy ........................................................................... 86
    5.4.6 Finding: Pedestrian Service ...................................................................................... 86
    5.4.7 Finding: Bicycle Service At or Near Site.................................................................. 86
    5.4.8 Finding: Bicycle Routings in Proximity to Site ........................................................ 87
Appendices .................................................................................................................. 88
  Appendix A: Acronyms .............................................................................................. 88
  Appendix B: Tables ................................................................................................... 90




                                                                  ii
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




                                                             Tables

Table 4-1: Summary of Traffic Studies Performed ...................................................................... 11
Table 4-2: Summary of Critical Roundabout Design Features ..................................................... 40
Table 4-3: Level of Service Definitions........................................................................................ 47
Table 4-4: Alternative E Costs...................................................................................................... 49
Table 4-5: Bus and Shuttle Program Cost Estimates for the BRAC 133 Project
           Fort Belvoir – Mark Center, Virginia ......................................................................... 50
Table 4-7: Agency-Reported Involvement in the BRAC 133 Project Fort Belvoir –
           Mark Center, Virginia, Transportation Plan and/or Transportation
           Management Plan........................................................................................................ 58
Table 4-8: Shuttle Services From and To the Mark Center Transit Station ................................. 62
Table 4-9: Mark Center Transit Station - Bus Bay Assignments and Expected AM
           Peak Hour Frequencies ............................................................................................... 62
Table 4-10: Service Frequency LoS – Urban Scheduled Transit Service .................................... 63
Table 4-11: Comparative Commute-to-Work Mode Percentages for BRAC 133 Project Fort
           Belvoir – Mark Center, Virginia, and Study Area Jurisdictions ................................. 67


                                                            Figures

Figure 4-1: Mark Center Ingress/Egress Intersections.................................................................. 27
Figure 4-2: Locations of Recommended Analysis Intersections .................................................. 29
Figure 4-3: Independent Evaluation of the Roundabout ............................................................... 40
Figure 4-4: BRAC 133 Mark Center Shuttle Routes .................................................................... 61
Figure 4-5: Estimation of Bus and Shuttle Carrying Capacity – AM Peak Hour
           BRAC 133 Project Fort Belvoir – Mark Center, Virginia .......................................... 63
Figure 4-6: Locations of Observed Pedestrian Service Deficiencies............................................ 72
Figure 4-7: City of Alexandria Bike Map (Excerpt) Designated Trails and Routes
           in proximity to BRAC 133 Mark Center .................................................................... 76




                                                                  iii
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




1.0    Executive Summary
The Defense Base Closure and Realignment Commission (BRAC), known as BRAC 2005,
became law in Nov. 9, 2005. It required relocating various Department of Defense (DoD) and
related agencies from leased spaces throughout the National Capital Region (NCR) to Fort
Belvoir, Virginia. It was scheduled to be completed by Sept. 15, 2011.

Due to the large number of BRAC movements to Fort Belvoir Engineering Proving Ground
(EPG) and the lack of sufficient infrastructure to support the movement, the Army and
Commonwealth of Virginia agreed to limit the number of units that would move to the EPG.
This resulted in BRAC 133 Project Fort Belvoir – Mark Center, Virginia, requiring the relocation
of 6,409 employees to the Mark Center.

The United States Army Corps of Engineers (USACE) completed an environmental assessment
(EA), studying locations outside of Fort Belvoir for the BRAC 133 operations in July 2008. This
EA resulted in a Finding of No Significant Impacts (FONSI), and the Mark Center, located
adjacent to Interstate 395 (I-395) and bounded by Seminary Road and North Beauregard Street,
was selected as the site. The BRAC 133 FONSI required a transportation management plan
which was developed in July 2010, by USACE in association with the Washington Headquarters
Services (WHS). The National Capital Planning Commission (NCPC) reviewed and granted a
conditional approval of the Transportation Management Plan Sept. 2, 2010.

The U.S. Department of the Army submitted its report, “Transportation Plan for BRAC
Recommendation #133 Project Fort Belvoir-Mark Center, Virginia, pursuant to the National
Defense Authorization Act for Fiscal Year 2011 (Public Law 111-383)” to the Congress
May 9, 2011. The purpose of the Transportation Plan was to address ingress and egress of all
personnel to and from the BRAC 133 project site, the costs and programming of short-,
medium-, and long-term projects, and the use of other methods of transportation, that are
necessary to maintain existing level of service, and the proposed funding source to obtain such
levels of service, at six intersections.

On Jan. 7, 2011, the Ike Skelton National Defense Authorization Act (NDAA) for Fiscal Year
2011 was signed and became Public Law 111-383. The law directed the Department of Defense
Office of Inspector General (DoD OIG) to review and provide comments on the Transportation
Plan for BRAC 133 Project. On July 12, 2011, the DoD OIG contracted Strategy and
Management Services (SAMS), Inc., to provide an independent engineering assessment of the
aforementioned BRAC 133 Project Fort Belvoir – Mark Center, Virginia. This report is a result
and product of that requirement and, based on our work, we developed the following
conclusions.

A review of the data, analysis, and information contained in the Transportation Plan is suspect
and debatable. The volume of transportation studies prepared to address the BRAC 133 impact
at Mark Center creates an illusion that the transportation issues have been thoroughly addressed
and mitigated. However, any sound analysis must begin with sound data. Data for traffic
counts, background traffic, trip generation, trip distribution/traffic assignment was not developed

                                                 1
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




using industry standards or recommended engineering practice. Clouding the Transportation
Plan’s message was a lack of industry standard format and composition leaving the reader
confused and questioning. The end result is the information and the processes used to prepare
the Transportation Plan were not reliable in formulating a plan to address the impacts of
BRAC 133.

The efficient ingress and egress of all personnel to and from BRAC 133 is dependent upon the
provision of a safe and highly functional roadway network. The Transportation Plan failed to
adequately address expected congestion on adjacent arterial roadways serving the Mark Center
and on the roadways within the site itself. Projected queuing on the adjacent arterials will back
up on to the site’s internal roadways and create severe congestion resulting in near gridlock
conditions in peak periods. This will hamper the high frequency express bus and shuttle services
envisioned to move employees quickly to and from the site in the morning and evening.

The Transportation Plan failed to analyze the complete impact of BRAC 133 by limiting its
analysis to the six adjoining intersections as if they existed in isolation. In order for any traffic
analysis to be realistic and complete, standard engineering practice dictates the transportation
plan should include an evaluation of traffic impacts at both signalized and unsignalized
intersections within a radius of two miles from the Mark Center. An additional issue is parking.
The insufficient supply of BRAC 133 parking will likely have a deleterious impact on adjoining
neighborhood traffic and parking conditions as Mark Center employees seek parking on their
own. Other safety concerns related to ingress/egress, but not addressed in the Transportation
Plan, are the historically high crash locations on roadways within the vicinity of the Mark
Center.

Each of these issues will exacerbate congestion on the local road network, have a significant
impact on emergency response, and create an unsafe environment for BRAC employees and the
immediate community. The Transportation Plan failed to adequately address the ingress and
egress needs of all BRAC 133 personnel as directed in the law.

The Transportation Plan generally assessed the costs and programming of short-, medium-, and
long-term projects according to industry standards. However, horizon year studies did not
adhere to industry standards, and because of this may alter current findings on the true costs for
project mitigation. According to the Transportation Plan, the $112 million identified for short-,
medium-, and long-term infrastructure improvements of the BRAC 133 project is not adequate to
maintain the existing level of service (LoS) at the six intersections analyzed. Additional funding
will be necessary to relieve anticipated congestion and maintain existing levels of service. The
Transportation Plan failed to identify necessary improvements to maintain existing levels of
service at the six intersections analyzed.

The use of alternative modes of transportation to support the goal to significantly reduce single
occupancy vehicles generated by BRAC 133 was not well defined. Moreover, it is questionable
whether the goal can be achieved, given the Transportation Plan offers contradictory non-single
occupancy vehicle (SOV) goal statements. Further, the Transportation Plan fails to comply with
several federal standards for developing transportation management plans programs. There are

                                                  2
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




also deficiencies and/or an absence of bicycle and pedestrian facilities and services at and near
BRAC 133. This will hinder the employee walk and bicycle goals established in the
Transportation Plan. Each of these factors, in combination with the inability of the proposed
employee bus and shuttle services to achieve proposed headways due to expected roadway
congestion, suggests the aggressive non-SOV goals established in the Transportation Plan may
not be achieved or sustained. The Transportation Plan failed to identify use of other methods of
transportation necessary to maintain existing levels of service at the six intersections analyzed.




                                                 3
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




2.0    Introduction

2.1    History and Overview

The recommendations of the Defense Base Closure and Realignment Commission (BRAC)
became law Nov. 9, 2005, as provided for in the Defense Base Closure and Realignment Act of
1990 (Public Law 101-510, as amended). One of the recommendations, known as BRAC
Commission Recommendation Number 133 (BRAC 133), required relocating various
Department of Defense (DoD) and related agencies from leased spaces throughout the National
Capital Region (NCR) to Fort Belvoir, Va. It was scheduled to be completed by Sept. 15, 2011.

Due to the large number of BRAC movements to Fort Belvoir Engineering Proving Ground
(EPG) and the lack of sufficient infrastructure to support the movement, the Army and
Commonwealth of Virginia agreed to limit the number of units that would move to the EPG.
This resulted in BRAC 133 Project Fort Belvoir – Mark Center, Virginia, requiring the relocation
of 6,409 employees to the Mark Center.

An environmental assessment (EA) of locations outside of Fort Belvoir for the BRAC 133
operations was completed by the United States Army Corps of Engineers (USACE) in July 2008.
The EA resulted in a Finding of No Significant Impacts (FONSI), signed Sept. 25, 2008, for
three alternative BRAC 133 sites in Virginia. The sites were the Mark Center and the Victory
Center in Alexandria, Va., and the General Services Administration site in Fairfax County. The
BRAC 133 FONSI resulted in the decision to select the Mark Center as the site for BRAC 133
operations. The site is located adjacent to Interstate 395 (I-395) and is bounded by Seminary
Road to the east and North Beauregard Street to the north. The BRAC 133 FONSI also required
a transportation management plan be prepared for the Mark Center.

In association with the Washington Headquarters Services (WHS), USACE developed the
required transportation management plan for BRAC 133. The transportation management plan
outlined a specific set of programs and strategies to be implemented by the WHS to meet the
goal of at least 40 percent of BRAC 133 employees commuting to the Mark Center by means
other than single occupancy vehicles (SOV). The transportation management plan was
documented in a report entitled Transportation Management Plan for BRAC 133 at Mark Center,
Benham Companies, July 2010. The National Capital Planning Commission (NCPC) reviewed
the completed July 2010 Transportation Management Plan and granted a conditional approval of
the document on Sept. 2, 2010.

On Jan. 7, 2011, the Ike Skelton National Defense Authorization Act of Fiscal Year 2011,
Section 2704 “Transportation Plan for BRAC 133 Project Fort Belvoir, Virginia, BRAC
Initiative” was signed and became Public Law 111-383. The law directed the DoD OIG to
“Submit to the congressional defense committees a report evaluating the sufficiency and
coordination conducted in completing the requisite environmental studies associated with the site
selection of the BRAC 133 Project.” The DoD OIG contracted professional services on
Oct. 13, 2010, to conduct an independent engineering assessment of the sufficiency of two

                                                4
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




documents related to the BRAC 133 site selection and implementation process. These
documents were (1) the Final Environmental Assessment: Implementation of 2005 Base
Realignment and Closure Recommendation 133 dated July 2008, and (2) the Transportation
Management Plan for BRAC 133 at Mark Center dated July 2010. This assessment was
completed and the final report was published on April 20, 2011.

In addition, the Jan. 7, 2011 NDAA, Section 2704, “Transportation Plan for BRAC 133 Project
Fort Belvoir, Virginia, BRAC Initiative” directed the Secretary of the Army to submit to the
congressional defense committees a transportation plan for the BRAC 133 project, not later than
90 days after the date of the enactment of this Act. The U.S. Department of the Army submitted
the report, “Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
Center, Virginia, pursuant to the National Defense Authorization Act for Fiscal Year 2011
(Public Law 111-383)” to the Congress on May 9, 2011. The specific provisions of Section 2704
of the Act required:

       The transportation plan for the BRAC 133 project must address ingress and egress
       of all personnel to and from the BRAC 133 project site. The transportation plan
       shall also assess the costs and programming of short-, medium-, and long-term
       projects, and the use of other methods of transportation, that are necessary to
       maintain existing level of service, and the proposed funding source to obtain such
       levels of service, at the following six intersections:

       (1)   The intersection of Beauregard Street and Mark Center Drive
       (2)   The intersection of Beauregard Street and Seminary Road
       (3)   The intersection of Seminary Road and Mark Center Drive
       (4)   The intersection of Seminary Road and the northbound entrance-ramp to I-395
       (5)   The intersection of Seminary Road and the northbound exit-ramp from I-395
       (6)   The intersection of Seminary Road and the southbound exit-ramp from I-395

The 2011 NDAA law also directed the DoD OIG “shall give specific attention to the
transportation determinations associated with the BRAC 133 project and review and provide
comment on the transportation plan for the BRAC 133 project…” On July 12, 2011, the
DoD OIG contracted Strategy and Management Services (SAMS), Inc., to provide an
independent engineering assessment of the aforementioned BRAC 133 Project Fort Belvoir –
Mark Center, Virginia. This report is a result and product of the requirement to conduct an
independent engineering assessment.


2.2    Scope of Report
The scope of this independent engineering assessment is the review and analysis of data and
information included in the U.S. Department of the Army’s May 9, 2011 Transportation Plan for
BRAC Recommendation #133 Project Fort Belvoir - Mark Center and any referenced
documentation associated with it.



                                                5
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Specific attention is given to the Transportation Plan’s compliance with Subsection (b) of
Section 2704, "Transportation Plan for BRAC 133 Project under Fort Belvoir, Virginia, BRAC
Initiative," (Public Law 111-383). Subsection (b) required the BRAC 133 Transportation Plan to
address ingress and egress of all personnel to and from the BRAC 133 project site, to assess the
costs and programming of short-, medium-, and long-term projects, and the use of other methods
of transportation that are necessary to maintain existing level of service, and the proposed
funding source to obtain such levels of service, at the aforementioned six intersections.




                                                6
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




3.0     Method of Assessment

The following steps were undertaken in preparing the Independent Assessment of the BRAC 133
Transportation Plan (herein referred to as the Transportation Plan):

                        The Transportation Plan was collected and reviewed, as were all related
                        policy and technical documents. This included all traffic engineering
      Data Collection
                        studies, transportation planning reports, technical memoranda, and
      and Review
                        previous interviews with key stakeholders, and reference materials related
                        in any way to the issues and topics identified in the Transportation Plan.
                        This assessment addressed the specific categories of review required by
                        Section 2704 of the 2011 National Defense Authorization Act (NDAA).
                        The transportation, traffic and alternative mode policy provisions,
      Analysis          engineering standards, planning standards, technical calculations, data and
                        findings were evaluated and assessed to determine consistency with the
                        provisions of the Act. Industry standards were applied to determine if the
                        goals and issues stated in the Transportation Plan complied with the Act.
                        Issues resulting from the analysis as described above were identified,
      Issues
                        listed, categorized, developed and refined.
                        Written questions were forwarded to officials of public and private
                        agencies that were involved in some way with the preparation, evaluation
                        or review of transportation issues, findings and activities related to the
                        Transportation Plan. This included agencies that responded to interviews
                        from the earlier engineering assessment of the BRAC 133 Environmental
      Interviews        Assessment and Transportation Management Plan conducted by the
                        Department of Defense Office of the Inspector General (DoD OIG) in
                        2010. Oral interviews were conducted with agencies that either requested
                        interviews or with those whom interviews were deemed desirable for the
                        purpose of clarification or update on current events related to the BRAC
                        133 relocation.
                        All of the data collected, evaluated and discussed in the preceding steps
                        were synthesized into Issues Summaries by category. These summaries
      Synthesis
                        were formatted and developed by Topic, Overview, Issue, Analysis and
                        Finding.
                        A draft report was prepared highlighting the issues identified during the
      Draft Report
                        course of this assessment.
      Management
      Review of Draft   Draft report was submitted to management for review and comment.
      Report
                        A final report was prepared incorporating comments received from the
      Final Report
                        draft report review.




                                                  7
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




4.0    Issues, Analyses and Findings
4.1    Process

 Overview

The scope of work was to assess the Transportation Plan against the requirements of public law.
Professional standards guide the development of transportation plans and are the basis for this
assessment. The process and procedures used to prepare the Transportation Plan were
inconsistent with professional standards. The following section provides a summary of the
deficient process and procedural elements used in the development of the Transportation Plan.
These deficiencies are so significant that it rendered the findings and conclusions of the
Transportation Plan unreliable.

4.1.1 Traffic Studies

 Issue

According to the United States Army Corps of Engineer (USACE)1 and the Washington
Headquarters Service (WHS), the Transportation Plan was based on data obtained from all the
studies prepared for the Mark Center (Table 4-1). However, different stakeholders, with
different perspectives, using different data and assumptions, developed over disparate time
periods, and, in general, reaching different conclusions, prepared the studies. Combining or
cherry-picking the various studies and elements make it difficult for anybody, including the
general public to assimilate the information and reach consistent conclusions.

 Analysis

There have been nine major studies focused on identifying BRAC impacts at Mark Center and
several other minor studies, which addressed specific traffic-related issues at the site. According
to the United States Army Corps of Engineer (USACE)1 and the Washington Headquarters
Service (WHS), the Transportation Plan was based on data obtained from all the studies prepared
for the Mark Center.

A review of the various transportation studies used in the development of the Transportation Plan
identified the following issues:

   •   Studies used different study areas ranging from 7 to 15 intersections and multiple I-395
       interchanges
   •   Studies assumed different site generated peak hour volumes ranging from 1,274 to 2,034
       AM peak hour trips and from 1,343 to 2,112 PM peak hour trips
   •   Studies used different estimates of employees ranging from 1,359 to 6,559 employees in
       determining traffic impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia
   •   Studies assumed different mode split values
   •   Studies assumed different parking space provisions ranging from 3,747 to 4,839

                                                8
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




   •   Studies assumed different horizon years ranging from 2011 to 2015 with future year
       analyses up to year 2035
    • Studies estimated different levels of service based on estimated BRAC impacts and
       alternative mitigation measures
    • None of the studies identified mitigation measures that would maintain an existing level
       of service (LoS) at all intersections analyzed as directed by Public Law 111-383 (pg. 47
       of this report - Table 4-3)
A table summarizing the key aspects of each study is presented in Table 4-1 (pgs. 10-11).

 Finding

The volume of transportation studies prepared to address the impact of BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, creates an illusion that the transportation issues have been
thoroughly addressed and mitigated. This is not correct. It appears the Transportation Plan
cherry-picked the various traffic studies listed in Table 4-1 to formulate the findings expressed.
All of the studies were based on faulty baseline data, including existing peak hour traffic
volumes. Many of the studies were flawed in their assessment of the issues, which led to
inaccurate conclusions. None of the studies, individually or collectively, provided a thorough
and accurate analysis of the impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia.

 References

       1. Oral Interview with U.S. Army Corps of Engineers and Washington Headquarters
          Service, Aug. 19, 2011
       2. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
          Washington Headquarters Services, in association with Department of the Army, U.S.
          Army Corps of Engineers, New York District, July 2010, Table 2-2, page 13




                                                 9
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir–Mark Center, Virginia
                                                      (Project No. D2011-DT0TAD-0002)




                                        Employees present on a
                                           typical day shift                     Opening Year        Single Occupant Vehicle         Rideshare           Peak Hour      Total Number
                        Intersections                            Visitors per
    Report/Study                                      Total                      Employee Trip      (SOV) Trips (Employee +    (Carpool/Vanpool/Slug)   Shuttle Bus &    of Parking
                           Studied      Percent                      day
                                                    Number of                     Modal Split                Visitor)                   Trips            Truck Trips       Spaces
                                          %
                                                    Employees
                                                                                                             WHS:
                                                                                                                                                                         4,839 spaces
                                                                                      10%              AM Peak 2034 trips
 Mark Center Traffic                                                                                                                                                     (Inclusive of
                                                                                 Transportation       PM Peak – 2112 trips                              Included as
Impact Study (TIS) –                      n/a         n/a           n/a                                                                                                  government
                             7                                                  Management Plan     (W/O 10 % TMP reduction       Not Considered        part of SOV
 Wells & Associates,                    (Note 1)    (Note 1)      (Note 1)                                                                                                vehicle and
                                                                                 Trip Reduction              IDA:                                           trips
    March 2003                                                                                                                                                          visitor parking
                                                                                    assumed           AM Peak – 481 trips
                                                                                                                                                                            spaces)
                                                                                                      PM Peak – 449 trips
Final Environmental                                                                                                                                     WHS/BRAC
                                                                                  SOV – 58%
 Assessment (FEIS)                                                                                    WHS/BRAC 133:                                        133:
                                                                                Rideshare – 21%                                  WHS/BRAC 133:
  BRAC 133, Fort                                                                                     AM Peak – 1,810 trips                              AM Peak – 31
                             7           90%         5,768           500        Walk/Bike/Other –                               AM Peak – 395 trips                     Not Addressed
      Belvoir –                                                                                      PM Peak – 1,810 trips                                 trips
                                                                                       1%                                       PM Peak – 395 trips
USACE/Tetra Tech,                                                                                       (See Note 2)                                    PM Peak – 31
                                                                                 Metrorail – 20%
     July 2008                                                                                                                                             trips
    BRAC 133                                                        239            SOV – 60%                WHS:                                                         3,904 spaces
   Transportation                                                 (5% of         Rideshare –12%      AM Peak – 1,240 trips                              AM Peak – 34     (Inclusive of
  Improvement &                                                  employees      Bus Transit – 5%      PM Peak – 1,309 trips                                trips         government
                             7           75%         4,807                                                                        Not Considered
 Management Plan                                                  present       Walk/Bike/Other –            IDA:                                       PM Peak – 34      vehicle and
 (TIMP) – Wells &                                                during day            3%              AM Peak – 470 trips                                 trips        visitor parking
Associates, July 2008                                              shift)        Metrorail – 20%       PM Peak – 433 trips                                                  spaces)
                                                                                                            WHS:
                                                                                   SOV – 60%
                                                                    239                              AM Peak – 1,240 + 332                                               3,846 spaces
                                                                                 Rideshare –12%
VDOT Mark Center                                                  (5% of                                     trips                                      AM Peak – 34     (Inclusive of
                                                                                Bus Transit – 5%
      (BRAC)                                         4,806       employees                           PM Peak – 1,309 + 332                                 trips         government
                             7           75%                                    Walk/Bike/Other –                                 Not Considered
Transportation Study                                (Note 3)      present                                    trips                                      PM Peak – 34      vehicle and
                                                                                       3%
   PB, April 2009                                                during day                                  IDA:                                          trips        visitor parking
                                                                                 Metrorail – 15%
                                                                   shift)                              AM Peak – 470 trips                                                  spaces)
                                                                                Re-adjusted – 20%
                                                                                                       PM Peak – 433 trips
                                                                    239            SOV – 60%                WHS:                                                         3,904 spaces
  WHS Internal
                                                                  (5% of         Rideshare –12%      AM Peak – 1,240 trips                              AM Peak – 34     (Inclusive of
Roadway Network            On-site
                                                                 employees      Bus Transit – 5%      PM Peak – 1,309 trips                                trips          government
 Traffic Analysis,      intersections    75%         4,807                                                                        Not Considered
                                                                  present       Walk/Bike/Other –            IDA:                                       PM Peak – 34      vehicle and
Wells & Associates,         only
                                                                 during day            3%              AM Peak – 470 trips                                 trips        visitor parking
   August 2009
                                                                   shift)        Metrorail – 20%       PM Peak – 433 trips                                                  spaces)
                                                                                                                                                                         3,898 spaces
                                                                                                                                                                             (95%
                                                                    239            SOV – 60%               WHS:
Mark Center (BRAC                                                                                                                                                          occupancy
                                         85%         5,448        (5% of         Rideshare –12%      AM Peak – 1,384 trips                              AM Peak – 34
133) Transportation                                                                                                                                                     considered full;
                                                                 employees      Bus Transit – 5%     PM Peak – 1,453 trips                                 trips
  Study – City of            15                                                                                                   Not Considered                          inclusive of
                                         (See      (See Note      present       Walk/Bike/Other –           IDA:                                        PM Peak – 34
 Alexandria/VHB,                                                                                                                                                          government
                                        Note 4)        4)        during day            3%             AM Peak – 470 trips                                  trips
  November 2009                                                                                                                                                           vehicle and
                                                                   shift)        Metrorail – 20%      PM Peak – 433 trips
                                                                                                                                                                        visitor parking
                                                                                                                                                                            spaces)



                                                                                           10
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir–Mark Center, Virginia
                                                      (Project No. D2011-DT0TAD-0002)




                                         Employees present on a
                                            typical day shift                      Opening Year        Single Occupant Vehicle         Rideshare           Peak Hour      Total Number
                         Intersections                             Visitors per
    Report/Study                                       Total                       Employee Trip      (SOV) Trips (Employee +    (Carpool/Vanpool/Slug)   Shuttle Bus &    of Parking
                            Studied      Percent                       day
                                                     Number of                      Modal Split                Visitor)                   Trips            Truck Trips       Spaces
                                           %
                                                     Employees
                                                                      239            SOV – 60%               WHS:                                                          3,904 spaces
Mark Center (BRAC
                                                                    (5% of         Rideshare –12%      AM Peak – 1,254 trips                              AM Peak – 34     (Inclusive of
 133) Access Study
                                                                   employees      Bus Transit – 5%     PM Peak – 1,323 trips                                 trips         government
Operational Analysis          14          75%         4,807                                                                         Not Considered
                                                                    present       Walk/Bike/Other –           IDA:                                        PM Peak – 34      vehicle and
Report / IJR – VDOT,
                                                                   during day            3%             AM Peak – 470 trips                                  trips        visitor parking
   February 2010
                                                                     shift)        Metrorail – 20%      PM Peak – 433 trips                                                   spaces)
                                                                                     SOV – 57%
                                                                                                                                                                           3,747 spaces
      USACE                                                                         Carpool – 5%             WHS:
                                                                                                                                                             WHS           (Inclusive of
   Transportation                                                                   Vanpool – 3%       AM Peak – 1,345 trips
                                                                                                                                   WHS/BRAC 133:          AM Peak – 68          150
  Management Plan                                                                     Slug – 3%        PM Peak – 1,277 trips
                              9           90%         5,768            500                                                         AM Peak – 81 trips        trips         government
      (TMP) –                                                                     Bus Transit – 5%            IDA:
                                                                                                                                   PM Peak – 77 trips     PM Peak – 68      vehicle and
 Benham/SAIC, July                                                                   Walk – 2%          AM Peak – 470 trips
                                                                                                                                                             trips        visitor parking
        2010                                                                          Bike – 2%         PM Peak – 433 trips
                                                                                                                                                                              spaces)
                                                                                   Metrorail – 23%
                                                                                     SOV – 57%
Mark Center (BRAC                                                                   Carpool – 5%             WHS:                                                          3,747 spaces
                                                                                                                                                             WHS
133) Short/Mid-Term                                                                 Vanpool – 3%       AM Peak – 1,345 trips                                               (Inclusive of
                                                                                                                                   WHS/BRAC 133:          AM Peak – 68
Improvements,                                                                         Slug – 3%        PM Peak – 1,277 trips                                               government
                              7           90%         5,768            500                                                         AM Peak – 81 trips        trips
Alternative Technical                                                             Bus Transit – 5%            IDA:                                                          vehicle and
                                                                                                                                   PM Peak – 77 trips     PM Peak – 68
Memorandum, -                                                                        Walk – 2%          AM Peak – 470 trips                                               visitor parking
                                                                                                                                                             trips
VDOT February 2011                                                                    Bike – 2%         PM Peak – 433 trips                                                   spaces)
                                                                                   Metrorail – 23%
                                                                                     SOV – 57%
 Transportation Plan                                                                                                                                                       3,747 spaces
                                                                                    Carpool – 5%             WHS:
      for BRAC                                                                                                                                               WHS           (Inclusive of
                                                                                    Vanpool – 3%       AM Peak – 1,345 trips
Recommendation 133                                                                                                                 WHS/BRAC 133:          AM Peak – 68          150
                                                                                      Slug – 3%        PM Peak – 1,277 trips
Project Fort Belvoir -        6           90%         5,768            500                                                         AM Peak – 81 trips        trips         government
                                                                                  Bus Transit – 5%            IDA:
Mark Center, Virginia                                                                                                              PM Peak – 77 trips     PM Peak – 68      vehicle and
                                                                                     Walk – 2%          AM Peak – 470 trips
    – A report to                                                                                                                                            trips        visitor parking
                                                                                      Bike – 2%         PM Peak – 433 trips
Congress, May 2011                                                                                                                                                            spaces)
                                                                                   Metrorail – 23%
                                                                  Table 4-1: Summary of Traffic Studies Performed2


NOTE 1.     Institute of Transportation Engineers (ITE) Trip Generation rates to generate peak hour trips.
NOTE 2.     Peak hour volumes obtained from Figure 3-20 (EA)
NOTE 3.     Employee numbers obtained from Page 4 of the Technical Memorandum, PB.
NOTE 4.     See Table 3, page 15.




                                                                                             11
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




4.1.2 Traffic Counts

 Issue

AM and PM peak period turning movement counts were used to identify existing traffic
circulation patterns in the vicinity of the proposed development. These counts provide the base
data upon which background and site generated traffic volumes are added to provide a picture of
traffic flow conditions at the time the development is occupied. It is expected these counts are
collected during time periods that represent average traffic flow conditions. If not, the counts
should be adjusted to represent these conditions.

Traffic counts used in the development of the Transportation Plan were conducted during periods
impacted by holiday weekends or during the summer months when school was not in session.
Traffic counts at these times will typically represent traffic volume scenarios which are lower
than would be expected under an average peak condition.

 Analysis

With the exception of the final environmental assessment (EA)1, all traffic studies prepared to
address the impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, relied on the AM
and PM peak hour traffic counts collected by Wells & Associates in the development of the
Transportation Improvement and Management Program2 (TIMP). In addition to the TIMP, the
following studies also used the Wells data to represent existing counts:

   •   Mark Center (BRAC) Transportation Study, Parsons Brinckerhoff (PB), 2009
   •   Mark Center (BRAC 133) Transportation Study, Vanasse Hangen Brustlin, Inc. (VHB),
       2009
   •   Transportation Management Plan for BRAC 133 at Mark Center, Benham Companies,
       2010
   •   Mark Center (BRAC 133) Short/Mid-Term Improvements Alternatives Technical
       Memorandum, VDOT, 2011

The issue with these traffic counts is they were collected May 29, 2008 and July 1, 2008 – dates
within the influence of national holidays when traffic volume conditions are typically less than
the average. A recent study3 of the traffic related impacts of statutory holidays suggests that
holiday related traffic can be up to 35 percent less than typical PM peak hour volumes on
commuter routes.

Additionally, VDOT4,5 used counts collected taken during June, and VHB6 used counts taken
during July to provide the existing AM and PM peak traffic counts for the additional
intersections not included in the TIMP.

The Institute of Transportation Engineers (ITE)7 provides guidance on the collection and use of
traffic count data in the preparation of transportation impact analyses for site development. ITE


                                                12
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




recommends traffic impact analyses should include traffic count data that meets the following
criteria:

   •   Current and historical daily and hourly volume counts in the study area
   •   Less than one year old
   •   Adjusted to account for seasonal variations
   •   Reflect average and design volume conditions

Based on the ITE guidance and industry practice, the TIMP counts should have been taken
outside the influence of the Memorial Day (May 26, 2008) and July 4th national holidays.

In addition to the Wells & Associates counts used in all analyses, the Transportation
Management Plan8 used July 2009 counts without seasonal adjustments, and VDOT4,5 used June
counts without seasonal adjustment. The ITE practice suggests seasonal adjustments be applied
to this data to ensure that it is representative of average peak hour traffic volume conditions.

Finally, the ITE Recommended Practice7 suggests data should not be older than one year. The
VDOT study5 of 2011 used the 2008 traffic volumes – which are outside the one-year time
horizon.

The VDOT’s studies4,5 indicate permanent count stations exist in the I-395 corridor in the
vicinity of the Seminary Road interchange. Data from these stations should have been used to
develop appropriate adjustment factors which could be applied to these counts to obtain average
traffic volume conditions.

 Finding

The traffic counts used in the transportation studies prepared to address the traffic impacts of
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, did not comply with requirements of
ITE recommended standards for collecting such data. The traffic counts were taken during time
periods when traffic volumes are impacted by national holidays and summer vacations. The
resultant peak hour turning movement volumes did not reflect an average peak hour traffic
conditions for the study area. As a result, there was an understatement of existing AM and PM
peak hour traffic volumes which was perpetuated through all other volume scenarios used to
evaluate the impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia.

 References

       1. Final Environmental Assessment (FEA) BRAC 133, Fort Belvoir – USACE/Tetra
          Tech,, July 2008
       2. BRAC 133 Transportation Improvement & Management Plan (TIMP) – Wells &
          Associates, July 2008
       3. Statistical Investigation of Statutory Holiday Effects on Traffic Volumes, Figure 5
          (c), Transportation Research Record 1945, 2006


                                                13
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




       4. Mark Center (BRAC 133) Access Study-Operational Analysis Report / IJR – VDOT,
          February 2010
       5. Mark Center (BRAC-133) Short/Mid-Term Improvements Alternatives Technical
          Memorandum, VDOT, February 2011
       6. Mark Center (BRAC 133) Transportation Study – City of Alexandria/VHB,
          November 2009
       7. Transportation Impact Analyses for Site Development: An ITE Recommended
          Practice, 2010: Traffic Volumes (Table 3-2 Suggested Background Data, pg. 17)
       8. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
          Washington Headquarters Services, in association with Department of the Army, U.S.
          Army Corps of Engineers, New York District, July 2010

4.1.3 Background Traffic

 Issue

Background traffic volumes represent the estimated growth in traffic expected to occur between
the period represented by the existing traffic volumes and the period when the proposed
development is expected to be occupied. The ITE Recommended Practice1 defines the
components of background traffic as:

   •   Through traffic consisting of all movements through the study area, without an origin or a
       destination in the study area – sometimes referred to as “background (or ambient)
       growth,” and
   •   Traffic generated by all other developments in the study area, with an origin and/or a
       destination in the study area – sometimes referred to as “background development” or
       “pipeline development.”

A review of the transportation impact studies used in the preparation of the Transportation Plan
did not include a comprehensive representation of background growth and development in the
formulation of AM and PM peak hour background traffic volumes for the 2011 horizon year.

 Analysis

Background Growth

Background traffic growth was determined in two different ways by the traffic studies used to
prepare the Transportation Plan.

The TIMP2 compared the existing volumes on Seminary Road in June 1994 to the volumes
existing in May 2002 and determined that traffic volumes had actually decreased. Therefore, no
background traffic growth was included in the traffic impact study used for the development of
the TIMP. The TIMP study offered no explanation as to the validity of comparing these two
volume scenarios. The comparison did not identify the possible impact of variations in daily and
monthly traffic flow conditions between the two dates or other potential influences that would

                                                14
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




impact traffic flow, such as construction activity. Such issues could alter the conclusion that no
traffic growth occurred during this time frame. A different approach was used for the remaining
studies.

The remaining, non-VDOT studies applied projected regional growth rates developed from the
Metropolitan Washington Council of Governments (MWCoG) models to develop an estimate of
background growth. Under this methodology, a regional annual growth rate of 0.51 percent per
year was obtained by comparing the 2010 and 2020 traffic forecasts identified in the MWCoG
traffic-forecasting model. This rate was then applied to the existing traffic count data to
determine the background growth element of the 2011 AM and PM peak hour BRAC horizon
year traffic volume. This approach is consistent with standard practice as long as it is expected
that recent development trends will continue at the same rate or at a rate that is predictable. (ITE
Recommended Practice pg. 2, ¶2)

The VDOT studies identified in the Transportation Plan were not intended to offer an evaluation
of the site impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia. The studies
performed by VDOT focused on the overall impact of future growth on the transportation
facilities serving the Mark Center. For the future horizon year analysis, (2015 and 2035) VDOT3
employed the Transportation Planning Board (TPB) Regional Travel Model (Version 2.2) to
forecast background traffic.

The use of regional modeling to represent future year intersection turning movement counts for a
site development traffic analysis by VDOT is problematic. Typically, these models are used to
identify the needs of the regional highway network, not local arterial streets. The use of the
regional model output to estimate turning movements may not replicate reasonable forecasts.
This is supported by ITE Recommended Practice: Use of Regional Traffic Forecasting Models,
(pg. 28, ¶6):

       “Even when an extremely detailed network is used and some sort of multiple-path
       assignment technique is employed, specific turning volumes produced by the area
       transportation plan forecast assignment process will rarely be directly usable for detailed
       analyses. Turning movement accuracy will not be high, particularly in long-range
       forecasts.”

Background Development (Pipeline Projects)

In general, the transportation studies used in the development of the Transportation Plan did not
recognize the traffic impact of pipeline development in the analysis process. As stressed in the
ITE Recommended Practice (ITE, pg. 23, ¶3), identification of the traffic impacts of background
development “…is particularly important, since conditions associated with nearby developments
may be affected by traffic generated by the new site, or may generate traffic that affects the site
being studied.”

The transportation studies prepared for BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
included a very limited analysis of pipeline projects. The majority of the studies included only

                                                15
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




development within the Mark Center, such as the expansion of the Institute for Defense Analysis,
Inc. (IDA) Building 5, or releasing of space at 1801 and 2001 Beauregard Street. An exception
to this approach was the VHB study4 that included a proposed medical office building
development at 4661 Kenmore Avenue. The results of the VHB future baseline volumes were
also used in the development of the Transportation Management Plan5.

The Transportation Plan stated “the City of Alexandria has already issued permits and approvals
for the development of over [sic] 4 million gross square feet of additional space in the city’s west
end.” (Transportation Plan pg. 16, ¶2)

Based on this information, it appears there is significant development planned for the Mark
Center area of the city. The traffic impact of these developments should have been included in
the background traffic used in the evaluation of traffic related impacts of BRAC 133 Project Fort
Belvoir – Mark Center, Virginia.

 Finding

Site development transportation impact analyses require the inclusion of background traffic
growth to provide an understanding of overall traffic impact in the development’s horizon year:
defined as the time the proposed development is occupied. The transportation studies used to
develop the Transportation Plan did not adhere to the ITE Recommended Practice in the
development of background traffic volumes for the assessment of project impact. Not all studies
used in the development of the Transportation Plan included ambient growth, and none of the
studies evaluated the impact of the four million gross square feet (gsf) of pipeline development
identified in the Transportation Plan.

The 2011 horizon year peak hour traffic volumes used in the development of the Transportation
Plan are significantly less than the anticipated peak hour volumes. Consequently, the level of
service will be significantly lower than those used in the development of the Transportation Plan.
Therefore this creates an inaccurate representation of project impact in the horizon year.

 References

       1.   Transportation Impact Analyses for Site Development: An ITE Recommended
            Practice, 2010: Background Traffic (pg. 23, ¶2)
       2.   BRAC 133 Transportation Improvement & Management Plan (TIMP) – Wells &
            Associates, July 2008
       3.   Mark Center (BRAC-133) Short/Mid-Term Improvements Alternatives Technical
            Memorandum, VDOT, February 2011(pg. 17, ¶1)
       4.   Mark Center (BRAC 133) Transportation Study – City of Alexandria/VHB,
            November 2009
       5.   Transportation Management Plan for BRAC 133 at Mark Center, Benham
            Companies. Prepared for Washington Headquarters Services, in association with
            Department of the Army, U.S. Army Corps of Engineers, New York District, July
            2010

                                                16
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




4.1.4 Trip Generation

 Issue

According to the Transportation Plan, the site of BRAC 133 Project Fort Belvoir – Mark Center,
Virginia, is projected to generate 1,500 AM and PM peak hour trips (Transportation Plan, pg. 9,
¶1). ITE Recommended Practice1 states, “One of the most critical elements of site impact
studies is estimating the amount of traffic to be generated by a proposed development.” (ITE,
pg. 35, ¶1)

There was a significant variance in the peak hour traffic volumes between the various studies.
The Environmental Assessment2 (EA) suggested 310 peak hour trips, and the 2003 Wells study3
stated 2,034 AM and 2,112 PM peak hour trips. The EA peak hour volume estimate was low
because the analysis assumed the Mark Center had already been approved for 5,050 employees,
and the additional impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, was
simply an additional 1,359 (6,409 – 5050 = 1,359) employees resulting in 310 peak hour trips.

The Wells Study used ITE trip generation rates; whereas the other studies used a non-standard
process of deriving an estimate of site trip generation based on assumptions applied to expected
daily employment numbers. The assumptions included: the amount of SOV and non-SOV
traffic volumes, available parking supply, percentage of employees assigned to the day shift,
average attendance, and estimated visitors. This approach is not consistent with VDOT traffic
impact study guidelines (24VAC30-155-60) that require the use of ITE trip generation rates, nor
is it consistent with ITE Recommended Practice which delineates a process for estimating site
generated traffic volumes.

The ITE Recommended Practice identifies a procedure for determining appropriate trip
generation estimates, whereas VDOT traffic impact study guidelines (24VAC30-155-60) require
the use of ITE trip generation rates in estimating site generated peak hour traffic volumes.

 Analysis

A review of the traffic studies used in the preparation of the Transportation Plan indicates there
are three issues related to the development of trip generation data used in the Transportation
Plan.

First, the relevant transportation studies did not adhere to recommended practice in determining
estimates of site generated peak hour traffic. ITE Recommended Practice4 provides guidance in
the selection of an appropriate process as the following:

   •   Check national sources for an applicable range of trip generation estimates based on trip
       rates and equations
   •   Check for availability of local trip generation rates for comparable sites



                                                17
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




   •   Conduct trip generation studies at sites with characteristics similar to those of the
       proposed development if local data for similar developments are not available, and if time
       and funding permit
   •   Determine the design level of traffic (e.g., peak season, average peak hours) to be utilized
       for the analysis and select appropriate equations and/or rates
   •   Determine any adjustments that need to be applied to trip equations and/or rates to
       account for the specific characteristics of the development in question
   •   Select the most appropriate and defensible trip generation rates and/or equations and
       document the basis for selection
   •   Document the reasons for any variation from normally recognized generation rates or
       equations and for assumption unique to the development

The estimates of site trip generation used for the Transportation Plan were not developed in
accordance with the guidelines identified above. There was no attempt to use the ITE trip
generation data, to identify local trip generation rates, or to conduct a trip generation study using
relevant sites. However, the TIMP5 did include an AM and PM peak period traffic count at
Liberty Crossing, a secure government facility, to determine directional orientation of peak hour
trips.

The ITE Recommended Practice goes on to state, “National data sources should be used as
starting point in estimating the amount of traffic that may be generated by a specific building or
land use.” (ITE pg. 36, ¶3) ITE provides a significant database of national trip generation
studies6. A review of the ITE Trip Generation report indicates that Land Use (LU) Code 715
Single Tenant Office Building would be the appropriate code for an assessment of BRAC 133
Project Fort Belvoir – Mark Center, Virginia. (ITE Trip Generation, pg. 1221)

A review of Trip Generation Handbook7 suggests that application of the existing ITE rates or
equations to the Mark Center may not be appropriate because the size of the Mark Center
building (1,779,000 gsf) is significantly larger than the largest site included in the Land Use
(LU) Code 715 database. One approach to this dilemma would be the application of the
regression equations identified in LU Code 715. Use of the regression equation would provide
the “best fit” for the line that passes through all available data points and in essence represent an
extrapolation of the data to a building of the square footage of the Mark Center. The result of the
calculation using the regression equation suggests an AM peak hour volume of 2,976 (1.66 ×
1,779 + 22.94 = 2,976) vehicles and a PM peak hour volume of 2,792 (1.55 × 1,779 + 34.88 =
2,792) vehicles, which is significantly higher than the peak hour volumes presented in the
Transportation Plan.

An alternative approach, recommended by the ITE Trip Generation Handbook, would be a
special trip generation study performed in accordance with ITE standards to determine
appropriate trip generation rates. (Trip Generation Handbook, pg. 10, Step 2). The ITE Trip
Generation Handbook recommends a procedure and parameters for developing a legitimate
estimate of trip generation for the proposed development (Trip Generation Handbook,
Chapter 4).


                                                 18
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




The use of ITE rates, as required by VDOT8, applied to the proposed 1,779,000 gsf, would yield
an estimated 3,202 AM and 3,078 PM peak hour trips which is twice the volume identified in the
Transportation Plan.

Secondly, it is believed that the traffic volumes assumed for IDA Building 5, used in the
development of the Transportation Management Plan9 and the associated traffic impact study,
are significantly less than what ITE data would suggest. The Transportation Management Plan
estimated IDA Building 5 would generate 470 AM and 433 PM peak hour trips. (Transportation
Management Plan, Table 4-4, pg. 67) This data was obtained from application of the ITE rates
for an office park development (LU Code 750) rather than the rates for a single tenant office
building (LU Code 715).

Application of the regression equations, for LU Code 715, indicates IDA Building 5, with
368,400 gsf, would generate 634 (1.66 × 368.400 + 22.94 = 634) AM and 595 (1.52 × 368.400 +
34.88 = 595) PM peak hour trips. This results in an additional 164 (634 – 470 = 164) AM and
162 (595 – 433 = 162) PM peak hour trips that should have been included in various volume
scenarios used in the development the traffic impact study included in the Transportation
Management Plan. It should be noted that the Transportation Plan acknowledged IDA Building
5 would generate approximately 650 peak hour trips even though that volume was not used in the
Transportation Management Plan analysis.

Third and finally, the employee population used to develop the estimates of AM and PM peak
hour volumes was significantly understated. In general, the transportation studies used in
developing the Transportation Plan employed the official BRAC 133 Project Fort Belvoir –
Mark Center, Virginia, employee estimate of 6,409 employees. The Transportation Management
Plan also added the 150 support personnel that will be on site. However, it was stated by
USACE and WHS officials during an August 2011 oral interview10 that the actual number of
support personnel is closer to 400. These additional employees would result in an increase of 57
AM and 55 PM peak hour trips.

The result of these three factors suggests that the peak hour site trip generation is significantly
higher than the 1,500 peak hour trips identified in the Transportation Plan.

 Finding

The ITE Recommended Practice defines how trip generation shall be determined for site
development transportation impact analyses. The Mark Center trip generation used in the
development of the Transportation Plan was not determined in accordance with this practice.
ITE recommends the use of national trip generation data where possible, and if not, the
development of a local trip generation study in accordance with ITE standard practice.

The studies used in the development of the Transportation Plan did not follow these guidelines,
but simply estimated peak hour trip generation from total site employment. As a result, the peak
hour volumes stated in the Transportation Plan appear to be significantly less than what would be
estimated if the ITE procedures and VDOT-recommended guidelines had been used.

                                                 19
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Application of ITE rates suggest peak hour volumes of BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, could be as high as 3,000 vehicles per hour or approximately double the peak
hour volumes represented in the Transportation Plan.

 References

       1. Transportation Impact Analyses for Site Development: An ITE Recommended,
           Institute of Transportation Engineers, 2010
       2. Final Environmental Assessment (FEA) BRAC 133, Fort Belvoir – USACE/Tetra
           Tech, July 2008
       3. Mark Center Traffic Impact Study (TIS) – Wells & Associates, March 2003
       4. Transportation Impact Analyses for Site Development: An ITE Recommended,
           Institute of Transportation Engineers, 2010: Procedure for Determining Appropriate
           Trip Generation Estimates (Table 5-1, pg. 36.)
       5. BRAC 133 Transportation Improvement & Management Plan (TIMP) – Wells &
           Associates, July 2008
       6. Trip Generation: An Informational Report, 8th Edition, ITE, 2008
       7. Trip Generation Handbook, Second Edition: An ITE Recommended Practice, ITE,
           2004, pg. 10, Step 2
       8. Virginia Department of Transportation Traffic Impact Statement Guidelines
           (24VAC30-155-60)
       9. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
           Washington Headquarters Services, in association with Department of the Army, U.S.
           Army Corps of Engineers, New York District, July 2010
       10. Oral Interview: U.S. Army Corps of Engineers and Washington Headquarters
           Service, Aug. 19, 2011

4.1.5 Trip Distribution/Traffic Assignment

 Issue

The Transportation Plan assumes trip distribution percentages for BRAC employees based on a
survey of the residential zip codes of current federal employees relocating to the Mark Center.
Traffic assignment was determined through the use of the trip distribution percentages and an
assumption of an assumed route from the various residential locations to the Mark Center1.
Application of this approach is neither consistent with engineering best practices nor likely to
provide a reasonable estimate of project impact on the transportation network.

The project influence area must be determined before distributing project trips. The influence
area for the Mark Center was based on the residential zip code of the federal employees of
BRAC 133 Project Fort Belvoir – Mark Center, Virginia. The zip code data was used to
distribute all trips for the 6,559 (6,409 BRAC employees + 150 support personnel = 6,559)
employees that will occupy the Mark Center. The 150 support personnel include maintenance,
information technology and other support persons. It should be noted that based on recent


                                                20
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




communication2 with WHS staff, the actual support personnel staff is closer to 400 than the 150
used in development of the Transportation Management Plan3.

Although use of residential zip code data is beneficial in the identification of trip distribution
patterns for BRAC employees, the zip code data only included the federal employees and not the
defense contractors2. Failure to include a sample of the residential zip codes of the defense
contractor population compromises the applicability of the data to the entire employment
population.

Regarding traffic assignment, site generated traffic was assigned to the regional roadway
network based on assumed routes employees and contractors would take from their residences to
the Mark Center and vice versa.1

 Analysis

Residential zip codes were obtained by WHS from personnel records for the federal employees
who constitute 69 percent of the total employee population of the Mark Center. Similar records
were not available for the defense contractors who comprise 31 percent of the population.
Therefore, a considerable difference in the orientation of residential zip codes of defense
contractors compared to federal employees has the potential to significantly change the trip
distribution patterns used in the analysis of the traffic impact of BRAC 133 Project Fort Belvoir
– Mark Center, Virginia. Assuming there are 6,809 (6,409 BRAC 133 employees + 400 support
personnel = 6,809) total employees, of which zip code data was obtained from pay roll records
for 4,698 (0.69 × 6809 = 4,698) employees; yet, no data was obtained for 2,111 (0.31 × 6809 =
2,111) employees.

The potential for the defense contractors to have different residential locations than the federal
employees is possible due to dissimilar income levels and the short-term nature of the job. To
illustrate this point, the following hypothetical argument is offered:

Currently, the Transportation Management Plan assumes 48 percent of the peak hour trips will
use I-395, and 52 percent will use the local street network (Transportation Management Plan,
pg. 67, ¶2). If a survey of the 2,111 defense contractors indicates that half of the contractors, or
15 percent of the of the total employee population, live in residential locations where use of the
surface street network would be more appropriate than the use of I-395, the resultant distribution
would dramatically alter the impact to I-395 and the arterial street network.

For example, using Transportation Management Plan data, the BRAC 133 Project Fort Belvoir –
Mark Center, Virginia, is estimated to generate 1,500 AM and PM peak hour trips, and 52
percent of site generated peak hour traffic or 780 (1500 × 0.52 = 780) vehicles are expected to
use the arterial street network while 48 percent, or 720 (1500 × 0.48 = 720) vehicles will use I-
395. Assuming half of the defense contractors would use the arterial streets, and half would use
I-395; rather than the 52/48 split suggested by the Transportation Management Plan. This would
result in 67 percent of BRAC employees using local arterials, and 33 percent using I-395; i.e.,
half of the defense contractors – or 15 percent of the total population assumed to have residential

                                                 21
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




locations different from the federal employee – would use the local arterial street network rather
than I-395. The result would be 1,005 (1,500 × 0.67 = 1,005) trips on the local arterial network
and 495 (1,500 × 0.33 = 495) trips on I-395. Difference is 225 (720 – 495 = 225) fewer peak
hour trips on I-395 and 225 (1,005 – 780 = 225) more peak hour trips on the local arterial
network.

The conclusion of this analysis is that the actual residential zip codes of the defense contractors
could significantly change the subsequent trip distribution and traffic assignment of the Mark
Center peak hour traffic resulting in a significantly different assessment of project impact. Some
may argue that the residential location of defense contractors is similar to federal employees but
in fact there is no documentation to support that assumption. Standard practice in sampling
studies requires a representative sample from the population to draw a conclusion about the
population. Failure to proportionately sample the defense contractor population makes any
assumption about the population unreliable.

Regarding traffic assignment, the USACE stated that traffic assignment was determined by
assigning all traffic from a specific zip code to a specific route rather than assignment of trips to
multiple routes based on capacity and other system constraints1. The ITE Recommended
Practice4 (pg. 50, ¶8) states, “Traffic assignment should be made considering logical routings,
available roadway capacities, left turns at critical intersections and projected relative travel
times.”

Application of the traffic assignment process used in the development of the Transportation Plan
may be acceptable for analyzing a small development in a constrained, uncongested roadway
network, but it is not acceptable in a complex, congested network such as the one that serves the
Mark Center. The Mark Center is located in an area with extreme traffic congestion that will
cause motorists to seek out alternative paths based on a perceived minimum travel time. In order
to accurately represent this case, a multiple path assignment technique would be required to
evaluate alternative routings to the site with assignments made to each route based on capacity
and expected delays. Without such an approach, the resultant traffic assignment process cannot
effectively estimate realistic routings for estimated site generated traffic.

 Finding

The process used to determine trip distribution/traffic assignment for the Mark Center did not
adhere to sound engineering practice in the use of survey data and determination of traffic
assignment patterns. The traffic distribution patterns of the entire employee population of
federal employees and defense contractors were based on the residential location of the federal
employees and did not include a sample of the residential location of the defense contractors.
Secondly, traffic assignment patterns for the entire employee population were based on an
assumed route from the residential location to the Mark Center without recognition of the
possible alternative routes. The result of this approach to trip distribution and traffic assignment
will result in unrealistic traffic patterns assumed for project-generated traffic.




                                                 22
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 References

       1. E-mail: James Turkel, U. S. Army Corps of Engineers, Aug. 24, 2011
       2. Oral Interview with U.S. Army Corps of Engineers and Washington Headquarters
          Service, Aug. 19, 2011
       3. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
          Washington Headquarters Services, in association with Department of the Army, U.S.
          Army Corps of Engineers, New York District, July 2010
       4. Transportation Impact Analyses for Site Development: An ITE Recommended,
          Institute of Transportation Engineers, 2010

4.1.6 Transportation Plan

 Issue

As stated in the Department of the Army’s cover letter to its Transportation Plan, dated
May 9, 2011, the purpose of the 17-page document is to address the requirements of
Public Law 111-383 which seeks to determine if “ingress and egress of personnel to and from the
BRAC 133 project site” is sufficient and whether the costs and programming of short, medium,
and long-term projects are sufficient to “to maintain existing levels of service” on the road
network serving the site. With this, there is an expectation that the Transportation Plan will
provide a rational and reasoned discussion on the goals it seeks to achieve and the methodology
and analysis used to meet these goals.

 Analysis

For transportation plans, especially with the high complexity issues of BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, industry practice dictates a format that is logical, rational and
sequenced. Professional transportation plans usually begin with a statement of the goal to be
achieved. The body of the plan – which is usually divided into chapters – identifies and
quantifies the substance and complexity of each transportation issue and identifies one or several
possible alternatives for resolving it. After a review of all alternatives, a preferred alternative is
selected with a reasoned discussion on how and why it was selected over other possible options.
The analysis and findings are typically summarized in a recommendations or conclusions
chapter, which explains how the preferred alternative or alternatives will satisfy the goal and
objectives to be achieved.

According to A Transportation Modeling Primer, 2006,1 transportation planning is “a process
that develops information to help make decisions on the future development and management of
transportation, especially in an urban area.” To achieve this, a professional transportation plan
typically follows a format that facilitates decision-making based on a rational presentation of
facts and analysis, as follows:




                                                  23
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




    Vision and Goals       The purpose of the plan and what it intends to achieve
    Objectives             The steps and actions necessary to achieve the goal
    Problem                An explanation and description of the key issues and problems to be
    Identification         resolved
                           Data collection, sound research, and development of alternatives for
    Alternatives           resolving each issue and problem identified. According to Primer, “A
    Analysis               good planning effort will identify the trade-offs among alternatives in a
                           clear, concise way to help facilitate decisions.”
                           Recommendation of the best or preferred alternative with stated
    Recommendation         criteria on how and why the preferred alternative will best meet the
                           plan goal and objective
                           A strategy for implementing the preferred alternative, including a
                           management strategy which identifies a specific period of time for
    Implementation         implementing the alternative, who or what will be responsible for
    Plan                   implementation, the specific steps required for implementation, how
                           much implementation will cost (usually by line item) and the expected
                           outcome in relation to the goal to be achieved.
                           A method for reviewing the performance of the preferred alternative,
    Monitoring Plan
                           with stated criteria for assessing its performance and productivity


 Finding

The Transportation Plan does not comply with standard industry practice for the development of
transportation plan documents. The Transportation Plan appears to be a rambling collection of
thoughts generally related to the issues surrounding BRAC 133 Project Fort Belvoir – Mark
Center, Virginia. The Transportation Plan offers insufficient discussion and justification on how
it arrived at recommendations and strategies for accommodating transportation needs of BRAC
133 Project Fort Belvoir – Mark Center, Virginia. The Transportation Plan’s use of source
documents and its methodology for traffic counts, background traffic, trip generation, trip
distribution and trip assignments is questionable and not clearly or fully explained. Without
sound application of quantitative methodology, thoughtful consideration of possible alternatives
and justification on why certain program strategies were selected over others, the conclusions of
the Transportation Plan are weakened and do not meet the requirements of Section 2704 of
Public Law 111-383.

 References

       1. A Transportation Modeling Primer, Center for Urban Transportation Studies,
          University of Wisconsin-Milwaukee, Edward A. Beimborn, June 2006
       2. USDOT Federal Highway Administration, Metropolitan Transportation Planning
          Process: http://www.planning.dot.gov/Documents/MetroPlanning/metroTrans.htm




                                                 24
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




4.2 Ingress/Egress

 Overview

In accordance with Public Law 111-343, the Transportation Plan is required to address the
ingress and egress needs of all personnel to and from the BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, project site. To ensure the Transportation Plan responds to this directive, the
analysis process must adhere to the standards formulated to prepare and evaluate such analyses.
The BRAC 133 Project Fort Belvoir – Mark Center, Virginia, is located within 500 feet of
Interstate 395 (I-395) in the City of Alexandria, Va. Naturally, it is expected any traffic studies
should address the City requirements. In addition, VDOT requires any site development within
3,000 feet of a state highway adhere to the VDOT traffic impact study requirements. (Virginia
Code 24VAC30-155-60)

In addition to the City of Alexandria and VDOT requirements, there are national standards for
such analyses prepared by ITE entitled, “Transportation Impact Analyses for Site Development:
An ITE Recommended Practice, ITE 2010.” The ITE Recommended Practice, used for the
purposes of this independent assessment of the studies used to formulate the Transportation Plan,
includes guidance on the development and analysis of the following issues:

   •   High Occupancy Vehicle Access                  •   On-site Circulation
   •   Study Area                                     •   Site Generated Traffic
   •   Existing Conditions                            •   Trip Distribution/Traffic Assignment
   •   Background Conditions                          •   Analysis

4.2.1 High Occupancy Vehicle Access

 Issue

The Transportation Plan1 states, “From the day of substantial tenant occupation…traffic impacts
will be mitigated by…an extensive shuttle program that provides service to the BRAC 133
campus from mass transit facilities...One primary shuttle service will operate between the
BRAC 133 campus and the Pentagon Reservation every 15 minutes to assist many employees
currently using rail transit to continue their existing commute patterns thus eliminating any
negative impacts that would have resulted from increased traffic between the two locations. We
anticipate many commuters will avail themselves of this option.” (Transportation Plan, pg. 9)

 Analysis

The Transportation Plan assumes 39 percent or 2,500 (0.39 × 6409 = 2,500) employees of BRAC
133 Project Fort Belvoir – Mark Center, Virginia, will use high occupancy vehicles to access the
Mark Center. This assumption was based on current mode split choices by federal employees at
the Pentagon Reservation. However, at the Pentagon Reservation, employees of BRAC 133
Project Fort Belvoir – Mark Center, Virginia, have close and convenient access to alternative
modes of travel. These same alternatives are not easily accessible or available at the Mark

                                                25
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Center. For example, there are no Metrorail facilities in the immediate vicinity of the Mark
Center. The nearest one is the King Street Metro Station, located 4.31 miles away. The
employee wishing to use Metrorail or Virginia Railway Express (VRE) services first will have to
take a shuttle bus through traffic to the rail station. Another example of the access differences is
the absence of high occupancy vehicle (HOV) lane access. At the Mark Center, the I-395 HOV
lanes do not have northbound/southbound off-ramps to the site for the AM commute or
northbound/southbound on-ramps for the PM commute. During the AM peak, this will require a
northbound HOV employee of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, to travel
to the Pentagon in the HOV lane and then return south to the Seminary Road interchange in the
I-395 general-purpose lanes. Southbound HOVs using the HOV lane will be required to travel to
the Duke Street interchange to exit the Mark Center.

In sharp contrast to the access profile for the Mark Center, the Pentagon Reservation represents a
major confluence of rail, bus and commuter services. It is a commuter station and stop for the
regional Metrorail Yellow and Blue lines. There is also direct and immediate I-395 freeway
HOV lane access at the Pentagon for carpools, vanpools, and commuters who accept free rides
from strangers, colloquially known as “slugs.”

 Finding

The Transportation Plan assumes at least 39 percent of the workforce (2,500 employees) of
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, will use shuttle, commuter rail, and
HOV access for travel to work. This assumption is based on existing mode split choices of
federal employees at the Pentagon Reservation. This assumption may be unrealistic. The
Transportation Plan incorrectly states the wide range of alternative travel options at the Pentagon
Reservation will be the same or similar for employees at the Mark Center. The actual finding is
that travel options at the Mark Center are severely limited – rail access is 4.31 miles away, and
no HOV freeway lanes directly serve the site. With this existing condition, the BRAC 133
Project Fort Belvoir – Mark Center, Virginia, TDM strategy for achieving 39 percent non-SOV
trips may fail.

 References

       1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
       Center, Virginia, A Report to Congress Pursuant to the National Defense Authorization
       Act for Fiscal Year 2011 – Public Law 111-383, May 2011

4.2.2 Study Area

 Issue

Only six intersections in the vicinity of the Mark Center were analyzed to assess the traffic
impact of the 6,409 employees according to the Transportation Plan, (pg. 7, ¶3). These
intersections include:


                                                26
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




• North Beauregard Street/Mark Center Drive • Seminary Road/I-395 Northbound Entrance Ramp
• North Beauregard Street/Seminary Road     • Seminary Road/I-395 Northbound Exit Ramp
• Seminary Road/Mark Center Avenue          • Seminary Road/I-395 Southbound Exit Ramp

A seventh intersection, Seminary Road/I-395 Southbound Entrance Ramp was omitted, but it
should have been included. This intersection has a significant adverse impact on ingress and
egress to the Mark Center.

 Analysis

The six intersections analyzed are located in close proximity to the Mark Center and do not
represent the full impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia. In limiting
the extent of the study area to those six intersections, the Transportation Plan fails to comply
with the requirements of the ITE Recommended Practice1 as follows:

       ITE Recommended Practice – Study Area Limits for Transportation Impact Analyses:
       “Office or industrial park with more than 500 employees: The study area should include
       all signalized intersections and freeway ramps within two miles of a property line and all
       major unsignalized access within one mile of a property line of the site.1” (ITE
       Recommended Practice, Table 2-3, pg. 10)




                         Figure 4-1: Mark Center Ingress/Egress Intersections3




                                                  27
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




According to the Transportation Plan, BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
will relocate 6,409 employees to the Mark Center. Under ITE Recommended Practice, the study
would include, at a minimum, all signalized intersections within a two-mile radius of the site and
all unsignalized intersections within one mile of the site. The study area in the Transportation
Plan, as defined by the six intersections analyzed, is limited to a distance of approximately 750
feet or 0.14 miles (750 ÷ 5280 = 0.14) from the easterly Mark Center property line to the I-395
northbound entrance ramp which is the intersection furthest from the property line. Two of the
six intersections included in the analysis are simply site access intersections with the adjacent
local arterials, i.e., Seminary Road and Beauregard Street. The remaining intersections include
three located at the I-395/ Seminary Road interchange, and one at the North Beauregard
Street/Seminary Road intersection. (Figure 4-1 above.)

If the ITE standards had been used to formulate the study area, at least 63 additional signalized
intersections should have been evaluated. These include the following:

     Seminary Road
         •    Kenmore Avenue                              •   North Quaker Lane
         •    Library Lane                                •   Echols Avenue
         •    North Pickett Street                        •   Dawes Avenue
         •    North Jordan Street                         •   South George Mason Drive
         •    North Howard Street                         •   Carlin Springs Road
         •    St. Stephens Road                           •   I-395 Southbound Entrance Ramp
     Beauregard Street
                                                          •   Quantrell Avenue
         •    North Beauregard Street
                                                          •   Lincolnia Road/Gloucester Road
         •    Rayburn Avenue
                                                          •   North Chambliss
         •    Reading Avenue
                                                          •   Little River Turnpike
         •    Sanger Avenue
                                                          •   Filmore Avenue
         •    North Morgan Street
                                                          •   West Braddock Street
         •    North Armistead Street
                                                          •   King Street
     Duke Street
         •    Van Dorn Street                             •   Wheeler Avenue
         •    North Ripley Street                         •   North Quaker Lane
         •    South Reynolds Street                       •   Van Dorn Street
         •    North Paxton Street                         •   West Braddock Street
         •    South Pickett Street                        •   Seminary Road
         •    North Pickett Street/Cameron Station        •   Kenmore Avenue
         •    South Jordan Street                         •   Sanger Avenue
         •    South Ingram Street                         •   Taney Avenue
         •    North Gordon Street                         •   Holmes Run Parkway
         •    South Gordon Street                         •   Mall Entrance East
         •    North Early Street                          •   Mall Entrance West
         •    South Early Street                          •   Stevenson Avenue
     Little River Turnpike
         •    Oasis Drive                                 •   I-395 southbound off ramp
         •    I-395 southbound on ramp


                                                     28
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




     West Braddock Road
         •   North Hampton Avenue                        •    Marlee Way
         •   North Howard Street                         •    North Quaker Lane
     King Street/Leesburg
         •   Skyline Drive
                                                         •    Dawes Avenue
         •   Carlin Springs
                                                         •    Sunset Center
         •   South Jefferson
                                                         •    Beauregard Street
         •   South George Mason Drive
     South George Mason Drive
         •   Skyline Plaza


A map illustrating the location of these intersections and the two-mile radius is shown in
Figure 4-2.




                        Figure 4-2: Locations of Recommended Analysis Intersections

In addition to ITE standards, VDOT requirements2 should also be met. According to the Traffic
Impact Statement guidelines presented in the Virginia Code (24VAC30-155-60), the study area
should be based on the anticipated net increase in peak hour vehicle trips. Under VDOT
requirements for site impact analyses, the following limits would apply:




                                                    29
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




   •   For developments generating 500 to 999 peak hour trips, an evaluation is required of all
       facilities within 2,000 feet of the site and any roadway on which 10 percent or more of
       the new vehicle trips are generated by the proposal, not to exceed two miles.
   •   For developments with more than 1,000 site generated peak hour trips, VDOT staff, in
       consultation with the local jurisdiction, e.g., City of Alexandria, determines the study
       area. Note: As stated in the FEA3, it is assumed that the limits of the study area for a site
       generating more than 1,000 peak hour trips would be broader than the study area for a
       site generating less than 1,000 peak hour trips. (FEA, pg. 3-7, ¶6)

Since the Transportation Plan states BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
will generate 1,500 peak hour trips (Transportation Plan, pg. 9, ¶1), the required study area
would be based on a determination made by VDOT staff. Although it is unknown what
requirements VDOT would have made for an analysis of BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, application of the VDOT guidelines for a development generating less than
1,000 peak hour trips would significantly increase the size of the study area.

A study area of this magnitude is warranted because of the existing congestion on I-395 and the
surrounding arterial network. Congestion on I-395 will result in traffic selecting alternate routes
to the site, and the impact of rerouting needs to be addressed. Furthermore, recent studies in the
area suggest significant congestion at major intersections. For example, the Mark Center (BRAC
133 Project Fort Belvoir – Mark Center, Virginia) Transportation Study4, cited significant
adverse impacts to the level of service would be created by BRAC at the following locations in
2013:

   •   Seminary Road/South George Mason Drive (LoS F)
   •   Seminary Road/Echols Avenue (LoS E) (Mark Center (BRAC 133) Transportation
       Study, Table 6, pg. 22)

Also, the Beauregard Corridor Traffic Study5 identified the potential for extreme congestion at
the Beauregard Street/Sanger Avenue intersection in the future AM and PM peak hours.
(Beauregard Corridor Traffic Study, Table 6, pg. 32). Such conditions suggest an evaluation of
the impacts of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, at additional
intersections is warranted.

 Finding

The ITE Recommended Practice suggests a development of the magnitude of BRAC 133 Project
Fort Belvoir – Mark Center, Virginia, include the evaluation of the traffic impacts at all
signalized intersections within a study area defined by a two-mile radius around the site. The
Transportation Plan limited the analysis to six intersections within 0.14 miles of the site. The
Transportation Plan should have considered a much larger study area than six intersections.
Application of the ITE Recommended Practice would have resulted in a larger study area that
would have included at a minimum an additional 63 intersections. The outcome would have
identified significant impacts resulting from BRAC 133 Project Fort Belvoir – Mark Center,
Virginia, on the area intersections.

                                                30
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 References

       1. Transportation Impact Analyses for Site Development: An ITE Recommended
          Practice, ITE, 2010.
       2. Virginia Department of Transportation Traffic Impact Statement Guidelines
          (24VAC30-155-60)
       3. Final Environmental Assessment (FEA) BRAC 133, Fort Belvoir – USACE/Tetra
          Tech, July 2008
       4. Mark Center (BRAC 133) Transportation Study – City of Alexandria/VHB,
          November 2009
       5. Beauregard Corridor Traffic Study Final Report, Wilbur Smith Associates, January
          2007

4.2.3 Capacity of I-395

 Issue

The Transportation Plan states, “The area of highest public concern in the region is the BRAC
133 traffic impact on I-395. The four separate traffic analyses conducted over the past several
years do not show that there will be significant impacts on I-395.” (Transportation Plan, pg. 4,
¶13) Conversely, the Transportation Plan identifies capacity of the I-395 southbound mainline
and southbound onramp merge as the primary cause of failing operations at the Seminary
Road/Mark Center Avenue intersection. (Transportation Plan, pg. 12, ¶3)

The DoD OIG’s independent engineering review of the traffic studies that evaluate impacts to
I-395 indicates significant congestion exists on I-395 southbound general-purpose lanes and on
the Seminary Road/I-395 southbound entrance ramp. The addition of traffic from BRAC 133
Project Fort Belvoir – Mark Center, Virginia, will result in queuing that backs up traffic to the
Seminary Road/Mark Center Avenue intersection impacting egress from Mark Center.

The Transportation Plan also states, “Ongoing analysis and decision making by VDOT indicate
the proposed direct HOV/bus transit access ramp connection will restore the levels of service at
the Seminary Road/Mark Center Avenue and Seminary Road/Beauregard Street intersection [sic]
to acceptable levels.” (Transportation Plan, pg. 14, ¶1)

The Transportation Plan is not consistent in its representation of impacts on I-395 by BRAC 133
Project Fort Belvoir – Mark Center, Virginia, in its representation of the results of previous
traffic studies that evaluated BRAC 133 impact on I-395, or its expectation that VDOT long-
range improvement plans will address any LoS deficiencies.

    Analysis

The Transportation Plan presents conflicting conclusions regarding traffic flow conditions on
I-395. The Transportation Plan states the failing LoS at the Seminary Road/Mark Center Avenue
intersection results from the inadequate capacity on the I-395 southbound freeway mainline and

                                                31
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




the Seminary Road ramp merge area that causes traffic to backup through the Mark Center
Avenue intersection. (Transportation Plan, pg. 12, ¶3) The Transportation Plan assumes this
congestion will be resolved through the construction of an I-395/HOV access ramp. However, a
review of the facts indicates that construction of the ramp will likely not have a significant
impact on the backup to Mark Center.

The I-395 southbound freeway mainline congestion results from a reduction in the number of
general-purpose through lanes between the Seminary Road interchange and the Duke Street
interchange. In this section, the number of general-purpose through lanes is reduced from four to
three in each direction. Using a capacity of 1,900 vehicles per hour per lane, the directional
capacity of the I-395 mainline decreases from 7,600 (1,900 × 4 = 7,600) vehicles per hour at
Seminary Road to 5,700 (1,900 × 3 = 5,700) vehicles per hour at Duke Street. The current AM
peak demand is 6,300 vehicles per hour in the northbound direction. (Transportation Plan, pg. 9,
¶1) The current PM peak is 6,700 vehicles per hour in the southbound direction. There is
sufficient capacity to handle the current demand through the Seminary Road section of I-395
mainline; however, the current traffic demand through the Duke Street interchange exceeds the
available capacity. The Transportation Plan suggests the proposed I-395 HOV access ramp will
resolve this issue.

A review of the traffic forecast for the 2015 horizon year suggests the proposed I-395/Seminary
Road HOV access ramp will not mitigate the significant I-395 congestion created from the
reduction in mainline capacity at the Duke Street interchange. In the 2015 horizon year, I-395 is
estimated to have 6,930 vehicles per hour in the northbound general-purpose lanes during the
AM peak and 7,385 vehicles per hour in the southbound general-purpose lanes. (Figure 4-4,
Mark Center (BRAC 133) Short/Mid-Term Improvements Technical Memorandum, VDOT,
February 2011). To eliminate the potential for congestion at the Duke Street interchange, these
volumes would need to be consistent with the available I-395 general-purpose capacity at Duke
Street, or 5,700 vehicles per hour. To achieve 5,700 vehicles per hour in the southbound
direction, 1,685 (7,385 – 5,700 = 1,685) PM peak hour vehicles would need to shift from the
I-395/Seminary Road southbound entrance ramp to the proposed HOV access ramp. The PM
peak hour volume of 1,945 vehicles is forecasted for 2015 for the I-395/southbound entrance
ramp. Therefore, the majority of the traffic, or 1,685 vehicles of the 1,945 forecasted, would
need to use the proposed HOV access ramp.

To put this in context, the total site generated PM peak hour volume (1,500) generated by BRAC
133 Project Fort Belvoir – Mark Center, Virginia, using I-395 southbound is 435 (1,500 × 0.29 =
435) vehicles. (Transportation Plan, pg. 9, ¶1) Even if the total population of BRAC 133 Project
Fort Belvoir – Mark Center, Virginia, used the proposed I-395 HOV access ramp, the reduction
would not be sufficient to eliminate the I-395 southbound mainline congestion creating the
failing LoS at the Seminary Road/Mark Center Avenue intersection.

 Finding

Responsible transportation planning dictates a proposed development should mitigate significant
adverse impacts to the roadway network. The Transportation Plan documents the fact that

                                                32
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




BRAC 133 Project Fort Belvoir – Mark Center, Virginia, will create a significant adverse impact
on I-395 that will not be mitigated by the proposed HOV access ramp. The Transportation Plan
fails to recognize that congestion on the I-395 mainline creates queuing onto Seminary Road
impacting the intersection at Mark Center Avenue. Any volume diverted to the proposed HOV
ramp will not be significant enough to resolve the mainline congestion on I-395 southbound.

 References

No references available.

4.2.4 I-395 Congestion

 Issue

The Transportation Plan indicates the impact of BRAC 133 Project Fort Belvoir – Mark Center,
Virginia, on I-395 is “relatively minor.” (Transportation Plan, pg. 9, ¶1) Conversely, the
Transportation Plan also states, “. . . reduction in peak traffic volumes, albeit small, can result in
a proportionally larger reduction in delay. For example, a 5 percent reduction in traffic volumes
on a congested highway (e.g., from 2,000 to 1,900 vehicles per hour) may cause a 10 to 30
percent increase in average vehicle speeds and provide relatively large reductions in traffic
delay.” (Transportation Plan, pg. 16, ¶3)

If a small reduction in traffic volume on a congested highway can provide relatively large
reductions in traffic delay, the converse is also true; a small increase in traffic volume may also
cause a significant decrease in average vehicle speeds and can provide relatively large increases
in traffic delay.

 Analysis

The Transportation Plan states the impact of BRAC 133 Project Fort Belvoir – Mark Center,
Virginia, on I-395 is “relatively minor” because the interstate currently experiences severe
congestion and delays during AM and PM peak hour in the vicinity of the Mark Center.
(Transportation Plan, pg. 9, ¶1) According to the Transportation Plan, BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, will add 190 new trips, or three percent, to I-395 northbound
during the AM peak hour and similar amounts to the southbound direction in PM peak hour.
(Transportation Plan, pg. 9, ¶1)

The impact of additional traffic on congested freeways is not linear. There is an exponential
relationship between speed and traffic volumes. As the volume increases the speed decreases up
to the point where capacity is reached. After capacity is reached, both speed and volume
decrease at an exponential rate until gridlock occurs.

According to a recent Transportation Research Board (TRB) report, “Travel speeds fall off
dramatically at high volumes when new traffic is added. With these congestion levels in place a
traffic increase of only five percent or 10 percent could cause a highway facility to transition

                                                  33
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




from relatively free flow conditions to stop-and-go conditions limiting the maximum number of
users.”1 Based on this principle, adding a significant volume of additional traffic to a highway,
such as I-395, that is currently operating under low speed conditions could result in near gridlock
conditions.

 Finding

Transportation planning research indicates that small increases in traffic volume may result in
significant impacts on traffic speeds and congestion. The Transportation Plan’s assumption that
because I-395 is already congested, a relatively modest increase in traffic will have “a relatively
minor impact” on traffic operations is not accurate. Additional traffic added to a congested
freeway will have a disproportionate impact on freeway operations that could result in gridlock.

 References

       1. Federal Funding of Transportation Improvements in BRAC Cases, Transportation
          Research Board (TRB) Special Report 302, 2011
       2. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011

4.2.5 Mitigation

 Issue

The Transportation Plan1 states that, “With the implementation of the VDOT recommended
short-and mid-term improvements, long-term I-395 HOV access ramp improvement, and the
enhanced Transportation Demand Management (TDM) and transit options provided by the
Army, City of Alexandria and other agencies, VDOT transportation officials have acknowledged
that the potential traffic problems generated by BRAC 133 will be adequately mitigated.”
(Transportation Plan, pg. 15, ¶3)

Currently, the Transportation Plan indicates a failing LoS will exist at the Seminary Road/Mark
Center Avenue intersection with implementation of VDOT’s short and mid-term improvements.
Even though the study has not been completed and the results are unknown, the Transportation
Plan assumes acceptable levels of service will be achieved with the implementation of the I-395
HOV access ramp. (Transportation Plan, pg. 4, ¶1)

 Analysis

There is no documentation to support the contention that the proposed I-395 HOV access ramp
will mitigate the projected LoS deficiency at the Seminary Road/Mark Center Avenue
intersection. Furthermore, VDOT staff stated they would not know what benefits will be
achieved, if any, with the implementation of the proposed I-395 HOV access ramp until the
study is complete at the end of 2011.2

                                                34
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Although $80 million has been allocated to the I-395 HOV access ramp project, according to
VDOT2, the project is in the study and Environmental Assessment (EA) stage as of the writing of
this report. The actual benefits of the proposed ramp are unknown. Furthermore, public
acceptance of the concept is yet to be determined.

 Finding

The Transportation Plan incorrectly asserts that Virginia Department of Transportation indicates
that with the short/mid-term and long-term improvements, the impact of BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, will be adequately mitigated. With the proposed short/mid-
term improvements, the Seminary Road/Mark Center Avenue intersection is estimated to operate
at LoS F. According to VDOT, the impact of the proposed I-395 HOV access ramp is currently
unknown.

 References

       1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011
       2. Oral Interview: Tom Fahrney, Virginia Department of Transportation BRAC
          Coordinator, Aug. 5, 2011

4.2.6 Parking Supply

 Issue

A key element of the Transportation Management Plan1 is the limited number of parking stalls
provided for BRAC employees at Mark Center. The Transportation Plan states that a key feature
of the Transportation Management Plan is “a self-imposed, significant restriction on employee
parking at the facility wherein the total number of parking spaces is more than 1,000 below the
number of spaces permitted by the City of Alexandria prior to purchase of the property by the
Army.”

A reduction of 1,000 parking spaces below the City of Alexandria’s zoning ordinance
requirement will create a significant problem. If the SOV goals are not achieved, the parking
problem will shift throughout the area resulting in frustrated employees, businesses and
residents.

Traditionally, when there is insufficient parking supply, motorists look for alternatives within the
area to park their cars. This may be in residential neighborhoods or in under-used parking
facilities at shopping malls, churches or other office complexes. In general when there is
inadequate parking at the project site, the parking problem is simply spread to other locations.




                                                35
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 Analysis

According to the 2008 Transportation Improvement and Management Plan2 (TIMP), prior to the
BRAC 2005 decision, the Mark Center project was approved for 4,839 parking spaces. The
proposed BRAC 133 Project Fort Belvoir – Mark Center, Virginia, parking spaces represented in
the TIMP number 3,904, and 3,747 in the Transportation Management Plan or 1,092 (4,839 –
3,747 = 1,092) fewer parking spaces than what was initially approved by the City of Alexandria.

According to the City of Alexandria’s Zoning Ordinance3, Mark Center, located in Parking Zone
5, requires one parking space for every 475 gross square feet (gsf) of building space. According
to the Zoning Ordinance, 3,745 parking spaces would be required or two fewer spaces than
proposed. Calculations for these number follow: BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, includes 1,779,000 gsf of office space and provides 3,747 parking spaces (per
Transportation Management Plan), whereas Alexandria’s Zoning Ordinance for Parking Zone 5
requires one space per 475 gsf for a total of 3,745 (1,779,000 ÷ 475 = 3,745) parking spaces or
two (3,747 – 3,745 = 2) parking spaces fewer than what is proposed.

The Transportation Plan has established a goal of 57 percent of the employees and visitors
arriving by SOV and 43 percent arriving by non-SOV. (Transportation Plan, pg. 7, ¶3) The
automobile-oriented non-SOV portion is estimated to include five percent carpools, three percent
vanpools and three percent “slugs.”

According to Washington Headquarters Service (WHS)4, there will be a total of 6,409 employees
of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, and another 400 support personnel
allocated to the Mark Center. This results in a total of 6,809 people assigned to the Mark Center.

The Transportation Management Plan assumptions, with the WHS employee count adjustments,
made in determining the required number of parking spaces follows:

   •   90 percent of the total employees (6,809) will be on site daily for a total of 6,128 (6,809 ×
       0.90 = 6,128 employees)
   •   Five percent of the daily population will be visitors (6,128 × 0.05 = 306)
   •   The total number of people traveling daily to the Mark Center is 6,434 (6,128 + 306 =
       6,434), and they will utilize the same mode split

Based on these calculations, the number of parking spaces required for each mode follows:

   •   57 percent SOV = 3,667 (6,434 × 0.57 = 3,667) employees and visitors
   •   Five percent carpools with a minimum of three employees = 322 (6,434 × 0.05 = 322)
       resulting in a need for 107 (322 ÷ 3 = 107) parking spaces
   •   Three percent vanpools with a minimum of seven employees = 193 (6,434 × 0.03 = 193)
       resulting in a need for 28 (193 ÷ 7 = 28) parking spaces
   •   Three percent “slugs” need for HOV-3 on I-395 = 193 (6,434 × 0.03 = 193) employees
       resulting in the need for 64 (193 ÷ 3 = 64) parking spaces


                                                36
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Therefore, if a 57 percent SOV goal is desired, a total of 3,866 (3,667 + 107 + 28 + 64 = 3,866)
parking spaces are required to meet employee needs. In addition, the Transportation
Management Plan estimates that 150 parking spaces will be set aside for government vehicles
resulting in a total parking demand of 4,016 (3,866 + 150 = 4,016) parking spaces. This results
in a shortfall of 269 (4,016 – 3,747 = 269) parking spaces beyond what was estimated by the
Transportation Management Plan.

Based on conversations with WHS4, it is expected that the available parking spaces will be
assigned to employees. If parking spaces are assigned, a 10 percent reduction in parking spaces
to reflect a 90 percent daily employee attendance is not applicable. If the spaces are assigned,
the parking spaces would be reserved whether the employee is on site or not and reducing
estimated parking space requirements by 10 percent is not appropriate. Assigning parking spaces
will increase the parking space demand by a minimum of 10 percent of the anticipated SOV
demand or 367 (3,667 × 0.10 = 367) spaces.

Therefore, the parking demand exceeds supply by 636 (269 + 367 = 636) parking spaces.

 Finding

The Transportation Plan states that sufficient parking supply will be provided to accommodate
all vehicles with an assumed 57 percent SOV mode split. In fact, the Mark Center will have 636
fewer parking spaces than is needed to accommodate the workforce under the proposed SOV
goal. The proposed parking supply of 3,747 parking spaces is approximately 636 spaces fewer
than what is required to meet the projected demand even with the “self imposed stringent
requirement” of 57 percent SOVs. The result of this requirement will be employees seeking
parking off site and placing pressure on adjacent residential neighborhoods, shopping malls,
churches, and other commercial complexes.

 References

       1. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
          Washington Headquarters Services, in association with Department of the Army, U.S.
          Army Corps of Engineers, New York District, July 2010
       2. BRAC 133 Transportation Improvement & Management Plan (TIMP) – Wells &
          Associates, July 2008
       3. City of Alexandria’s Zoning Ordinance
       4. Oral Interview: U.S. Army Corps of Engineers and Washington Headquarters
          Service, Aug. 19, 2011

4.2.7 On-Site Circulation (Vehicle and Pedestrian)

 Issue

A critical component of ingress and egress for employees of BRAC 133 Project Fort Belvoir –
Mark Center, Virginia, is the ability for SOV and non-SOV traffic, including buses and shuttles,

                                                37
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




to move efficiently and without delay around the Mark Center – particularly as it relates to
access to available parking facilities and bus/shuttle stop locations.

Two specific studies related to on-site circulation were prepared as part of the BRAC 133 Project
Fort Belvoir – Mark Center, Virginia, analyses to address the sufficiency of on-site circulation.
The studies included:

   •   WHS Internal Roadway Network Traffic Evaluation, Wells & Associates, August 2009;
       and
   •   Transportation Management Plan for BRAC 133 at Mark Center, Section 4.4.7, Benham
       Companies, July 2010.

Both analyses concluded that with minor improvements on-site circulation would accommodate
anticipated traffic volumes. In review of these studies, significant errors and oversights in the
analysis process were identified which would invalidate their conclusions.

 Analysis

In general, each of the studies failed to include the impact of potential queuing on the
surrounding arterial network, which has the potential to back-up onto the site and exacerbate on-
site intersection operations. The potential for queuing was identified in the VDOT February
2011 Study1 for the intersections of Mark Center Drive/Beauregard Street and Mark Center
Avenue/Seminary Road where projected PM peak hour queues will impact on-site circulation.

Below are other problems with the individual studies.

WHS Internal Roadway Network Traffic Evaluation2

The fundamental issues with the WHS study’s level of service analysis for the Mark Center
Drive/WHS Circle intersection include:

   •   The impact of pedestrian volume on traffic signal operations and resultant capacity does
       not appear to be addressed. Increased pedestrian activity will impact traffic operations.
       The impact of buses on intersection LoS, does not appear to be addressed. The
       Transportation Management Plan3 anticipates a significant volume of bus traffic, which
       should be represented in the capacity analysis
   •   Model default peak hour factor values of 0.95 were used when actual traffic counts3 on
       adjacent streets indicate the peak hour factor may be as low as 0.91 during the AM peak
       and as high as 0.97 during the PM peak. The difference in these values will significantly
       alter the volumes used in the LoS calculations. The application of model default values
       suggests the analyst was not sufficiently rigorous in their analysis to reflect actual traffic
       volume conditions.
   •   Anticipated queues from the Seminary Road/Mark Center Drive intersection are expected
       to extend beyond and block the intersection at 4900 Drive. The analysis failed to identify
       a solution to these issues other than to install “Do Not Block Intersection” signs.

                                                38
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




For additional discussion on pedestrian and public bus services, refer to Section 4.4 Use of Other
Methods of Transportation that are Necessary to Maintain Existing LoS, page 69 - 4.4.6, and
page 59 4.4.2, respectively.

Transportation Management Plan for BRAC 133, Section 4.4.74

The Transportation Management Plan provides a CORSIM evaluation, which is a microscopic
traffic simulation of the site roadway network. The evaluation of the on-site intersections
generally concluded “projected traffic conditions show the proposed internal roadways operating
at acceptable conditions with free flowing traffic throughout the internal roadways.”
(Transportation Management Plan pg. 91, ¶1) However, there are several factors that challenge
that conclusion:

   •   The corridor simulation (CORSIM) model used to analyze on-site circulation does not
       “explicitly” model roundabout operations. (Transportation Management Plan, pg. 72, ¶7)
       Therefore the model needs to be revised to accommodate the proposed modeling of the
       roundabout at Mark Center Drive/WHS Circle and the entrances to the North and South
       Parking Garages.
   •   The capacity constraint resulting from the South Garage security gate and the LoS
       evaluation of the roundabout do not appear to be included in the analysis.
   •   The impact of increased transit and shuttle dwell times and operational impacts in the
       overall site circulation do not appear to be represented in the model.
   •   The operation of the roundabout was coded into the model as a one-way, counter-
       clockwise link (Transportation Management Plan pg. 91, ¶1); this is not consistent with
       actual operation.
   •   The City of Alexandria5 stated that the results of the traffic impact analysis are not
       reliable because the micro-simulation model (CORSIM) was not adequately calibrated.

Independent Evaluation of the Roundabout Design

As shown in Figure 4-3 below, the roundabout was not designed consistent with standard design
practice for roundabouts. The dimensions of the roundabout are not sufficient to provide
efficient traffic flow through the roundabout and into the North and South Parking Garages as
well as IDA Drive. These design deficiencies will result in inefficient circulation and
unnecessary congestion.

The following is not intended as a rigorous design review of the proposed roundabout, but rather
an overview of the critical design elements. The analysis is based on the Washington State
Department of Transportation Design Manual6. The WSDOT is a national leader in the design
and installation of roundabouts. WSDOT has done extensive national and international research
in the development of roundabout design criteria. A cursory review of the Virginia Department
of Transportation found no reference to roundabouts or roundabout design parameters. Thus, the
proposed WHS Circle roundabout was compared against WSDOT design standards.



                                                39
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




The WHS Circle roundabout is a two-lane four-leg roundabout serving WHS Circle, IDA Drive
and access to the North Parking Garage. Immediately to the east of the roundabout is the
security gate to the South Parking Garage. A summary of the critical roundabout design features
is presented in Table 4-2 below.

                                                           Recommended1               Actual2
       A       Circulating Roadway Width                       29 feet                27 feet
       B       Central Island                                  90 feet                32 feet
       C       Entry Width                                     25 feet                20 feet
     A+B+A     Inscribed Circle Diameter                      150 feet                86 feet
                         Table 4-2: Summary of Critical Roundabout Design Features
     1) Source: Washington State Department of Transportation Design Manual, Chapter 1320, Exhibit 1320-8
     2) Source: USACE, BRAC 133 Mark Center Design Plans.

As shown in Figure 4-3, the proposed WHS Circle roundabout is deficient in all the pertinent
design parameters. According to the WSDOT Design Manual7, small changes in geometry can
result in substantial changes in operational performance.




                           Figure 4-3: Independent Evaluation of the Roundabout

                                                   40
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




It is recommended that the designer revisit the design of the roundabout and make necessary
changes to improve operational performance which will maximize gate processing operations
and overall traffic circulation on WHS Circle.

 Finding

Several studies have been conducted to assess on-site circulation at the Mark Center. All of the
studies concluded that with BRAC 133 Project Fort Belvoir – Mark Center, Virginia, there
should be no adverse circulation issues. However, these analyses have failed to 1) consider the
impact of queuing created by congestion on the surrounding arterial street network; 2) use
appropriate assumptions and analysis tools; 3) recognize design deficiencies in the on site
roadway network; and 4) mitigate the resultant adverse impacts. As a result, the full impact of
the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, traffic on the on-site street system
is unknown. Extensive on-site delay is expected based on anticipated on-site queuing resulting
from the site access intersections and the substandard roundabout design.

 References

       1. Mark Center (BRAC-133) Short/Mid-Term Improvements Alternatives Technical
          Memorandum, VDOT, February 2011
       2. Washington Headquarters Service Internal Roadway Network Traffic Evaluation,
          Wells & Associates, August 2009
       3. BRAC 133 Transportation Improvement & Management Plan (TIMP) – Wells &
          Associates, July 2008; Technical Appendix - Traffic Counts, Seminary Road/Mark
          Center Dr.
       4. Transportation Management Plan for BRAC 133 at Mark Center, Benham
          Companies, Prepared for Washington Headquarters Services, in association with
          Department of the Army, U.S. Army Corps of Engineers, New York District, July
          2010
       5. City of Alexandria Staff Comments in Response to Transportation Management Plan,
          Aug. 19, 2010, pg. 21, Item 1
       6. Washington State Department of Transportation Design Manual, August 2011,
          Chapter 1320, Roundabouts.
       7. Washington State Department of Transportation Design Manual, August 2011,
          Chapter 1320, Roundabouts, page 1320-11, Section 1320.06.

4.2.8 Safety

 Issue

The Transportation Plan and the studies used to develop the Plan do not include an assessment of
safety of the transportation facilities serving the site. According to the ITE Recommended
Practice1 (pg. 76, ¶3) a review should be made of the study area to “identify locations where
transportation safety should be given extra consideration.” This analysis was not provided.


                                                41
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 Analysis

A recent traffic study2 prepared for the City of Alexandria indicated that the Seminary
Road/Beauregard Street intersection has a significant crash history with 86 crashes at the
Seminary Road/Beauregard Street intersection during the two-year analysis period from January
2003 to December 2004. That represents 43 percent of the total crashes in both corridors over
this time period. These crashes occur as motorists attempt to merge from the designated
eastbound and northbound right turn lanes. These movements will be significantly impacted by
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, traffic, which will add approximately
1,900 vehicles3 to this intersection in the AM peak and 500 in the PM peak.

Although the data is seven years old, it indicates that safety issues do exist in the vicinity of the
site which warrant consideration. According to ITE Recommended Practice, the studies
prepared for BRAC 133 Project Fort Belvoir – Mark Center, Virginia, should have reviewed the
existing crash history within the study area to determine if there were safety issues that needed to
be addressed.

 Finding

The ITE Recommended Practice suggests that the traffic impact studies should identify locations
within the study area where extra attention should be given to safety issues. None of the traffic
studies used in the formulation of the Transportation Plan gave any consideration to safety at the
analysis intersections. Within the vicinity of the Mark Center, there are high crash locations that
will be significantly impacted by additional traffic generated by BRAC 133 Project Fort Belvoir
– Mark Center, Virginia. The safety issues at these locations will adversely affect ingress and
egress to the site. The high crash locations should be identified, and appropriate mitigation
measures applied to reduce, if not eliminate, these safety hazards.

 References

       1. Transportation Impact Analyses for Site Development: An ITE Recommended
          Practice, ITE 2010.
       2. Seminary Road/Beauregard Street Corridor Traffic Study, Wilbur Smith, 2007
       3. Transportation Management Plan for BRAC 133 at Mark Center, Benham
          Companies, Prepared for Washington Headquarters Services, in association with
          Department of the Army, U.S. Army Corps of Engineers, New York District, July
          2010, Figure 4-6.

4.2.9 Impact on Emergency Response

 Issue

The impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, on emergency response
services was not identified in the transportation studies used to develop the Transportation Plan.



                                                 42
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 Analysis

The proposed impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, on emergency
service is comprised of two elements. First, the addition of an office building development that
will include 6,8091 employees must be assumed to have a significant impact on the volume of
calls for emergency response to the site.

Secondly, with the additional traffic congestion generated by BRAC 133, the response time for
emergency services could be significantly impacted. Intersection delays and extensive queuing
could significantly impact the ability of emergency response services to access the Mark Center.

 Finding

A development of the magnitude of BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
will have a significant impact on emergency services including fire, aid and serving the site. It is
expected the volume of emergency response calls will increase proportionately with the
increased employee population. With the estimated traffic congestion and its resulting impact on
ingress and egress, a significant impact on emergency vehicle response times to the site can be
anticipated. These impacts should be identified and mitigated as part of the Transportation Plan.

 References

       1. Oral Interview: U.S. Army Corps of Engineers and Washington Headquarters
          Service, Aug. 19, 2011

4.2.10     Construction Impacts

 Issue

The Transportation Plan failed to identify the impact of construction activities on the
surrounding roadway network during the interim period from 2011 when BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, is occupied, and 20131 when the VDOT short- and mid-term
improvements are completed, and in 20162 when the I-395 HOV access ramp is completed.
Note: If the project receives public approval.

 Analysis

The transportation studies used in the development of the Transportation Plan indicated that until
the VDOT short- and mid-term improvements are completed, the study area intersections, in
general, would operate at unacceptable levels of service. While the proposed improvements are
constructed, it is assumed that lane closures, construction activity, and potential detours will have
a significant impact on traffic circulation in the vicinity of Mark Center. The impact of the
construction activity and necessary mitigation measures to address construction impacts has not
been identified.



                                                 43
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 Finding

The ITE Recommended Practice3 identifies the need to provide acceptable levels of service at the
time of site occupancy. The Transportation Plan indicates unacceptable and failing levels of
service will exist at study area intersections until the VDOT Short/Mid-Term Improvements and
long-range improvements are completed. The Transportation Plan states that the Short/Mid-
Term improvements are to be complete by late 2013 and VDOT suggests the long-range
improvements, if approved, could be complete by 2016. The Transportation Plan, however, fails
to address the impact of construction activity between 2011, when BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, is occupied, and 2016, when all improvements are complete.
Construction activity will affect ingress and egress to the site. The impact of construction
activity on the study area and site access intersections should be determined and appropriate
mitigation measures identified and included in the Transportation Plan.

 References

       1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011, page 5,
          bullet 1.
       2. Oral Interview: Tom Fahrney, Virginia Department of Transportation BRAC
          Coordinator, Aug. 5, 2011
       3. Transportation Impact Analyses for Site Development: An ITE Recommended
          Practice, ITE 2010.


4.3 Assessment of Costs

 Overview

Public Law 111-383 required the Transportation Plan provide an assessment of the “costs and
programming of short-, medium-, and long-term projects” necessary to maintain existing level of
service at the six intersections analyzed. For the purposes of this discussion, the assessment of
costs includes:

           •   An evaluation of the horizon years used in the evaluation of BRAC 133
           •   Assessment of the level of service with proposed improvements
           •   Cost estimates identified to fund the improvements
           •   Documentation of the source of the proposed funds and determination if they are
               programmed




                                                44
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




4.3.1 Horizon Year

 Issue

The transportation studies used to develop the Transportation Plan had horizon years ranging
from 2003 to 2035 and various years in between. Identification of appropriate time horizons is
important in assessing the true impact of the proposed development and in identifying necessary
transportation improvements to be included in the planning horizon of the impacted jurisdictions.

The studies used in the development of the Transportation Plan do not appear to have a well-
reasoned understanding of the need for or the benefit of an adopted horizon year.

 Analysis

Horizon years should be established to meet policies, needs and issues. The identification of
horizon years should consider compatibility with funding programs, available planning data, and
community needs. For the purposes of the traffic analysis of BRAC 133 Project Fort Belvoir –
Mark Center, Virginia, the ITE Recommended Practice1provides guidance.

For large single-phased development (>1,000 peak hour trips) such as BRAC 133, ITE
Recommended Practice suggests the selection of a horizon based on the following criteria (ITE
Recommended Practice, Table 3-1. pg. 15):

   •   Anticipated opening year, assuming full build-out and occupancy
   •   Five years after full build-out and occupancy
   •   Adopted transportation plan horizon year, if the development is significantly larger than
       that included in the adopted plan or travel forecasts for the area

None of the previous individual studies prepared for the analysis of BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, included the suggested horizon years identified by the ITE
Recommended Practice. Each study provided an evaluation of a horizon year or multiple horizon
years, but the horizon years suggested in the ITE Recommended Practice were not included in
any one document. While the VDOT studies2 did not include an evaluation of the opening year
of the BRAC site, they did include an evaluation of the regional system for the 2015 and 2035
planning horizons. Therefore, a case can be made that the impact on regional planning and
funding of necessary regional scale transportation facility improvements has been addressed. The
long-range impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, on the local
arterial network was not addressed. The Transportation Management Plan3 used in the
development of the Transportation Plan provided a traffic impact study of the opening year, but
not of future years.

With this approach to horizon years, the reviewer is not provided with a clear picture of the
traffic related impacts of the subject development, and the impacted jurisdictions are unclear as
to when necessary improvements are required and should be programmed.


                                                45
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 Finding

The ITE Recommended Practice recommends that transportation impact analyses include an
analysis at the opening of the site and at a minimum five years in the future. The traffic studies
used in the development of the Transportation Plan failed to provide an impact analysis at both
the opening and five years in the future. Thus, these studies did not provide a comprehensive
understanding of the actual traffic related impact of the proposed BRAC 133 Project Fort Belvoir
– Mark Center, Virginia, development. The result of this approach complicates the determination
of required project mitigation, scheduling of programmed improvements, and related funding
requirements.

 References

       1. Transportation Impact Analyses for Site Development: An ITE Recommended
          Practice, ITE, 2010.
       2. Mark Center (BRAC 133) Access Study-Operational Analysis Report / IJR – VDOT,
          February 2010. Mark Center (BRAC 133) Short/Mid-Term Improvements
          Alternatives Technical Memorandum, VDOT, February 2011.
       3. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
          Washington Headquarters Services, in association with Department of the Army, U.S.
          Army Corps of Engineers, New York District, July 2010

4.3.2 Maintaining Existing Level of Service (LoS)

 Issue

Public Law 111-3831 required the Transportation Plan to identify necessary improvements to
maintain the existing LoS at the following six intersections:

   •   The intersection of Beauregard Street and Mark Center Drive
   •   The intersection of Beauregard Street and Seminary Road
   •   The intersection of Seminary Road and Mark Center Avenue
   •   The intersection of Seminary Road and the northbound entrance ramp to I-395
   •   The intersection of Seminary Road and the northbound exit ramp from I-395
   •   The intersection of Seminary Road and the southbound exit ramp from I-395

A review of the Transportation Plan indicates existing LoS has not been maintained.

 Analysis

As shown in the Transportation Plan2, the VDOT proposed short/mid-term improvements will
not maintain the existing LoS at all six analysis intersections. Even with the proposed
improvements, the existing LoS will be degraded at three intersections during the AM peak hour
and two intersections in the PM peak hour.


                                                46
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




The existing AM peak hour LoS decreased at the following intersections:
   • Beauregard Street/Mark Center Drive dropped from LoS A to LoS D
   • Beauregard Street/Seminary Road dropped from LoS D to LoS E
   • Seminary Road/I-395 northbound entrance ramp dropped from LoS A to LoS C
The existing PM peak hour LOS decreased at the following intersections:
   • Seminary Road/Mark Center Avenue dropped from LoS D to LoS F
   • Seminary Road/I-395 northbound entrance ramp dropped from LoS B to LoS C
   • Seminary Road/I-395 southbound exit ramp dropped from LoS C to LoS D

                         Control
          LoS          Delay/Vehicle                          Qualitative Description
                           (sec)
           A                ≤10            Good progression, few stops, and short cycle lengths
                                           Good progression and/or short cycle lengths; more vehicle
           B              >10 - 20
                                           stops
                                           Fair progression and/or longer cycle lengths; some cycle
           C              >20 - 35
                                           failures; significant portion of vehicles must stop
                                           Congestion becomes noticeable; high volume-to-capacity ratio;
           D              >35 - 55
                                           longer delays; noticeable cycle failures

                                           At or beyond limit of acceptable delay; poor progression; long
           E              >55 - 80
                                           cycles; high volumes; long queues

                                           Unacceptable to drivers; arrival volume greater than discharge
           F                > 80
                                           capacity; long cycle lengths; unstable – unpredictable flows
                                   Table 4-3: Level of Service Definitions3

Therefore, the proposed short/mid-term improvements have not accomplished the public law’s
requirement of maintaining existing LoS at the analysis intersections. In addition, VDOT is
currently studying a proposal to improve access from Seminary Road to the I-395 HOV lanes. As
of the writing of this report, this project is in the analysis stage, and the impact on intersection
LoS is unknown.

 Finding

According to Public Law 111-383, the Transportation Plan was mandated to assess the cost of
funding short-, medium-, and long-term projects necessary to maintain the existing level of
service at the six analysis intersections. The Transportation Plan failed to accomplish this
requirement. Although the Transportation Plan identified $112 million for short-, medium- and
long-term infrastructure improvements to address the traffic related impacts of BRAC 133
Project Fort Belvoir – Mark Center, Virginia, this funding is not adequate to provide necessary
improvements to maintain the existing LoS at the six analysis intersections. Additional funding
will be necessary to relieve anticipated congestion and to maintain existing levels of service.




                                                     47
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 Reference

       1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011, pg. 2, ¶b
       2. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011, pg. 12
       3. Transportation Research Board, 2000

4.3.3 Cost Estimates

 Issue

Public Law 111-3831 requires an assessment of the costs necessary to maintain the existing LoS
at the six intersections analyzed. The Transportation Plan identified costs for short, mid-, long-
range improvements plus program costs for the proposed Transportation Management Plan as
follows:

   •   City of Alexandria Required Short-Range - $12 million
   •   VDOT Short/Mid-Range - $20 million
   •   VDOT Long-Range - $80 million
   •   Transportation Management Program - $4 million

The purpose of assessing the costs of short-, medium-, and long-term projects is to determine if
the funds identified are adequate to construct the identified improvements.

 Analysis

Cost Estimates for Short Range Improvements

The short-range improvements, based on the original permit requirements of the City of
Alexandria, are complete. The estimated $12 million improvements included:

   •   Construction of a third westbound left-turn lane from Seminary Road to North
       Beauregard Street
   •   Construction of a second southbound left-turn lane at the North Beauregard Street/Mark
       Center Drive intersection
   •   Construction of a physical barrier to restrict I-395 north and south ramp traffic from the
       rotary traveling westbound on Seminary Road from the Seminary Road and Mark center
       Drive intersection
   •   Construction of a well-connected, continuous sidewalk system to access the Mark Center
       from the adjacent roadway network



                                                48
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




VDOT identified a list of short- and mid-range improvements2 to address the impacts of BRAC
133. These improvements are referred to as Alternative E and include:

   •   Widening the northbound I-395 off ramp at Seminary Road from two lanes to three lanes
       and improving rotary capacity to allow dual left turn lanes throughout the rotary
   •   Widening Seminary Road/North Beauregard Street intersection to provide a deceleration
       lane and widening northbound North Beauregard Street to provide an acceleration lane
       for the westbound to northbound right turn traffic
   •   Widening Seminary Road/Mark Center Avenue intersection to allow three through-lanes
       and the northbound Mark Center Avenue to provide four approach lanes to include three
       right turn lanes
   •   Widening northbound Beauregard Street between Mark Center Drive and Seminary Road
       to provide a dedicated right turn lane onto Seminary Road for eastbound Seminary Road
       flyover traffic
   •   Widening eastbound Seminary Road and the southbound I-395 on ramp from Mark
       Center Drive to the ramp meter signal to provide a continuous two lane ramp from
       Seminary Road to the ramp meter
   •   Providing a pedestrian bridge across Seminary Road just west of the Mark Center Drive
       intersection

These improvements, according to the Transportation Plan3, are estimated to cost $20 million
and are being funded by the Defense Access Roads (DAR) program and constructed as a design-
build project under the management of the Federal Highway Administration (FHWA). A
breakdown of the cost of these improvements is shown in Table 4-4.

            Construction                                                       $8.50 million
            Right of Way                                                       $1.61 million
            Utilities                                                          $3.50 million
            Design                                                             $1.02 million
            Quality Assurance/Quality Control                                  $0.85 million
            Design-Build indirect (Bonds, Risk, Warranty, Field Office)        $1.28 million
            Administration (Procurement, Preliminary Design, NEPA oversight)   $1.00 million
            Total Cost                                                         $17,755,000

                                       Table 4-4: Alternative E Costs4

An assessment of the cost estimate suggests these estimated costs may be higher than what is
likely to be realized. First, the total cost estimate is $2,245,000 ($20,000,000 – $17,755,000 =
$2,245,000) less than the $20 million stated in the Transportation Plan.

Secondly, a footnote on the cost estimate states the estimate is based on the total utility
relocation cost estimated at $3,500,000. However, it is estimated that the majority of the utility
relocations can be avoided or allocated by the utility owner. If so, the cost of utility adjustments
can be significantly reduced.

                                                     49
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Finally, a review of the detailed cost estimate indicates the designated westbound right turn lane
on Seminary Road at the Southern Towers entrance was included in the cost estimate ($682,691),
even though it had been removed from the proposed improvement program.

Subtracting these costs from the proposed cost estimate for the VDOT Short/Mid-Term
Improvements results in an adjusted cost estimate of $13,572,309 ($17,755,000 – $3,500,000 –
$682,691 = $13,572,309). It should be noted that the construction cost estimate included a 50
percent contingency on the direct construction costs.

In conclusion, it appears the proposed cost estimate for the construction of the VDOT Short/Mid-
Term Improvements should be more than adequate, although the proposed improvements are not
adequate to maintain existing level of service at the six analysis intersections.

Shuttle-Bus Program Cost Estimates for BRAC 133 Project Fort Belvoir –
Mark Center, Virginia

The Transportation Plan indicates its transportation demand management program and strategies
will cost $4 million (Transportation Plan, pg. 9, ¶3). However, according to USACE, most of
this cost is allocated for local bus and shuttle services. These costs only cover services through
fiscal year (FY) 2012. A breakdown of the cost by route is presented in the Table 4-5 below:

    Route/Provider                                       FY 2011 Cost            FY 2012 Cost
    Franconia-Springfield Route and West Falls Church    $552,499.98             $1,350,000
    Route (W&T Transportation)                           (8/1/11– 11/1/11)       (11/2/11 – 11/1/12)

                                                         $129,393                $623,729
    Pentagon Route (WMATA Metrobus)
                                                         (8/1/11 – 9/30/11       (10/1/11 – 6/30/12)

    King Street Metro Station Route (Alexandria –        $137,250                $549,000
    DASH)                                                (8/8/11 – 9/30/11)      (10/1/11 – 8/7/12)

    TOTAL                                                $819,142.98             $2,522,729.00
                         Table 4-5: Bus and Shuttle Program Cost Estimates for the
                          BRAC 133 Project Fort Belvoir – Mark Center, Virginia5

The proposed shuttle program has contracts and funding from August 2011 to November 2012,
or one and a half years. The total estimated shuttle cost is $3,341,871.98. There were no
administrative costs included in the information submitted by USACE. Given the Transportation
Management Plan program requires considerable and sustained administrative support, the
absence or lack of accountability of these administrative costs creates uncertainty on whether the
program is funded adequately and will be administered effectively.




                                                    50
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Cost Estimates of Long Term Improvements for BRAC 133 Project Fort
Belvoir – Mark Center, Virginia

According to the Transportation Plan6 VDOT is currently studying long-term improvements that
include a direct HOV access ramp from I-395 to Seminary Road. The impact of this project on
existing LoS at the six intersections analyzed will not be known until the study is completed,
which is scheduled for the end of this year (2011). If the project receives public approval, which
is undetermined as of the writing of this report, construction is expected to begin in 2013 with
completion by late 2014. At this time, $80 million has been identified in the VDOT Six Year
Transportation Program7. Upon completion of the study, the design process will begin and the
preliminary cost estimate of the proposed action will be prepared.

 Finding

The Transportation Plan was mandated by Public Law 111-383 to assess the cost of the
improvements necessary to maintain existing levels of service at the six analysis intersections.
The costs were divided into:

   •   Short Range Improvements – City of Alexandria mandated improvements
   •   Short/Mid-Term Improvements – VDOT identified arterial improvements
   •   Long-Range Improvements – VDOT identified HOV ramp improvements
   •   Transportation Management Plan costs – TDM measures intended to reduce SOV’s

The Short Range Improvements estimated to cost $12 million have been completed.

The cost estimates of the VDOT short/mid-term improvements appear to be more than adequate
to fund the identified improvements. The cost estimates were prepared according to industry
standards, but the proposed short/mid-term improvements will not maintain existing levels of
service at the six analysis intersections.

The funding and programming for the BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
shuttle-bus program appear adequate, but it is only programmed for fiscal years 2011 and 2012.
There is no cost accountability or programming for future years. Additionally, funding for the
administrative elements of the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, TDM
program are not known and were not provided. This would include the costs for staffing,
program marketing, and program oversight and monitoring. Without this cost information, it is
not known if this critical element of the BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
relocation effort is adequately or appropriately funded and programmed.

The cost estimate for the long-range improvement is only a planning-level estimate. The actual
improvement and cost will not be known until the design studies and environmental assessment
are complete at the end of 2011. Furthermore, the benefits, if any, of the proposed HOV ramp
will not be known until that time as well.



                                                51
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




In conclusion, the Transportation Plan did not meet the Public Law mandate to assess the cost of
necessary improvements to maintain existing levels of service at the six analysis intersections.

 References

       1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011, pg. 2, ¶b
       2. Mark Center (BRAC-133) Short/Mid-Term Improvements Alternatives Technical
          Memorandum, Virginia Department of Transportation, February 2011, pg. 6, ¶1
       3. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011, pg. 11, ¶2
       4. Table 2-1, Mark Center (BRAC-133) Short/Mid-Term Improvements Alternatives
          Technical Memorandum, Virginia Department of Transportation, February 2011.
       5. James S. Turkel, United States Army Corps of Engineers, E-Mail Correspondence:
          Transportation Program Questions / Answers, Aug. 18, 2011.
       6. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011, pg. 13, ¶2
       7. Virginia Department of Transportation Six-Year Transportation Program

4.3.4 Programming of Project Funding

 Issue

Public Law 111-3831 requires an assessment of the programming of the short-, mid, - and long-
term projects. Determination must be made whether the proposed improvements have been
appropriately programmed in the transportation improvement plan to allow expenditure of
spending public funds.

 Analysis

   •   Programming of the City of Alexandria required short-term improvements is complete
   •   Programming of the $20 million for the VDOT Short/Mid-Term Improvements has been
       included in the Defense Access Roads Needs Report and is currently under design by the
       Federal Highway Administration (FHWA), U.S. Department of Transportation (USDOT)
   •   Programming of the $80 million for the VDOT I-395 HOV access ramp is included in the
       VDOT STIP or Six-Year Transportation Improvement Plan. The actual cost of this
       improvement is unknown as of the writing of this report, as it is currently in the
       preliminary design phase. Construction is expected for 2013 pending normal approvals
   •   Though requested, no information has been provided on the programming and source of
       funds to cover the administrative elements of the TDM program. This includes funding
       for the Employee Transportation Coordinator, support staff, marketing and program
       monitoring.

                                                52
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




   •   Cooperative agreements with WMATA and the Alexandria Transit Company and private
       operator contracts have been executed for the BRAC 133 Project Fort Belvoir – Mark
       Center, Virginia, bus-shuttle program, however these operating funds are programmed
       only through to 2012.2

 Finding

Public Law 111-383 mandated the Transportation Plan provide an assessment of the
programming of improvements necessary to maintain existing levels of service at the six analysis
intersections. The short-, mid- and long-term improvements have been programmed according
to industry standards. Additionally, the BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
shuttle-bus cooperative agreements and service contracts with providers have been executed. It
is not known if the administrative and management elements of the Transportation Management
Plan program have been adequately funded or programmed. This information was requested, but
it was not provided. However, the identified improvements are not adequate to maintain the
existing levels of service at the six analysis intersections.

 References

       1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011, pg. 2, ¶b
       2. James S. Turkel, United States Army Corps of Engineers, E-Mail Correspondence:
          Transportation Program Questions/Answers, Aug. 18, 2011.


4.4 Use of Other Methods of Transportation that are Necessary to
    Maintain Existing LoS

 Overview

According to the Transportation Plan1, the goal of the $4 million BRAC 133 Project Fort Belvoir
– Mark Center, Virginia, TDM program is to reduce employee SOV commuting trips by 40
percent (pgs. 7, 9). To achieve this, the TDM program features:

   •   Shuttle service                                •   Express and local bus service
   •   Connections to commuter rail service           •   Flexible work hours and telecommuting
   •   Carpool, vanpool, “slug,” bicycle and              programs, where applicable
       pedestrian services




                                                53
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




The Transportation Plan states (pg. 9) the                                 % of All
TDM program will be administered by an               Alternative Mode
                                                                          Employees
                                                                                          # of Employees

Employee Transportation Coordinator (ETC).             Shuttle-Rail         23.0              1,474
As envisioned in the Transportation Plan, eight        Transit Bus             5.0                320
percent of the BRAC 133 Project Fort Belvoir –          Car Pool              5.0                 320
Mark Center, Virginia, workforce, or 512                Van Pool               3.0                192
employees, will be permitted to park onsite at            Slug                 3.0                192
the Mark Center via vanpools and carpools. A
                                                          Walk                 2.0                128
greater number, 35 percent or 2,243 (0.35 ×
                                                         Bicycle              2.0                 128
6,409 = 2,243) employees, will not have
                                                        TOTAL                 43.0               2,754
parking privileges and are expected to walk,
                                                     Table 4-6: Employee Mode Splits of BRAC 133 Project
bike, bus and/or “slug” to work. These                        Fort Belvoir – Mark Center, Virginia
assumptions are summarized in Table 4-6.

 References

       1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mar
          Center, Virginia, Office of the Secretary of the Army, May 9, 2011, page 7
       2. Washington Metropolitan Area Transit Authority, http://www.wmata.com/references

4.4.1 National Capital Planning Commission (NCPC) Compliance

 Issue

As stated in the Transportation Plan (pgs. 4, ¶2, pg. 7, ¶1), the TDM program was approved by
the NCPC in September 20101. The NCPC is the only public agency noted in the Transportation
Plan to have approved the program. The commission is authorized by law to review federal
development projects within the NCR. Additionally, projects that increase work site populations
to 500 or more must submit a transportation management plan to the NCPC for approval. The
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, project fits within this category.
Elements of the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, Transportation
Management Plan do not comply with NCPC policy.

 Analysis

To assist federal agencies develop effective transportation management plans, and to facilitate
review of the same, the NCPC published “Implementing a Successful TMP (ISTMP)” in 2008
that draws from the federal policies of the “Comprehensive Plan for the National Capital –
Transportation Element.”2. The Transportation Plan and its July 2010 Transportation
Management Plan comply with some, but not all, of the NCPC policies. The documents are
compliant in providing:

   •   Stated goals for SOV trip reduction (pg. 7, ¶3)
   •   Evaluation of projected transportation impacts and description of proposed mitigation
       measures (pg. 8, ¶3)

                                                54
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




   •   Scenarios that incorporate data on employee home zip codes, nearby bus routes,
       Metrorail and Virginia Railway Express (VRE) lines and their respective schedules, and
       identifying existing and planned HOV or high occupancy toll (HOT) lanes (pg. 9, ¶1)

The Transportation Plan and its Transportation Management Plan are not compliant with NCPC
policy in the following areas

NCPC Policy:      “Update TMPs at least every two years to reflect the most current employee
                  information.”3

The Transportation Plan and Transportation Management Plan provide no timeline for updating
the TDM program. There are procedures in the Transportation Management Plan for adjusting
the program if necessary (pgs. 130-131), but there are no provisions in either document to update
the program every two years per NCPC policy.

NCPC Policy:      “Reflect, within TMPs, planned regional transportation infrastructure or
                  service improvements within five miles of the federal facilities.” 4

The Transportation Plan does not discuss transportation or service improvements within the five-
mile radius recommended in NCPC policy. There is general discussion (Transportation Plan -
pgs. 15, 16) on possible VDOT freeway improvements and requirements near and at the site, but
there is no discussion on needs within a five-mile radius.

NCPC Policy:      “Select reasonable goals and objectives, plan appropriate strategies and tasks
                  for carrying them out, and develop a timetable and establish a budget.” 5

A scenario for achieving mode split objectives is presented in the Transportation Plan (pg. 7, ¶3)
and the 2010 Transportation Management Plan6 (Chapter 5.0). However, there is no timetable
for achieving these objectives.

The annual cost of the TDM program “is estimated at $4 million” (Transportation Plan, pg. 9,
¶3), but no information is presented in the Transportation Plan on the administrative costs of the
program. Moreover, there is no explanation on how these funds will be allocated or
programmed. In a subsequent inquiry resulting from this engineering assessment, after
publication of the Transportation Plan, USACE7 reported the cost to contract the TDM shuttle
services as $3,341,871.90, covering a period from August 2011 to November 2012. There is no
discussion on TDM administrative costs.

To comply fully with the NCPC policy, all TDM program costs should be identified and
explained. For example, throughout the Transportation Plan and its Transportation Management
Plan there are references to the Employee Transportation Coordinator’s (ETC) responsibilities
and programs. (Transportation Plan - pgs. 7, Bullet 4; 9, ¶3; 10, ¶ 1 and ¶2; and Transportation
Management Plan - pgs. ES-1, ¶ 2 and ¶3; ES-2, ¶1; Chapter 5.0). The ETC’s role is so
extensive it is difficult to envision how the program will be effectively managed or executed
with one coordinator. The number of staff assigned to assist the ETC is unclear. These concerns

                                                55
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




are expressed in an assessment of the 2010 Transportation Management Plan conducted by the
DoD OIG in 2011, as follows:

       “The responsibilities described for the Transportation Coordinator position are varied,
       time intensive and go beyond the two main objectives…the monitoring and evaluation
       plan…adds further responsibilities. The three persons assumed to fill this role and the
       many anticipated responsibilities may be insufficient, particularly given the tight time
       frame between the hiring of the Transportation Coordinators and BRAC relocation." 8

The following management features of the TDM program are missing in the Transportation Plan
and should be supplied in accordance with NCPC policy:

                          •   Discussion on how the TDM program will be successfully
                              administered;
    Management            • Identification of the critical tasks to be undertaken;
    Plan                  • Prioritization of each task by function; and
                          • Identification of criteria for measuring program effectiveness and
                              performance over time.
    Program               Establishment of a time frame for implementing the program with
    Timetable             milestones and an explanation of what must be achieved and why.
                          Identification of the financial resources needed for the TDM program and
    Budget Plan
                          how they will be allocated by task and function.
                          Identification of the human resources needed to execute the program and
    Staffing Plan         identification of the functions and work the program staff will be expected
                          to perform.
    Program               Recognition that the program may not proceed exactly as envisioned and
    Contingencies         provision of strategies for mid-course corrections.

NCPC Policy requires these features to ensure TDM programs are realistic and attainable. The
absence of a management framework and plan makes it difficult to determine how, and if, the
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, TDM program will succeed.

NCPC Policy:        “To facilitate the implementation of selected tasks, [a] work plan for each
                    service/product should be prepared with the following elements…Marketing
                    Plan, Performance Measures and Monitoring Procedures, Budget, Timetable,
                    Responsibilities and Staff Time Allocations, and Priorities.” 9

As noted above, the Transportation Plan fails to provide a management framework in sufficient
detail to assess effectiveness or sustainability.

NCPC Policy:        “In many areas weather conditions, the unavailability of safe travel
                    routes…make conditions difficult for walking and bicycling…An ETC
                    should use good judgment when promoting these options…and...realize that
                    walking and bicycling might only provide seasonal alternatives to driving
                    alone and might not be year round options.” 10


                                                   56
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




The Transportation Plan assumes four percent of employees (256 total) of BRAC 133 Project
Fort Belvoir – Mark Center, Virginia, will walk or bicycle to work every day. It states bicycle
amenities such as showers will be provided on-site within the Mark Center (Transportation Plan,
pg. 10). However, it does not address the adequacy or safety of pedestrian and bicycle services
and facilities at or near the work site. While the 2010 Transportation Management Plan offers
more discussion (pgs. 29 – 31, Appendix G), it too fails to address the adequacy of the adjoining
road system to accommodate these modes. Moreover, the Transportation Plan and its 2010
Transportation Management Plan do not address the seasonality of pedestrian and bicycle travel.
There is no contingency for inclement weather and how this eventuality will affect mode split
assumptions. This failure to adhere to NCPC policy (walk-bicycle safety and seasonality) is
noteworthy. It is discussed in more detail in the pedestrian and bicycle in 4.4.6 and 4.4.7 of this
report.

NCPC Policy:         “Consult with local jurisdiction planning and transportation officials that
                     would be impacted by the development to identify current plans and
                     programs, available congestion mitigation/travel management techniques,
                     and any required TMP-related implementation commitments.” 11

It is noteworthy that key transportation agencies within the NCR reported little or no
involvement in the preparation or review of the BRAC 133 Project Fort Belvoir – Mark Center,
Virginia, Transportation Plan and/or its Transportation Management Plan. Agency statements
are presented below in Table 4-7:


      Agency                                           Statement                                    Reference
                        “Fairfax County was not consulted in the development of the TMP.            Interview,
                        Fairfax County BRAC Coordinator was not asked to provide information        11-19-10.
Fairfax County
                        or get involved. There should have been regional scoping meeting, so they   (Ref #1-A
                        know regionally what is going on.”                                          below).
                        “The Draft TMP was provided to Fairfax County by the City of Alexandria     Written
                        and the Final Transportation Plan was provided by Congressman Moran’s       response,
Fairfax County          office, not by DoD. The county received reports via third party in both     8-5-11. (Ref
                        cases and does not seem to have been perceived as a primary stakeholder     #2-A below)
                        by DoD in either case.”
                                                                                                    Written
MWCoG                   “Neither the Transportation Planning Board (TPB) nor any of its             responses,
Transportation          subcommittees reviewed the TMP or any sub-component thereof. No             11-12-10.
Planning Board          consultation meetings occurred.”                                            (Ref. #1-B
                                                                                                    below)
                        VDOT did not have opportunity to review the scope of work or the TMP        Interview
VDOT / Virginia
                        or the TIA included in the Transportation Management Plan. DRPT             summary,
Department of Rail
                        should have been consulted early to discuss the multi-modal scope because   11-17-10.
and Public
                        a successful Transportation Management Plan hinges upon transit. Most       (Ref. #1-C
Transportation
                        local and state agencies have a TDM agency. VDOT and DRPT do not            below)
(DRPT)
                        think that the TDM agencies were consulted.




                                                       57
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




       Agency                                           Statement                                     Reference
                         “WMATA is not aware of having any role in determining, reviewing or         Written
                          approving transit elements as part of the BRAC TMP process.”                response,
                         “If any informal consultation occurred between WMATA and                    12-16-10.
Washington                WHS/USACE on the TMP, there is no staff recollection of participating       (Ref. #1-D
Metropolitan Area         or being invited to participate.”                                           below)
Transit Authority        “WHS organized or requested roundtable discussion on May 18, June 8,
(WMATA)                   June 16 and November 3 to discuss alternative for providing shuttle
                          services to the Mark Center. However there is no staff recollection of
                          these meetings being designated or identified as part of the TMP
                          process.”
                         “VRE’s role in the TMP development and review process was                   Written
                          minimal.”                                                                   response,
Virginia Railway         “From the limited direct contact with the BRAC 133 team preparing the       11-18-10.
Express (VRE)             TMP and discussions with colleagues at other transit agencies, it appears   (Ref.# 1-E
                          there was not much of an attempt made to engage the transit community       below)
                          in the development of the TMP, which is disappointing.”

Reference #1: Professional Engineering Assessment of the Final Environmental Assessment, dated July 2008, and
the Final Transportation Management Plan, dated July 2010, for BRAC 133 at Mark Center, Acelsior, Inc., Office of
the Inspector General, U.S. Department of Defense, Feb. 14, 2011.

 1-A: Mark Canale, BRAC Coordinator, Fairfax County
 1-B: Andrew Austin, Transportation Planner IV, Metropolitan Washington Council of Governments
 1-C: Lisa DuMetz, Mobility Program Administrator, Chris Arabia, Mobility Program Manager – Virginia
  Department of Rail and Public Transit; Thomas Fahrney, BRAC Coordinator, Valerie Pardo, Multimodal
  Coordinator – Virginia Department of Transportation
 1-D: Nat Bottigheimer, Assistant General Manager, Planning and Joint Development, Washington Metropolitan
  Area Transit Authority
 1-E: Christine Hoeffner, Virginia Railway Express, Planning Manager, Virginia Railway Express
Reference #2: Independent Engineering Assessment of the Army’s Transportation Plan for BRAC
Recommendation #133 Project Fort Belvoir-Mark Center, Va., Strategy and Management Services, Inc., Office of
the Inspector General, U.S. Department of Defense, 2011.

 2-A: Mark Canale, Chief, Special Projects Division (BRAC and Dulles Rail), Fairfax County Department of
  Transportation
          Table 4-7: Agency-Reported Involvement in the BRAC 133 Project Fort Belvoir – Mark Center,
                     Virginia, Transportation Plan and/or Transportation Management Plan

 Finding

NCPC policies are the federal standard for ensuring federal development projects built in the
National Capital Region comply with traffic management and mitigation objectives. The
Transportation Plan does not comply with six NCPC policies and is in violation of this federal
standard. NCPC was the only agency that approved the BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, Transportation Management Plan.




                                                       58
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 References

       1. Minutes of the National Capital Planning Commission, Sept. 2, 2010, pgs. 1 -151
       2. Comprehensive Plan for the National Capital – Transportation Element, 2004
           (CPNC-TE)
       3. ISTMP Section 1- pg. 3, ¶3, and CPNC-TE, Pg. 87, Item #7
       4. ISTMP Section 1 – pg. 3, ¶2, and CPNC-TE, pg. 87, Item #5
       5. ISTMP Section 2 – pg. 11 – Bullet 2
       6. Transportation Management Plan for BRAC 133 at Mark Center, Benham
           Companies, Prepared for Washington Headquarters Services, in association with
           Department of the Army, U.S. Army Corps of Engineers, New York District, July
           2010
       7. James S. Turkel, United States Army Corps of Engineers, E-Mail Correspondence:
           Transportation Program Questions / Answers, Aug. 18, 2011
       8. Professional Engineering Assessment of the Final Environmental Assessment dated
           July 2008 and the Final Transportation Management Plan dated July 20 for BRAC
           133 at Mark Center, Acelsior, Inc., April 20, 2011, pg. 3-65 – Item #1.
       9. ISTMP Section 1 – pg. 7, left column
       10. ISTMP Section 3 - pg. 28, ¶2, right column
       11. ISTMP Section 2 – pg. 9, ¶5, right column
       12. National Planning Act - 40 U.S.C. §§8701 et seq.

4.4.2 Public Transportation - Shuttle and Bus Strategy

 Issue

Public Transportation and Shuttle Services

One critical element of the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, TDM
strategy is the availability of frequent, reliable and convenient public transportation and shuttle
service at the Mark Center Transit Station, which links to intermodal rail and bus connections.
With these services, the TDM strategy will fail with a greater number of employees traveling to
work in single occupant vehicles.

  Analysis

This analysis addresses the planned public transportation services first, followed by planned
shuttle services.

Public Transportation Services

The Transportation Plan assumes five percent of the workforce (320 employees) of BRAC 133
Project Fort Belvoir – Mark Center, Virginia, will use these services. (Pg. 7) To facilitate
connectivity, DoD has subsidized two express bus routes through cooperative agreements with
the Alexandria Transit Company. One route is Alexandria DASH AT2X-Express. At a cost of

                                                 59
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




$686,250, the route is intended to provide peak AM and PM express service at 15-minute
intervals between the Mark Center Transit and King Street Metrorail stations. The other DoD-
subsidized service is WMATA Metrobus 7M with an annual operating cost of $753,122. It is
intended to run express service between the Pentagon Metrorail and Mark Center Transit
Stations in 10-minute intervals in the AM and PM peaks and in 15-minute intervals mid-day.

As envisioned by the Transportation Plan and the Transportation Management Plan1, a total of
10 bus routes will provide service to the Mark Center. Five will pick-up and drop-off directly at
the Mark Center Transit Station. The remaining five will pick-up and drop-off at the Southern
Towers apartment complex immediately north of the Mark Center and within walking distance.
All of the routes connect to one or more Metrorail stations (Van Dorn, Eisenhower, King Street
and/or Pentagon)2 and enable continued
travel on the Metrorail Blue, Yellow and Service directly to/from Mark Center Transit Station
                                              • DASH AT1               • DASH AT2
Orange lines. BRAC 133 Project Fort
                                              • DASH AT2X              • Metrobus 7M and 7W/X
Belvoir – Mark Center, Virginia,
employees and contractors presenting a      Service to/from Southern Towers
DoD Common Access Card (CAC)                  • Metrobus 7A-E-F-Y      • Metrobus 28A, 28F-G
identification will travel free on the        • Metrobus 7B            • Metrobus 25B
Alexandria DASH and the Metrobus 7M
buses.

One additional component of the TDM strategy is the availability of Virginia Railway Express
(VRE) service at Metrorail stations in Alexandria. The VRE rail lines connect to the
communities of Fredericksburg and Manassas.

A summary of the intended BRAC 133 Project Fort Belvoir – Mark Center, Virginia, public
transportation services, routes, frequencies, and intermodal connections is presented in the
Appendix III - Table B-2: BRAC 133 Commuter Bus and Rail Services and Connections. The
table was constructed to facilitate understanding of the complex system of intermodal
connections envisioned in the Transportation Plan.

Shuttle and Bus Services

According to the Transportation Plan (pg. 4, ¶2 and pg. 7, 1st Bullet), DoD intends to use private
operators for shuttles to complement the public transit services described above. The shuttle
system is expected to carry 23 percent of the BRAC 133 Project Fort Belvoir – Mark Center,
Virginia, workforce (1,474 employees) on a daily basis. It was initially envisioned in the
Transportation Management Plan (pg. 42, Table 3-3) as comprising five routes, but this changed
to four express routes to and from the Pentagon, King Street, Franconia and West Falls Church
Metrorail stations in the AM and PM peaks.3 The shuttle system is illustrated below in
Figure 4-4.

Since the issuance of the Transportation Plan, a new development occurred that involved
negotiations between the City of Alexandria and BRAC 133 Project Fort Belvoir – Mark Center,


                                                60
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Virginia, management on the use of public buses in lieu of contracted private shuttles. This is
described in a City of Alexandria memorandum dated Jan. 5, 2011:

       “City and DASH staff have been in a number of meetings with DoD/WHS staff regarding
       the merits of subsidizing the expansion of transit service to their site…instead of
       DoD/WHS operating a fleet of private shuttle buses, exclusive to their employees….DoD
       has agreed, in principle, that the public transit operation would be more beneficial to its
       employees and contractors as well as the community itself.4”




                           Figure 4-4: BRAC 133 Mark Center Shuttle Routes

With this DoD agreement to curtail private operations, the DASH AT2X and Metrobus 7M
routes described above (Public Transportation Services) also represent the Blue and Red shuttle
routes respectively. These developments are not represented in the Transportation Plan nor the
Transportation Management Plan, but confirmed in the Transportation Management Program
Reference Guide for BRAC 133 Employees, Working Draft, Washington Headquarter Services,
(Feb. 23, 2011, pg. 12, 1st, 2nd, 3rd and 4th Bullets) and by correspondence from James S. Turkel.5
While each reference differs slightly, the USACE e-mail correspondence was used to describe
shuttle services from/to the Mark Center Transit Station, shown in Table 4-8 below:




                                                 61
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




    Route           Destination           Services
                                     •    15-minute peak and no off-peak service
                    Franconia-       •    55-passenger bus
    Route #1:
                    Springfield      •    Service to/from Franconia-Springfield Metrorail Station
                                     •    Operated by private vendor - W&T Transportation
                                     •    15-minute peak and no off-peak service.
                                     •    55-passenger bus.
                    West Falls
    Route #2:                        •    Transportation.
                    Church
                                     •    Service to/from West Falls Church Metrorail Station
                                     •    Operated by private vendor - W&T
                                     •    15-minute peak and 30-minute off-peak service
                                     •    35-passenger bus
    Route #3:       King Street
                                     •    Operated as DASH AT2X by the Alexandria Transit Company.
                                     •    Service to/from King Street Metrorail Station
                                     •    10-minute peak and 15-minute off-peak service.
                                     •    45-passenger bus.
    Route #4:       Pentagon
                                     •    Operated as Route 7M by WMATA
                                     •    Service to/from the Pentagon Metrorail Station.
                    Table 4-8: Shuttle Services From and To the Mark Center Transit Station

Five bus bays are arranged in saw tooth configuration at the west passenger loading area of the
Mark Center Transit Station. Four of the five bays are assigned to a specific bus route. There is
no explanation in the Transportation Plan on the status of the unassigned bus bay. For purpose
of analysis, it is assumed the bay will accommodate the two contracted shuttles originating from
the West Falls Church and Franconia-Springfield Metrorail Stations. Given this, the expected
AM peak hour arrivals at the bays are summarized in Table 4-9.

            Bay                              Service                     Expected AM Peak Frequency
                1                        DASH AT2X/AT2                                15 min
                2                          DASH AT1                                 20-30 min
                3                        Metrobus 7W/7X                               10 min
                4                         Metrobus 7M                                 10 min
                5                    DoD Private Shuttles (2)                      15 min each
                          Table 4-9: Mark Center Transit Station - Bus Bay Assignments
                                   and Expected AM Peak Hour Frequencies

Bus service frequency is defined as the number of arriving vehicles per hour and is a common
criterion for measuring LoS as perceived by passengers. The Level of Service values are shown
in Table 4-10.




                                                       62
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




                    Headway           Vehicles
     LoS                                                                      Indicators
                     (min)            Per Hour
       A              <10                >6           Schedules not needed by passengers
       B             10 - 14              5-6         Frequent service, passengers consult schedules
       C              15-20               3-4         Maximum desirable time to wait if bus missed
       D             21 - 30               2          Service unattractive to choice passengers
       E             31- 60                1          Service available during hour
       F              > 60                <1          Service unattractive to all passengers
                       Table 4-10: Service Frequency LoS – Urban Scheduled Transit Service6

If the expectations and goals stated in the Transportation Plan are realized, two of the bus routes
will have 10-minute headways, three will have 15-minute headways, and one will have roughly
25-minute headways. This represents an average 15-minute headway for all routes combined
arriving in the AM peak hour [(20 + 45 + 25) ÷ 6 = 15]. This represents LoS C.

If the expectations and goals stated in the Transportation Plan are realized, two of the routes will
generate six bus arrivals each in the AM peak hour; three will generate four bus arrivals, and one
will generate two bus arrivals. Thus, the average number of vehicles arriving at the Mark Center
station bus bays in the AM peak hour is 4.33 vehicles [(12 + 12 + 2) ÷ 6 = 4.33]. This represents
LoS C. The frequencies – 15-minute average headway and 4.33 average vehicles per hour – if
realized, suggest an acceptable LoS will be perceived by passengers at the Mark Center Transit
Station in the AM peak hour.

In continuing this assessment, it appears the expected supply (bus service) satisfies the expected
demand (mode split or number of passengers) at the Mark Center Transit Station in the AM peak
hour, as follows in Figure 4-5:

           Assume:
           Number of passengers per bus: Metrobus – 45; DASH – 35; Private Shuttles = 55
           Vehicle Arrivals during AM peak hours: Metrobus – 12; Shuttle – 8; DASH – 4; DASH – 2
           Percent of Total Passengers during AM peak hours: 50% or 897

           Cp = R(Vp x Va)
           Cp = Metrobus + Shuttle + DASH + DASH
           Cp = [2 (45 × 6)] + [2 (55 × 4)] + [1 (35 × 4)] + [1 (35 × 2)]
           Cp = 540 + 440 + 140 + 70
           Cp = 1,190

                   Legend:
                   Cp       =       System Capacity (passenger)
                   Vp       =       Vehicle Capacity (passenger)
                   Va       =       Number of Vehicles (arrivals)
                   R        =       Number of Routes
                   Figure 4-5: Estimation of Bus and Shuttle Carrying Capacity – AM Peak Hour
                              BRAC 133 Project Fort Belvoir – Mark Center, Virginia




                                                           63
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




This capacity calculation indicates the shuttles and buses assigned to the Mark Center Transit
Station will have more than adequate capacity to accommodate the 50 percent BRAC 133 Project
Fort Belvoir – Mark Center, Virginia, employees (897) expected to use the service in the AM
peak hour. Thus supply (shuttle - bus services) exceeds demand (passengers) with the system
having capacity to serve as many as 290 additional passengers in the AM peak hour.

It is noted that some of the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, workers
will use bus service arriving at Southern Towers and walk to work, slightly reducing the AM
peak hour demand estimate at the Mark Center Station. It is also noted that non BRAC 133
employees within the Mark Center complex may elect to use the service, thus slightly increasing
demand. Overall, capacity calculations show the system as designed, should accommodate
demand of BRAC 133 Project Fort Belvoir – Mark Center, Virginia.

With this finding, however, it is noted that the Transportation Plan does not account for delay
and congestion on the roadways on which the shuttles and public buses must travel. If roadway
LoS falls to unacceptable levels, the 10-minute and 15-minute frequencies intended for the
express bus and shuttle routes will not be realized. An administrator of an agency currently
located at Mark Center, as follows, expresses this concern:

       “…With existing traffic today there are times when the Seminary Road traffic trying to
       enter I-395 South is backed up beyond Mark Center Avenue. Now add an additional
       1,000 or so cars also trying to get out the same way. Another simple example of this
       shortfall is the plan to have a shuttle bus at King Street Metro every 10 minutes using
       four DASH buses. During rush hour, it generally takes 25 to 30 minutes each way to
       transit between Mark Center and the King Street Metro. That type of transit time does
       not support a 10-minute schedule.”7

 Finding

The public bus and shuttle services designed for the Mark Center Transit Station have adequate
frequencies and capacity to accommodate the number of employees designated to use them. It is
noted that the 10- and 15-minute frequencies for these services – which are designed to quickly
move employees to and from the site – will be severely compromised should LoS on roadways
serving BRAC 133 Project Fort Belvoir – Mark Center, Virginia, fail. There are no HOV lanes
directly serving the site. The bus and shuttle services will be required to use the freeway
general-purpose lanes. If freeway and local roadways operate at failing service levels, this will
undermine the efficiency of the bus and shuttle system. The 1,794 BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, employees expected to use these services may not do so, as the
service will be perceived as inefficient and unreliable. There is no contingency plan to address
this eventuality.




                                                64
Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
             Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 References

      1. Transportation Management Plan for BRAC 133 at Mark Center, Benham
          Companies, Prepared for Washington Headquarters Services, in association with
          Department of the Army, U.S. Army Corps of Engineers, New York District, July
          2010
      2. Transportation Management Plan for BRAC 133 at Mark Center, Washington
          Headquarters Services, United States Army Corps of Engineers, July 2010, pg. 33, ¶4
      3. Transportation Management Program Reference Guide for BRAC 133 Employees,
          Working Draft, Washington Headquarters Services, Feb. 23, 2011, pg. 13, Figure 2).
      4. Memorandum from James K. Hartmann, City Manager, City of Alexandria, Va.,
          Jan. 5, 2011
      5. James S. Turkel, U.S. Army Corps of Engineers, E-Mail Correspondence:
          Transportation Program Questions/Answers, Aug. 18, 2011
      6. Transit Capacity and Quality of Service Manual, Transit Cooperative Research
          Program, Transportation Research Board, Kittelson & Associates, 1999, pgs. 5 – 16
      7. Chet Humberd, Director of Administration, Institute for Defense Analysis, Response
          to Interview Questions, Aug. 15, 2011.
      8. Washington Headquarter Services, Transportation Management Program Reference
          Guide for BRAC 133 Employees, Working Draft, 2011, (pg. 12)
      9. E-mail: James Turkel, U.S. Army Corps of Engineers, Aug. 17, 2011.
      10. City of Alexandria communications dated Jan. 5, 2011
      11. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011
      12. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
          Washington Headquarters Services, in association with Department of the Army, U.S.
          Army Corps of Engineers, New York District, July 2010
      13. Washington Metropolitan Area Transit Authority, Maps for Routes 7M and 7W-X
      14. DASH – Alexandria Transit Web site
          http://www.commuterpage.com/schedules/route.cfm?op=4
      15. LOCALMOTION “Mark Center Transportation Options,” Aug. 8, 2011,
          http://www.alexandriava.gov/localmotion
      16. www.dashbus.com/news/newsDisplay.aspx?id=50572
      17. K. Johnston, Washington Metropolitan Area Transit Authority, Email
          Correspondence, Aug. 10, 2011
      18. Written Response to Interview Question: Chet Humberd, Director of Administration,
          Institute for Defense Analysis, Aug. 15, 2011.
      19. Washington Metropolitan Area Transit Authority Route Maps, 2011,
          http://www.wmata.com/




                                               65
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




4.4.3 Transportation Demand Management Goal

 Issue

There are conflicts in how the Transportation Plan defines the single occupancy vehicle (SOV)
goal for its TDM strategy. The Transportation Plan refers to the goal as a 40 percent reduction in
SOV trips (pg. 4, ¶1). Later in the Transportation Plan, the goal is referred to as a “40 percent
non-SOV mode choice.” (Pg. 7, ¶1).1

 Analysis

Variations in mode split goals, which is the relative share of each mode of transportation, will
produce significant variations in the peak hour traffic generated by BRAC 133. For example, a
goal of 60 percent SOV traffic would result in 3,845 employees driving to the site by themselves
on a daily basis (6,409 × 0.6 = 3,845). Conversely, if the goal were to reduce existing SOV trips
by 40 percent, the following would result if the 2010 WHS survey of employee commuting
patterns were used for the calculation:

   •   70 percent of the employees, or 4,486 (6,409 × 0.70 = 4,486) employees are currently in
       SOVs
   •   A reduction of 40 percent would yield 2,692 (4,486 × 0.4 = 2,692) SOVs
   •   Which equates to a difference of 1,794 (4,486 – 2,692 = 1,794) SOVs

The difference between the two goals is 1,794 SOVs.

 Finding

The TDM goals for employee SOV trips are contradictory and ill defined. BRAC 133 Project
Fort Belvoir – Mark Center, Virginia, may generate 1,794 more SOV trips than intended,
depending on which goal is realized. The SOV goal should be corrected and clarified in the
Transportation Plan.

 References

       1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011

4.4.4 Mode Choice Assumptions

 Issue

The Transportation Plan states (pg. 7, ¶3) 43 percent of the BRAC 133 Project Fort Belvoir –
Mark Center, Virginia, workforce (2,754 employees) will be required to use alternative
transportation modes to access the work site. The Transportation Plan reports most of the

                                                66
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




employees (34 percent) will use HOVs in the form of shuttles, vanpools, carpools and the “slug”
system. It is not certain that these alternative transportation goals will be achieved.

 Analysis

The Transportation Plan states the BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
mode split assumptions were based on an employee commuter survey, a review of employee
origin zip codes, and commuter travel pattern statistics for the Washington, D.C., metropolitan
area (pg. 7, ¶3). The Transportation Plan then establishes that 34 percent of all BRAC 133
Project Fort Belvoir – Mark Center, Virginia, workers will use the shuttle, rail, van pool, car pool
and “slug” modes. This estimate is much higher than the U.S. Census commute-to-work data for
the region. According to the U.S. Census, 11 percent of workers in Fairfax County, 8.3 percent
of workers in the City of Alexandria and eight percent of workers in Arlington County commute
via HOV. These percentages are much lower than the 34 percent HOV goal cited in the
Transportation Plan.

The five percent of workers assumed in the Transportation Plan to use public transportation as
their principal mode is much lower than U.S. Census data showing 26.6 percent of workers in
Arlington County, 21.7 percent in the City of Alexandria and 8.9 percent in Fairfax County use
public transportation. The assumption in the Transportation Plan on the percent of workers using
“other” modes such as bicycle is higher than U.S. Census percentages. These comparisons are
shown in Table 4-11.

                                    Transportation Plan                     U.S. Census
               Mode                                             City of        Fairfax        Arlington
                                         BRAC 133
                                                              Alexandria       County          County
     HOV Modes                             34.0%                 8.8%           11.0%           8.0%
     Public Transportation                 5.0%                 21.7%            8.9%          26.6%
     Walk                                  2.0%                 2.9%             1.8%             5.3%
     Other                                 2.0%                 1.8%             1.1%             1.9%
                    Table 4-11: Comparative Commute-to-Work Mode Percentages for
             BRAC 133 Project Fort Belvoir – Mark Center, Virginia, and Study Area Jurisdictions1

 Finding

When compared with U.S. Census information, BRAC 133 Project Fort Belvoir – Mark Center,
Virginia, mode split assumptions appear overly optimistic in HOV use and noticeably lower in
public transportation use. This finding is significant as any error or miscalculation in estimating
mode split may have a negative impact on the regional and local road network serving the site.

 References

       1. U.S. Census Bureau, American Community Survey, Selected Economic
          Characteristics, 2005-2009 for Alexandria City, Arlington County and Fairfax
          County, Va.


                                                     67
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




4.4.5 TDM Marketing Strategy

 Issue

The Transportation Plan offers no compelling reason for why 43 percent or 2,756 (0.43 × 6,409
= 2,756) employees will alter or modify their travel behavior in accordance with the mode split
assumptions listed on pg. 7. The Transportation Plan assumes the absence of on-site parking for
35 percent of the employees coupled with an increase in shuttle, carpool, vanpool, and public
transportation services will induce behavior change. Yet as noted in the previous report section,
the Transportation Plan mode split goals deviate significantly from U.S. Census mode split data
for the region.

 Analysis

To assist employee adaption to new or different travel behaviors, BRAC 133 Project Fort Belvoir
– Mark Center, Virginia, program managers published the Transportation Management Program
Reference Guide for BRAC 133 Employees, Working Draft1, which outlines the availability,
cost and schedules of various transportation services. This document will be disseminated to
BRAC 133 employees as they move to the site. The Transportation Plan also identifies an
Employee Transportation Coordinator (ETC) to assist the employees in their transitions to new
or other modes. While the ETC has a wide range of responsibilities, the effort appears
fragmented and unfocused. For example, Transportation Management Plan Section 5.9.3
describes the TDM marketing effort as acquiring and preparing bicycle maps, developing
relationships with bicycle advocacy groups to organize health fairs and training seminars on
bicycle and walking safety, organizing an annual Bike-to-Work day “pit-stop” at the Mark
Center, and overseeing a walk-buddy program.

According to the research report, Individualized Marketing Demonstration Project (IMDP),2 in
order to meaningfully modify commute travel behavior – at the level and magnitude proposed in
the Transportation Plan – a scientific marketing approach is the best method to meet the specific
needs of each targeted employee. According to the referenced report, “…utilizing a dialog-based
technique for promoting the use of public transport, the program provides targeted, personalized,
customized marketing tailored for individuals that are most likely to change their travel
behavior.”

Effective, individualized marketing focuses on the individual employee who is determined to be
most susceptible to change and concentrates program resources on that individual through
controlled interventions. In contrast, the Transportation Plan TDM approach casts a wide net
over all of the 2,756 employees.

Individualized Marketing – when correctly applied – has proven successful in Europe, Australia
and in U.S. test cities such as Portland, Ore., and Cleveland, Ohio. In Cleveland, the change in
mode choice, in terms of trips per person per year, included a four percent reduction in car (as
driver) use and a five percent increase in car (as passenger) mode. Walking increased by 13
percent, bicycling by 33 percent and public transportation by 26 percent.

                                                68
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




The first U.S. Individualized Marketing pilot project – SmartTrips Downtown3 – was conducted
in Portland, Ore., and resulted in a reduction in car travel of eight percent and an increase in
travel by environmentally friendly modes by 27 percent. Seventy-five percent of the program’s
survey respondents reported motivation to drive alone less or continue not to drive to work.
SmartTrips Downtown used market segmentation with targeted messaging and continuous modal
promotions, informed by focus groups. This doubled transit and carpool usage among the
targeted participants.

 Finding

Given the large number of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, employees
(2,756) assumed to voluntarily convert to non-SOV modes for their daily commute to BRAC
133, a fine-tuned Individualized Marketing approach is required. The approach described in the
Transportation Plan cast a wide net over all of the employees with ill-defined or possibly
ineffective strategies, such as mass marketed employee directories and modal promotions. A
more scientific, structured and tested approach is recommended, such as customized and targeted
individualized marketing.

 References

       1. Transportation Management Program Reference Guide for BRAC 133 Employees,
          Working Draft, Washington Headquarter Services, Feb. 23, 2011
       2. Individualized Marketing Demonstration Project (IMDP), Final Report, U.S.
          Department of Transportation, Federal Transit Administration, 2006
       3. SmartTrips Downtown – Final Report, City of Portland, Oregon November 2006 –
          June 2009
       4. Transportation Management Plan for BRAC 133 at Mark Center, Washington
          Headquarters Services, U.S. Army Corps of Engineers, New York District, July 2010

4.4.6 Pedestrian Service

 Issue

According to the Transportation Plan, an estimated two percent of BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, employees (128 workers) will walk to work on a daily basis
(pg. 7, ¶3). Due to unsafe walk conditions leading to and from the site, it is not certain the walk
goal will be achieved.

 Analysis

The Transportation Plan states “construction of a well-connected, continuous sidewalk system to
access the site from the adjacent roadway network” will be completed “before tenants begin
occupying the BRAC 133 facility” (pg. 8, 4th bullet). These improvements are part of a $20
million appropriation authorized by the U.S. Department of the Army, as stated in a Base
Realignment and Closure 2005 - Construction Reprogramming Request dated April 2011.

                                                69
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




According to the request, the road network serving the Mark Center is certified, under Defense
Access Road (DAR) program criteria, as “important to national defense.” The anticipated DoD
improvements related to pedestrian facilities include:

   •   Intersection improvements at Seminary Road and Mark Center Drive, including
       pedestrian access
   •   Intersection improvements at Seminary Road and North Beauregard Street, including
       pedestrian access
   •   Intersection improvements at North Beauregard Street and Mark Center Drive

According to the City of Alexandria, these improvements will not be completed until 2013, two
years after the scheduled Sept. 15, 2011, relocation of BRAC 133 Project Fort Belvoir – Mark
Center, Virginia. Specifically: “The local improvements to roads in the vicinity of the Mark
Center that were part of the developer-proffered improvements have been completed. Still
pending are the $20 million short- and mid-term road improvements to local intersections being
funded through the DAR program, which are anticipated to be completed in December 2013.1”

According to the 2001 USDOT Federal Highway Administration publication Designing
Sidewalks and Trails for Access Part II of II: Best Practices Design Guide, “integrating
pedestrians, including pedestrians with disabilities, into the project planning process is critical to
the success of a transportation network.” (Pg. 3-1). This tenet is forged in federal law such as the
Americans with Disabilities Act (ADA), national transportation legislation such as the
Intermodal Surface Transportation Efficiency Act – Local Use (ISTEA-LU) and the Virginia
Department of Transportation Design Specifications, Section 200.

Federal standards in pedestrian system design generally require:
   •   Wide pathways                             •    Tight corner radii
   •   No obstacles and protruding objects       •    Firm, stable and uniform slip resistant surfaces
   •   Moderate grades and cross slopes          •    Good lighting and adequate sight lines
Within a pedestrian corridor, a minimum sidewalk width of five feet is recommended. In
locations with pedestrian concentrations and for the handicapped, wider widths of six to nine feet
are warranted. Federal guidelines also advise the environment for pedestrians should be well
signed and include elements such as:
   •   Pedestrian traffic control devices        •    Street trees, landscaping, traffic side
   •   Crosswalks, curb ramps                         buffer strips
   •   Refuge islands                            •    Benches and public art


Field Observations of Pedestrian Facilities and Services

Field observations were performed Aug. 4 and 7, 2011, after the developer-proffered
improvements noted above were completed. The purpose of the field visit was to document
walking conditions on roadways, crosswalks and sidewalks within 0.15 miles of the site. Field
review involved observations of six roadways: Mark Center Drive-east and west; Mark Center
                                                 70
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Avenue; Seminary Road; North Beauregard Street-north; North Beauregard Street – east; and
Rayburn Avenue. The following services and facilities were observed:

   •   Crosswalk ramps, slopes and conditions         •   Traffic turn movements and lanes
   •   Sidewalk widths, slopes and conditions         •   Pedestrian, traffic and way-finding
   •   Sidewalk curb radii                                signage
   •   Pedestrian traffic and signal control          •   Building 133 garage access locations
       devices                                        •   Building 133 Transit Center bus bays,
   •   Transit bus stop locations and                     passenger load and wait areas
       conditions                                     •   General roadway conditions
   •   Handicapped access provisions

It should be noted that the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, facility was
under construction during the field visits on Aug. 4 and 7, 2011. Full occupancy conditions
could not be observed or experienced.

The deficient locations observed on the road network at and near the site are identified in Figure
4-6 below. Written descriptions of these locations is presented in the Appendix B: Table B-1:
Pedestrian Service Field Observations At and Near the site of BRAC 133 Project Fort Belvoir –
Mark Center, Virginia.

 Finding

The Transportation Plan’s assertion that “a well-connected continuous sidewalk system” will be
available “before tenants begin occupying the BRAC 133 facility” (pg. 8, 4th bullet) is not
correct. An August 2011 review inventory of pedestrian facilities at and near the site found a
series of ADA-deficient and unsafe conditions including hazardous pedestrian crossing locations,
substandard sidewalk widths, substandard bus stop locations, substandard crosswalk ramp
facilities, substandard (or non-existent) pedestrian traffic control devices, and absence of
pedestrian way finding. Additionally, the proposed Seminary Road pedestrian overpass has not
been built, requiring BRAC 133 Project Fort Belvoir – Mark Center, Virginia, workers to cross
the heavily traveled, multi-lane traffic arterial at-grade. This will make it difficult to safely
accommodate the 128 employees expected to walk to the BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, work site on a daily basis.

 References

       1. Interview: Mark Jinks, Deputy City Manager, City of Alexandria, Va., Aug. 5, 2011.
       2. BRAC 133 Field Observations, Valerie J. Southern – Transportation Consultant,
          LLC, Alexandria, Va., Aug. 4 and 7, 2011
       3. Special Report: Accessible Public Rights-of-Way Planning and Design for
          Alterations, Public Rights-of-Way Access Advisory Committee (PROWAAC),
          Subcommittee on Technical



                                                71
Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
             Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




      4. Designing Sidewalks and Trails for Access, Part I of II: Review of Existing
         Guidelines and Practices, 1999:
         http://www.fhwa.dot.gov/environment/sidewalks/index.htm
      5. Designing Sidewalks and Trails for Access, Part II of II: Best Practices Design Guide,
         2001, http://www.fhwa.dot.gov/environment/sidewalk2/
      6. Special Report: Accessible Public Rights-of-Way Planning and Design for
         Alterations, Chapter 5, http://www.access-board.gov/prowac/alterations/guide.htm#5
      7. Virginia Department of Transportation, Design Specifications, Section 200, Curbs,
         Medians and Entrance Gutters:
         http://www.extranet.vdot.state.va.us/LocDes/Electronic%20Pubs/2008Standards/CSe
         ction200.pdf
      8. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
         Washington Headquarters Services, in association with Department of the Army, U.S.
         Army Corps of Engineers, New York District, July 2010




                   Figure 4-6: Locations of Observed Pedestrian Service Deficiencies2




                                                  72
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




4.4.7 Bicycle Service At or Near Site

 Issue

According to the Transportation Plan1, an estimated two percent of total employees (128) of
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, will bicycle to work on a daily basis
(pg. 7). The Transportation Plan states, “Many bicycle paths and routes are located within one
mile of the BRAC 133 site.” The 2010 Transportation Management Plan2 supports this assertion
(pgs. 124-125), however there is no bicycle circulation and access plan in the Transportation
Plan or the Transportation Management Plan. Please see Section 4.4, page 53 of this report, for
additional discussion on pedestrian and bicycle services.

 Analysis

Field observations were performed within 0.15 miles of BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, on Aug. 4 and 7, 2011. The purpose of the field visit was to document bicycle
services and conditions on roadways near and at the site. This involved observations on six
roadways:

   •   Mark Center Drive-east and west                •   North Beauregard Street - north
   •   Mark Center Avenue                             •   North Beauregard Street - east
   •   Seminary Road                                  •   Rayburn Avenue

While several of the roadways were recently modernized and upgraded by the developer of
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, no bicycle facilities or amenities were
found on the roadways serving the site. Additionally, there were no way-finding signs on the
roadways or at garage entrances.

 Finding

One hundred and twenty-eight employees are expected to bicycle to BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, on a daily basis. Field observations found no bicycle service on
the roadways serving the site. Moreover, the Transportation Plan does not provide a bicycle
circulation and access plan for preferred or recommended movements within, to and through the
campus.

 References

       1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
          Center, Virginia, A Report to Congress Pursuant to the National Defense
          Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011
       2. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
          Washington Headquarters Services, in association with Department of the Army, U.S.
          Army Corps of Engineers, July 2010


                                                73
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




4.4.8 Bicycle Routings in Proximity to Site

 Issue

The Transportation Plan1 states, “Many bicycle paths and routes are located within one mile of
the BRAC 133 site…” (pg. 10, 6th bullet) and the 2010 Transportation Management Plan2
(Appendix G) illustrates the suggested bicycle routes employees may use for accessing the site.
These suggested routes are repeated in Transportation Management Program Reference Guide
for BRAC 133 Employees, Working Draft,3 (pgs. 51 - 55). They are:

   •   Southbound Route from Columbia Pike/Bailey’s Crossroads via Lacy Boulevard
   •   Eastbound Route from Glen Hills Park via Holmes Run Stream Valley Trail
   •   Westbound Route from Arlington County via Four Mile Run
   •   Northbound Route from Seminary Hill via Seminary Road

These bicycle routes do not offer safe or convenient travel to the BRAC 133 Project Fort Belvoir
– Mark Center, Virginia, work site.

 Analysis

Though some sections of the suggested bicycle routes are on city-designated bikeways (such as
the Holmes Run Trail), the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, users must
eventually divert to traffic arterials that lack the width to safely accommodate vehicles and
bicycles. A commenter on the Transportation Management Plan bicycle policies – characterized,
as a Mark Center employee who bicycles to work, shared his/her thoughts as follows:

       “The flaw in the transportation plan with respect to bicycling is not the number of racks
       or the availability of showers, but the lack of bicycle access to the site. Only those who
       are comfortable riding in heavy traffic can get there now, and the situation is likely to get
       worse. From no direction is bicycling easy, and I don’t consider riding on sidewalks an
       option. That is safe for neither bicycles nor pedestrians, and none of the sidewalks in the
       area is wide enough or recognized for mixed use…From the north west, Seminary has
       four narrow lanes that make it difficult for cars to pass bicyclists safely. Beauregard
       Street to the northeast is ridable, but only for those skilled in traffic. …If the Plan were
       serious regarding bicycling as a mode of transportation, there would be more…regarding
       road improvements to ensure bicycle access….” (Transportation Management Plan -
       pg. A-25, Item 134)

The official BRAC 133 Project Fort Belvoir – Mark Center, Virginia, management response to
these comments was:

       “Adjustments have been made to the Transportation Management Plan to remove any
       instances of the word “safe” and to remove language referring to the use of sidewalks by
       bicycles….DoD is not funding offsite bicycle access improvements. Onsite safety
       improvement will be coordinated between the City Biking and Pedestrian Coordinator

                                                74
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




       and the WHS Transportation Coordinator(s). WHS will closely monitor the use of
       bicycles as one of its transportation demand management strategies….” (Transportation
       Management Plan - pg. A-26, Bullets 1, 2 and 3)

In lieu of the bicycle routes suggested in the Transportation Management Plan, an assessment
was performed on the viability of using city-designated bikeways within and near the site. It was
determined that examining the designated bikeways as a starting point, would offer insight on the
quality of bicycle service available to employees. A portion of the City of Alexandria Bicycle
Map, closest to BRAC 133 Project Fort Belvoir – Mark Center, Virginia,, is presented in Figure
4-7 below.

A description of the city-designated on-roadway and off-roadway bikeways near BRAC 133 is
provided here.

Designated Off-Roadway Bikeways

   •   Holmes Run Trail: At its closest point, this designated north-south bikeway and trail is
       roughly one mile south of BRAC 133. From the south, the trail crosses I-395. In
       inclement weather, the crossing is flooded and closed. From this crossing, the trail runs
       west. To access the Mark Center, users would divert to North Beauregard Street then
       north to Mark Center Drive-west, then east to the work site. The final two links are on
       unprotected traffic streets necessitating travel in traffic lanes or on sidewalks. As noted
       in the pedestrian section of this report, the south section of North Beauregard Street has
       narrow sidewalk widths at three and a half to four feet on either side. The route length as
       described is roughly one mile.

   •   Washington and Old Dominion (W&OD) Trail: At its closet point, this designated
       off-road bikeway is roughly two miles north west of BRAC 133 Project Fort Belvoir –
       Mark Center, Virginia. Travel to the site would require connection to South Walter Reed
       Drive at King Street. At this location there is a warning to “use extra caution.” From this
       point, there are two travel options:
           o Shorter Route: Exit the designated bikeway and travel on two traffic roadways
               (southeast on North Beauregard Street then east on Mark Center Drive-west).
               This route as described is roughly two miles in length.
           o Longer Route: This option enables more travel on designated bikeways, but the
               last two links are on unprotected traffic streets. Users would first travel on two
               designated on-road bikeways (west on West Braddock Road and south on Dawes
               Avenue), then on two traffic streets (east on Seminary Road and south on North
               Mark Center Drive). The route as described is roughly three miles in length.

   •   Four Mile Run: At its closest point, this designated off-road bikeway is roughly two
       miles north west of BRAC 133 Project Fort Belvoir – Mark Center, Virginia. The route
       options and lengths discussed for the Washington and Old Dominion Trail would apply
       here.



                                                75
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Designated On-Road Bikeway

   •   Sanger Avenue: At its closest point, this designated east-west bikeway is roughly 0.75
       miles south of BRAC 133 Project Fort Belvoir – Mark Center, Virginia. From the
       southeast, it crosses I-395 where there is a “use extra caution” warning. It then runs west
       where users would divert to two traffic streets (north on North Beauregard Street and east
       on West Mark Center Drive) to the Mark Center. This option is roughly one and a half
       miles in length from the I-395 crossing.


                                                                                       W&OD Trail and
                                                      Dawes Ave                        Four Mile Run Trail
                                                      Route




                                                                            Braddock Rd
                                                                            Route




                            Sanger Ave Route




         Holmes Run Trail




               Figure 4-7: City of Alexandria Bike Map (Excerpt) Designated Trails and Routes
                                    in proximity to BRAC 133 Mark Center4

 Finding

The Transportation Plan statement that “Many bicycle paths and routes are located within one
mile of the BRAC 133 site” is misleading. There are paths and routes in the vicinity of the site
but none offer safe or direct connections to the Mark Center. A reassessment of the bicycle
element of the Transportation Plan is warranted given the absence of bicycle service near and at
the Mark Center. This creates an unsafe condition for the 128 employees of BRAC 133 Project
Fort Belvoir – Mark Center, Virginia, expected to bicycle to work on a daily basis.


                                                    76
Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
             Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




 References

      1. Transportation Plan for BRAC Recommendation #133 Project Fort Belvoir-Mark
         Center, Virginia, A Report to Congress Pursuant to the National Defense
         Authorization Act for Fiscal Year 2011 – Public Law 111-383, May 2011
      2. Transportation Management Plan for BRAC 133 at Mark Center, Prepared for
         Washington Headquarters Services, in association with Department of the Army, U.S.
         Army Corps of Engineers, July 2010
      3. Transportation Management Program Reference Guide for BRAC 133 Employees,
         Working Draft, Washington Headquarter Services, Feb. 23, 2011
      4. City of Alexandria, Va., Bikeways Network,
         http://alexandriava.gov/localmotion/info/default.aspx?id=11546




                                               77
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




5.0    Findings and Conclusions

5.1    Conclusion: Process

Much of the data, analysis, and information contained in the Transportation Plan are unreliable
and questionable. The volume of transportation studies prepared to address the impact of BRAC
133 Project Fort Belvoir – Mark Center, Virginia, create an illusion that the transportation issues
have been thoroughly addressed and mitigated. However, any sound analysis must begin with
sound data. Data for traffic counts, background traffic, trip generation, trip distribution and
traffic assignments was not developed using industry standards or recommended engineering
practice. Further hindering the Transportation Plan’s message is the absence of a logical,
reasoned and sequential discussion on the goal, the alternatives that were considered based on
rigorous analysis, the recommendation on which alternative would, most effectively achieve the
transportation goal and objectives required by federal law.

5.1.1 Finding: Traffic Studies
The volume of transportation studies prepared to address the impact of BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, creates an illusion that the transportation issues have been
thoroughly addressed and mitigated. This is not correct. It appears the Transportation Plan
cherry-picked the various traffic studies listed in Table 4-1 to formulate the findings expressed.
All of the studies were based on faulty baseline data, including existing peak hour traffic
volumes. Many of the studies were flawed in their assessment of the issues, which led to
inaccurate conclusions. None of the studies, individually or collectively, provided a thorough
and accurate analysis of the impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia.

5.1.2 Finding: Traffic Counts
The traffic counts used in the transportation studies prepared to address the traffic impacts of
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, did not comply with requirements of
ITE recommended standards for collecting such data. The traffic counts were taken during time
periods when traffic volumes are impacted by national holidays and summer vacations. The
resultant peak hour turning movement volumes did not reflect an average peak hour traffic
conditions for the study area. As a result, there was an understatement of existing AM and PM
peak hour traffic volumes which was perpetuated through all other volume scenarios used to
evaluate the impact of BRAC 133 Project Fort Belvoir – Mark Center, Virginia.

5.1.3 Finding: Background Traffic
Site development transportation impact analyses require the inclusion of background traffic
growth to provide an understanding of overall traffic impact in the development’s horizon year:
defined as the time the proposed development is occupied. The transportation studies used to
develop the Transportation Plan did not adhere to the ITE Recommended Practice in the
development of background traffic volumes for the assessment of project impact. Not all studies

                                                78
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




used in the development of the Transportation Plan included ambient growth, and none of the
studies evaluated the impact of the four million gross square feet (gsf) of pipeline development
identified in the Transportation Plan.

The 2011 horizon year peak hour traffic volumes used in the development of the Transportation
Plan are significantly less than the anticipated peak hour volumes. Consequently, the level of
service will be significantly lower than those used in the development of the Transportation Plan.
Therefore this creates an inaccurate representation of project impact in the horizon year.

5.1.4 Finding: Trip Generation
The ITE Recommended Practice defines how trip generation shall be determined for site
development transportation impact analyses. The Mark Center trip generation used in the
development of the Transportation Plan was not determined in accordance with this practice.
ITE recommends the use of national trip generation data where possible, and if not, the
development of a local trip generation study in accordance with ITE standard practice.

The studies used in the development of the Transportation Plan did not follow these guidelines,
but simply estimated peak hour trip generation from total site employment. As a result, the peak
hour volumes stated in the Transportation Plan appear to be significantly less than what would be
estimated if the ITE procedures and VDOT-recommended guidelines had been used.
Application of ITE rates suggest peak hour volumes of BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, could be as high as 3,000 vehicles per hour or approximately double the peak
hour volumes represented in the Transportation Plan.

5.1.5 Finding: Trip Distribution/Traffic Assignment
The process used to determine trip distribution/traffic assignment for the Mark Center did not
adhere to sound engineering practice in the use of survey data and determination of traffic
assignment patterns. The traffic distribution patterns of the entire employee population of
federal employees and defense contractors were based on the residential location of the federal
employees and did not include a sample of the residential location of the defense contractors.
Secondly, traffic assignment patterns for the entire employee population were based on an
assumed route from the residential location to the Mark Center without recognition of the
possible alternative routes. The result of this approach to trip distribution and traffic assignment
will result in unrealistic traffic patterns assumed for project-generated traffic.

5.1.6 Finding: Transportation Plan

The Transportation Plan does not comply with standard industry practice for the development of
transportation plan documents. The Transportation Plan appears to be a rambling collection of
thoughts generally related to the issues surrounding BRAC 133 Project Fort Belvoir – Mark
Center, Virginia. The Transportation Plan offers insufficient discussion and justification on how
it arrived at recommendations and strategies for accommodating transportation needs of BRAC
133 Project Fort Belvoir – Mark Center, Virginia. The Transportation Plan’s use of source

                                                 79
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




documents and its methodology for traffic counts, background traffic, trip generation, trip
distribution and trip assignments is questionable and not clearly or fully explained. Without
sound application of quantitative methodology, thoughtful consideration of possible alternatives
and justification on why certain program strategies were selected over others, the conclusions of
the Transportation Plan are weakened and do not meet the requirements of Section 2704 of
Public Law 111-383.


5.2    Conclusion: Ingress/Egress
The efficient ingress and egress of all personnel to and from BRAC 133 Project Fort Belvoir –
Mark Center, Virginia, is dependent upon the provision of a safe and highly functional roadway
network.. The Transportation Plan fails to adequately address expected congestion on adjacent
arterial roadways serving the site and on the roadways within the site itself. Projected queuing
on the adjacent arterials will back up on to the site internal roadways and create severe
congestion; resulting in near gridlock conditions in peak periods. This will hamper the high
frequency express bus and shuttle services envisioned to move employees quickly to and from
the site in the AM and PM.

The Transportation Plan fails to analyze the complete impact of BRAC 133 Project Fort Belvoir
– Mark Center, Virginia, by limiting its analysis to the six adjoining intersections as if they
existed in isolation. In order for any traffic analysis to be realistic and complete, standard
engineering practice dictates the Transportation Plan should have included an evaluation of
traffic impacts at both signalized and unsignalized intersections within a radius of 2 miles from
the Mark Center. An additional issue is parking. The insufficient supply of parking at BRAC
133 Project Fort Belvoir – Mark Center, Virginia, will likely have a deleterious impact on
adjoining neighborhood traffic and parking conditions as Mark Center employees seek parking
on their own. Other safety concerns related to ingress/egress, but not addressed in the
Transportation Plan, are the historically high crash locations on roadways within the vicinity of
Mark Center.

Each of these issues will exacerbate congestion on the local road network, have a significant
impact on emergency response, and create an unsafe environment for BRAC employees and the
immediate community.

5.2.1 Finding: High Occupancy Vehicle Access
The Transportation Plan assumes at least 39 percent of the workforce (2,500 employees) of
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, will use shuttle, commuter rail, and
HOV access for travel to work. This assumption is based on existing mode split choices of
federal employees at the Pentagon Reservation. This assumption may be unrealistic. The
Transportation Plan incorrectly states the wide range of alternative travel options at the Pentagon
Reservation will be the same or similar for employees at the Mark Center. The actual finding is
that travel options at the Mark Center are severely limited – rail access is 4.31 miles away, and
no HOV freeway lanes directly serve the site. With this existing condition, the BRAC 133

                                                80
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Project Fort Belvoir – Mark Center, Virginia, TDM strategy for achieving 39 percent non-SOV
trips may fail.

5.2.2 Finding: Study Area
The ITE Recommended Practice suggests a development of the magnitude of BRAC 133 Project
Fort Belvoir – Mark Center, Virginia, include the evaluation of the traffic impacts at all
signalized intersections within a study area defined by a two-mile radius around the site. The
Transportation Plan limited the analysis to six intersections within 0.14 miles of the site. The
Transportation Plan should have considered a much larger study area than six intersections.
Application of the ITE Recommended Practice would have resulted in a larger study area that
would have included at a minimum an additional 63 intersections. The outcome would have
identified significant impacts resulting from BRAC 133 Project Fort Belvoir – Mark Center,
Virginia, on the area intersections.

5.2.3 Finding: Capacity of I-395
Responsible transportation planning dictates a proposed development should mitigate significant
adverse impacts to the roadway network. The Transportation Plan documents the fact that
BRAC 133 Project Fort Belvoir – Mark Center, Virginia, will create a significant adverse impact
on I-395 that will not be mitigated by the proposed HOV access ramp. The Transportation Plan
fails to recognize that congestion on the I-395 mainline creates queuing onto Seminary Road
impacting the intersection at Mark Center Avenue. Any volume diverted to the proposed HOV
ramp will not be significant enough to resolve the mainline congestion on I-395 southbound.

5.2.4 Finding: I-395 Congestion

Transportation planning research indicates that small increases in traffic volume may result in
significant impacts on traffic speeds and congestion. The Transportation Plan’s assumption that
because I-395 is already congested, a relatively modest increase in traffic will have “a relatively
minor impact” on traffic operations is not accurate. Additional traffic added to a congested
freeway will have a disproportionate impact on freeway operations that could result in gridlock.

5.2.5 Finding: Mitigation
The Transportation Plan incorrectly asserts that Virginia Department of Transportation indicates
that with the short/mid-term and long-term improvements, the impact of BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, will be adequately mitigated. With the proposed short/mid-
term improvements, the Seminary Road/Mark Center Avenue intersection is estimated to operate
at LoS F. According to VDOT, the impact of the proposed I-395 HOV access ramp is currently
unknown.




                                                81
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




5.2.6 Finding: Parking Supply

The Transportation Plan states that sufficient parking supply will be provided to accommodate
all vehicles with an assumed 57 percent SOV mode split. In fact, the Mark Center will have 636
fewer parking spaces than is needed to accommodate the workforce under the proposed SOV
goal. The proposed parking supply of 3,747 parking spaces is approximately 636 spaces fewer
than what is required to meet the projected demand even with the “self imposed stringent
requirement” of 57 percent SOVs. The result of this requirement will be employees seeking
parking off site and placing pressure on adjacent residential neighborhoods, shopping malls,
churches, and other commercial complexes.

5.2.7 Finding: On-Site Circulation (Vehicle and Pedestrian)
Several studies have been conducted to assess on-site circulation at the Mark Center. All of the
studies concluded that with BRAC 133 Project Fort Belvoir – Mark Center, Virginia, there
should be no adverse circulation issues. However, these analyses have failed to 1) consider the
impact of queuing created by congestion on the surrounding arterial street network; 2) use
appropriate assumptions and analysis tools; 3) recognize design deficiencies in the on site
roadway network; and 4) mitigate the resultant adverse impacts. As a result, the full impact of
the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, traffic on the on-site street system
is unknown. Extensive on-site delay is expected based on anticipated on-site queuing resulting
from the site access intersections and the substandard roundabout design.

5.2.8 Finding: Safety
The ITE Recommended Practice suggests that the traffic impact studies should identify locations
within the study area where extra attention should be given to safety issues. None of the traffic
studies used in the formulation of the Transportation Plan gave any consideration to safety at the
analysis intersections. Within the vicinity of the Mark Center, there are high crash locations that
will be significantly impacted by additional traffic generated by BRAC 133 Project Fort Belvoir
– Mark Center, Virginia. The safety issues at these locations will adversely affect ingress and
egress to the site. The high crash locations should be identified, and appropriate mitigation
measures applied to reduce, if not eliminate, these safety hazards.

5.2.9 Finding: Impact on Emergency Response
A development of the magnitude of BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
will have a significant impact on emergency services including fire, aid and serving the site. It is
expected the volume of emergency response calls will increase proportionately with the
increased employee population. With the estimated traffic congestion and its resulting impact on
ingress and egress, a significant impact on emergency vehicle response times to the site can be
anticipated. These impacts should be identified and mitigated as part of the Transportation Plan.

5.2.10 Finding: Construction Impacts

                                                82
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




The ITE Recommended Practice identifies the need to provide acceptable levels of service at the
time of site occupancy. The Transportation Plan indicates unacceptable and failing levels of
service will exist at study area intersections until the VDOT Short/Mid-Term Improvements and
long-range improvements are completed. The Transportation Plan states that the Short/Mid-
Term improvements are to be complete by late 2013 and VDOT suggests the long-range
improvements, if approved, could be complete by 2016. The Transportation Plan, however, fails
to address the impact of construction activity between 2011, when BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, is occupied, and 2016, when all improvements are complete.
Construction activity will affect ingress and egress to the site. The impact of construction
activity on the study area and site access intersections should be determined and appropriate
mitigation measures identified and included in the Transportation Plan.


5.3    Conclusion: Assessment of Costs
The Transportation Plan assessed the costs and programming of short-, medium-, and long-term
projects according to industry standards generally, however horizon year studies did not adhere
to industry standards that call into question the determination of required project mitigation,
scheduling of programmed improvements and related funding requirements. According to the
Transportation Plan, the $112 million identified for short-, mid- and long-term infrastructure
improvements of the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, project is not
adequate to maintain the existing LoS at the six analysis intersections. Additional funding will be
necessary to relieve anticipated congestion and maintain existing levels of service.

5.3.1 Finding: Horizon Year
The ITE Recommended Practice recommends that transportation impact analyses include an
analysis at the opening of the site and at a minimum five years in the future. The traffic studies
used in the development of the Transportation Plan failed to provide an impact analysis at both
the opening and five years in the future. Thus, these studies did not provide a comprehensive
understanding of the actual traffic related impact of the proposed BRAC 133 Project Fort Belvoir
– Mark Center, Virginia, development. The result of this approach complicates the determination
of required project mitigation, scheduling of programmed improvements, and related funding
requirements.

5.3.2 Finding: Maintaining Existing Level of Service (LoS)
According to Public Law 111-383, the Transportation Plan was mandated to assess the cost of
funding short-, medium-, and long-term projects necessary to maintain the existing level of
service at the six analysis intersections. The Transportation Plan failed to accomplish this
requirement. Although the Transportation Plan identified $112 million for short-, medium- and
long-term infrastructure improvements to address the traffic related impacts of BRAC 133
Project Fort Belvoir – Mark Center, Virginia, this funding is not adequate to provide necessary
improvements to maintain the existing LoS at the six analysis intersections. Additional funding
will be necessary to relieve anticipated congestion and to maintain existing levels of service.

                                                83
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




5.3.3 Finding: Cost Estimates

The Transportation Plan was mandated by Public Law 111-383 to assess the cost of the
improvements necessary to maintain existing levels of service at the six analysis intersections.
The costs were divided into:

   •   Short Range Improvements – City of Alexandria mandated improvements
   •   Short/Mid-Term Improvements – VDOT identified arterial improvements
   •   Long-Range Improvements – VDOT identified HOV ramp improvements
   •   Transportation Management Plan costs – TDM measures intended to reduce SOV’s

The Short Range Improvements estimated to cost $12 million have been completed.

The cost estimates of the VDOT short/mid-term improvements appear to be more than adequate
to fund the identified improvements. The cost estimates were prepared according to industry
standards, but the proposed short/mid-term improvements will not maintain existing levels of
service at the six analysis intersections.

The funding and programming for the BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
shuttle-bus program appear adequate, but it is only programmed for fiscal years 2011 and 2012.
There is no cost accountability or programming for future years. Additionally, funding for the
administrative elements of the BRAC 133 Project Fort Belvoir – Mark Center, Virginia, TDM
program are not known and were not provided. This would include the costs for staffing,
program marketing, and program oversight and monitoring. Without this cost information, it is
not known if this critical element of the BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
relocation effort is adequately or appropriately funded and programmed.

The cost estimate for the long-range improvement is only a planning-level estimate. The actual
improvement and cost will not be known until the design studies and environmental assessment
are complete at the end of 2011. Furthermore, the benefits, if any, of the proposed HOV ramp
will not be known until that time as well.

In conclusion, the Transportation Plan did not meet the Public Law mandate to assess the cost of
necessary improvements to maintain existing levels of service at the six analysis intersections.

5.3.4 Finding: Programming of Project Funding

Public Law 111-383 mandated the Transportation Plan provide an assessment of the
programming of improvements necessary to maintain existing levels of service at the six analysis
intersections. The short-, mid- and long-term improvements have been programmed according
to industry standards. Additionally, the BRAC 133 Project Fort Belvoir – Mark Center, Virginia,
shuttle-bus cooperative agreements and service contracts with providers have been executed. It
is not known if the administrative and management elements of the Transportation Management
Plan program have been adequately funded or programmed. This information was requested, but


                                                84
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




it was not provided. However, the identified improvements are not adequate to maintain the
existing levels of service at the six analysis intersections.


5.4    Conclusion: Use of Other Methods of Transportation Necessary
       to Maintain Existing LoS
The use of alternative modes of transportation to support the goal to significantly reduce single
occupancy vehicles generated by BRAC 133 Project Fort Belvoir – Mark Center, Virginia, has
not been well defined. Moreover it is questionable whether the goal can be achieved, given that
the Transportation Plan offers contradictory non-SOV goal statements. Further, the
Transportation Plan fails to comply with several federal standards for developing Transportation
Management Plan programs. There are also deficiencies and/or an absence of bicycle and
pedestrian facilities and services at and near BRAC 133 Project Fort Belvoir – Mark Center,
Virginia. This will hinder the employee walk and bicycle goals established in the Transportation
Plan. Each of these factors in combination with the inability of the proposed employee bus and
shuttle services to achieve proposed headways due to expected roadway congestion suggests the
aggressive non-SOV goals established in the Transportation Plan may not be achieved or
sustained.

5.4.1 Finding: National Capital Planning Commission (NCPC) Compliance
NCPC policies are the federal standard for ensuring federal development projects built in the
National Capital Region comply with traffic management and mitigation objectives. The
Transportation Plan does not comply with six NCPC policies and is in violation of this federal
standard. NCPC was the only agency that approved the BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, Transportation Management Plan.

5.4.2 Finding: Public Transportation - Shuttle and Bus Strategy
The public bus and shuttle services designed for the Mark Center Transit Station have adequate
frequencies and capacity to accommodate the number of employees designated to use them. It is
noted that the 10- and 15-minute frequencies for these services – which are designed to quickly
move employees to and from the site – will be severely compromised should LoS on roadways
serving BRAC 133 Project Fort Belvoir – Mark Center, Virginia, fail. There are no HOV lanes
directly serving the site. The bus and shuttle services will be required to use the freeway
general-purpose lanes. If freeway and local roadways operate at failing service levels, this will
undermine the efficiency of the bus and shuttle system. The 1,794 BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, employees expected to use these services may not do so, as the
service will be perceived as inefficient and unreliable. There is no contingency plan to address
this eventuality.




                                                85
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




5.4.3 Finding: Transportation Demand Management Goal

The TDM goals for employee SOV trips are contradictory and ill defined. BRAC 133 Project
Fort Belvoir – Mark Center, Virginia, may generate 1,794 more SOV trips than intended,
depending on which goal is realized. The SOV goal should be corrected and clarified in the
Transportation Plan.

5.4.4 Finding: Mode Choice Assumptions
When compared with U.S. Census information, BRAC 133 Project Fort Belvoir – Mark Center,
Virginia, mode split assumptions appear overly optimistic in HOV use and noticeably lower in
public transportation use. This finding is significant as any error or miscalculation in estimating
mode split may have a negative impact on the regional and local road network serving the site.

5.4.5 Finding: TDM Marketing Strategy

Given the large number of BRAC 133 Project Fort Belvoir – Mark Center, Virginia, employees
(2,756) assumed to voluntarily convert to non-SOV modes for their daily commute to BRAC
133, a fine-tuned Individualized Marketing approach is required. The approach described in the
Transportation Plan cast a wide net over all of the employees with ill-defined or possibly
ineffective strategies, such as mass marketed employee directories and modal promotions. A
more scientific, structured and tested approach is recommended, such as customized and targeted
individualized marketing.

5.4.6 Finding: Pedestrian Service
The Transportation Plan’s assertion that “a well-connected continuous sidewalk system” will be
available “before tenants begin occupying the BRAC 133 facility” (pg. 8, 4th bullet) is not
correct. An August 2011 review inventory of pedestrian facilities at and near the site found a
series of ADA-deficient and unsafe conditions including hazardous pedestrian crossing locations,
substandard sidewalk widths, substandard bus stop locations, substandard crosswalk ramp
facilities, substandard (or non-existent) pedestrian traffic control devices, and absence of
pedestrian way finding. Additionally, the proposed Seminary Road pedestrian overpass has not
been built, requiring BRAC 133 Project Fort Belvoir – Mark Center, Virginia, workers to cross
the heavily traveled, multi-lane traffic arterial at-grade. This will make it difficult to safely
accommodate the 128 employees expected to walk to the BRAC 133 Project Fort Belvoir – Mark
Center, Virginia, work site on a daily basis.

5.4.7 Finding: Bicycle Service At or Near Site

One hundred and twenty-eight employees are expected to bicycle to BRAC 133 Project Fort
Belvoir – Mark Center, Virginia, on a daily basis. Field observations found no bicycle service on
the roadways serving the site. Moreover, the Transportation Plan does not provide a bicycle
circulation and access plan for preferred or recommended movements within, to and through the
campus.
                                                86
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




5.4.8 Finding: Bicycle Routings in Proximity to Site

The Transportation Plan statement that “Many bicycle paths and routes are located within one
mile of the BRAC 133 site” is misleading. There are paths and routes in the vicinity of the site
but none offer safe or direct connections to the Mark Center. A reassessment of the bicycle
element of the Transportation Plan is warranted given the absence of bicycle service near and at
the Mark Center. This creates an unsafe condition for the 128 BRAC 133 Project Fort Belvoir –
Mark Center, Virginia, employees expected to bicycle to work on a daily basis.




                                                87
Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
             Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Appendices

Appendix A: Acronyms
  ADA:          Americans with Disabilities Act
  AM:           Morning
  BRAC:         Base Realignment and Closure
  CNA:          Center for Naval Analysis
  COA:          City of Alexandria
  CORSIM:       Corridor Simulation
  CPNC-TE:      Comprehensive Plan for the National Capital Transportation Element
  DAR:          Defense Access Road
  DASH:         Alexandria, Virginia Transit Company bus service.
  DoD:          United States Department of Defense
  DoD OIG:      Department of Defense Office of the Inspector General
  EA:           Environmental Assessment
  ETC:          Employee Transportation Coordinator
  FEA:          Final Environmental Assessment
  FHWA:         Federal Highway Administration
  FONSI:        Finding of No Significant Impact
  FTA:          Federal Transit Administration
  GP:           general-purpose
  gsf:          gross square feet
  HOT:          High Occupancy Toll Lane
  HOV:          high occupancy vehicle
  IDA:          Institute for Defense Analysis, Inc.
  IJR:          Interchange Justification Report
  IM:           Individualized Marketing
  ISTMP:        Implementing a Successful Transportation Management Plan
  ITE:          Institute of Transportation Engineers
  LoS:          Level of Service
  LU:           Land Use
  MWCoG:        Metropolitan Washington Council of Governments
  NCPC:         National Capital Planning Commission
  NCR:          National Capital Region
  NEPA:         National Environmental Policy Act
  PB:           Parsons Brinckerhoff
  PM:           Afternoon/Evening
  SAMS:         Strategy and Management Services, Inc.
  SOV:          Single Occupancy Vehicle

                                               88
Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
             Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




  TDM:          Transportation Demand Management
  TIA:          Traffic Impact Analysis
  TIMP:         Transportation Improvement and Management Plan
  TIS:          Traffic Impact Study
  TMP:          Transportation Management Plan
  TP:           Transportation Plan for BRAC 133
  TPB:          Transportation Planning Board
  TRB:          Transportation Research Board
  USACE:        United States Army Corps of Engineers
  USDOT:        United States Department of Transportation
  VAC:          Virginia Administrative Code
  VDOT:         Virginia Department of Transportation
  VHB:          Vanasse Hangen Brustlin, Inc.
  VRE:          Virginia Railway Express
  WHS:          Washington Headquarters Service
  WMATA:        Washington Metropolitan Area Transit Authority




                                               89
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Appendix B: Tables
Table B-1: Pedestrian Service Field Observations At and Near the site of
BRAC 133 Project Fort Belvoir – Mark Center, Virginia

Location                                 Observation
Hazardous Crossings
      North Beauregard Street-           Complicated configuration on the west leg of intersection with four traffic
#1    north/North Beauregard Street -    lanes and islands creating conflicts. Pedestrian ramps at all corners of
      east intersection, west side       intersection are not ADA compliant.
      North Beauregard                   Crosswalk across right-turn traffic lane with no traffic or pedestrian signal
#2    Street/Seminary Road               control device. Driver sight partially obscured at crosswalk on roadway
      intersection - south east corner   curve.
      North Beauregard
                                         Crosswalk traverses heavy use right-turn traffic lane making users
#3    Street/Seminary Road
                                         waiting on island vulnerable.
      intersection - north east corner
      Seminary Street at Southern        Substandard crosswalk ramp radii with turning Metro buses and
#4
      Towers entrance - north side       automobiles intruding into pedestrian wait space.
                                         No crosswalk across Mark Center Drive-north at this location. Crosswalk
      Mark Center Avenue/4900
                                         provided for crossing 4900 Seminary Road, but no traffic or pedestrian
#5    Seminary Road intersection -
                                         control devices. Location is a high volume service road for shuttles and
      south east corner
                                         vehicles accessing garages.
                                         Crosswalk to island traverses right turn traffic lane. No traffic or
      Seminary Road/Mark Center
#6                                       pedestrian control devices at this location. Crosswalk ramp is not ADA
      Avenue - south west corner
                                         compliant. Roadway curve on west side of crosswalk limits driver sight.
      4900 Seminary Road - south         Conflict points on sidewalk at active garage entrance and exit ramps. No
#7
      side                               audible warning device for drivers or pedestrians.
Sidewalk Widths
      North Beauregard Street from       Sidewalk widths variable from substandard three and half to four feet
#8    Rayburn Avenue to Seminary         (most of length) to five to six feet at Mark Center Drive-west intersection
      Road                               and at bus transit stops.
      Seminary Road - east of            North side substandard four feet sidewalk with narrow, ineffective one-
#9
      Southern Towers entrance           foot buffer on traffic side.
Non ADA Compliant Pedestrian - Traffic Control Devices and Facilities
      North Beauregard Street-
                                         Walk signal devices on east side of intersection mounted high in trees,
#10   north/North Beauregard Street -
                                         partially or completely obscured.
      east intersection
      North Beauregard                   Walk signal device out of handicapped user’s reach. Crosswalk ramps at
#11   Street/Rayburn Avenue              all intersection corners are not ADA compliant. No pedestrian traffic
      intersection                       control device on east leg of intersection.
                                         No pedestrian or traffic control devices at intersection. This location is a
      Mark Center Avenue/4900            high volume service road for shuttles and vehicles accessing multiple
#12
      Seminary Road intersection         garages. Crosswalk ramps on west side of intersection are not ADA
                                         compliant.




                                                        90
 Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
              Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Location                                   Observation
Obstructions
        Seminary Road east of
                                          Clark/Shirley Construction sign protruding into narrow four feet walk
#13     Southern Towers entrance -
                                          space.
        north side sidewalk
                                          Pedestrian path to building frontage unclear and possibly obstructed with
                                          south side sidewalk terminating abruptly and traffic rotary and security
                                          checkpoint traffic lanes located at building entrance.
        Mark Center Drive-east:           This uncertainty on access is partially explained in the 2010 Transportation
#14     pedestrian ground level access    Management Plan (pg. 30): “No pedestrian movement will be allowed at
        to building entrance              the ground level area between the North and South Parking Garages to
                                          prevent any potential conflict with vehicular traffic…A pedestrian bridge
                                          will connect the North Campus to the South Campus. Visitors entering the
                                          side from the North Parking garage will be able to access the Visitor
                                          Control Center located in the main building using the pedestrian bridge.”
Signage
                                          Noticeable absence of way-finding signage directing and orienting
#14     General                           pedestrians to services, facilities and building entry points near and in the
                                          Mark Center campus.
Circuitous Routing
                                          For access to building checkpoint from Transit Center, pedestrian-
                                          handicapped route is via escalator and elevator (at south end of Transit
                                          Center loading area) up to garage level P5, across garage, across pedestrian
#15     Mark Center Transit Station
                                          bridge, then down escalator to building entry point. Note: This is the
                                          pattern described in the 2010 Transportation Management Plan referenced
                                          above.
Transit Service
                                          On roadway west side, across from Transit Center, Metro bus stop with no
#16     Mark Center Avenue
                                          weather protection or seating, concrete slab.
        Mark Center Avenue/4900
        Seminary Road intersection -      Isolated, unprotected bench on slope at roadway edge at Metro bus stop.
#17
        north of northeast intersection   Bus stop located in middle of active right turn traffic lane.
        corner
                                          Pedestrian north-south access and circulation on east side sidewalk may be
        Mark Center Avenue at Mark
                                          hampered by arriving/departing buses and other mode activity. Another
#18     Center Transit Station - east
                                          field assessment warranted at this location when building is fully
        side of roadway
                                          operational.
Other
        North Beauregard Street-north
#19                                       Faded crosswalk striping.
        / Rayburn Avenue intersection
        Elevated pedestrian bridge        Not constructed at time of field visit. Proposed bridge has been
        from north side of Seminary       recommended as a safety feature for BRAC 133 employees currently
#20     Road to Mark Center Avenue        required to cross multi-lane traffic arterial at grade. As noted above in City
        (identified as short-term         of Alexandria reference, completion of this DoD funded improvement is
        improvement.)                     anticipated in 2013.




                                                           91
Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
             Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




Table B-2: BRAC 133 Commuter Bus and Rail Services and Connections

   COMMUTER BUS SERVICE
   Route #             Description                        Frequency        Rail Station
   Alexandria Transit Company - DASH
                       Seminary Plaza – Van
   1   AT1             Dorn/Eisenhower                    20-30 Min        Van Dorn/Eisenhower
                       Weekday, Sat, Sun
                       Mark Center – King Street
       AT2X            Metro
   2                                                      15 Min - Peak    King Street
       Express         Weekday: 6-9 a.m. and 3-6
                       p.m.
                       Braddock-Lincolnia
   3   AT2                                                30 Min           Braddock/King Street
                       Weekday, Sat, Sun
   Washington Metropolitan Area Transit Authority - METROBUS
                                                          10 Min - Peak
                       Mark Center – Pentagon
   1   7M                                                 15 Min -         Pentagon
                       Weekday
                                                          Midday
                                                                           Pentagon/
                       Lincolnia - North Fairlington
   2   7A,E,F,Y                                           30 Min           Federal Triangle/ Arlington
                       Weekdays, Sat, Sun
                                                                           Cemetery
                       Lincolnia Park – Pentagon
   3   7W, X                                              30 Min           Pentagon
                       Weekday
                       Lincolnia Park – Pentagon
   4   7B                                                 35 Min           Pentagon
                       Weekday
                       King Street - Tysons Corner
   5   28A                                                30 Min           King Street
                       Weekday, Sat, Sun
                       Skyline - Pentagon                 20-25 Min
   6   28F, G                                                              Pentagon
                       Weekday                            Peak Only
                       Van Dorn – Ballston
   7   25B                                                35 Min- Peak     Van Dorn/ Ballston
                       Weekday, Sat
    These bus routes stop at the Mark Center and/or Southern Towers stations.
    DASH: BRAC 133 employees/contractors ride free if boarding at Mark Center Station or King Street
     Metro after presenting DoD CAC identification weekdays between 6-9 a.m. and 3-6 p.m.
    Metrobus: BRAC 133 employees/contractors ride free on Metrobus 7 lines at Pentagon, Mark Center
     and/or Southern Towers stations after presenting DoD CAC identification.




                                                     92
Independent Engineering Assessment of the Army’s Transportation Plan for BRAC Recommendation #133
             Project Fort Belvoir–Mark Center, Virginia (Project No. D2011-DT0TAD-0002)




  COMMUTER RAIL SERVICE
                                                                             Bus Connection to
  Station           Description                     Frequency
                                                                             Mark Center
  WMATA - METRORAIL
                                                    30 Min
                                                                             AT1
  Van Dorn          Blue Line                       30 Min – Peak
                                                                             25B
                                                    1 Hr – Off Peak
  Eisenhower        Yellow Line                     2 0 – 30 Min             AT1
                                                    10 Min – Peak            AT2 and AT2-X
  King Street       Blue and Yellow Lines
                                                    30 Min                   28A
                                                    10 Min – Peak
                                                                             7M
                                                    15 Min – Midday
                                                    10 Min – Peak
                                                                             7A, E, F, Y
  Pentagon          Blue and Yellow Lines           30 Min – Off Peak
                                                    20 -30 Min
                                                                             7B,W, X
                                                    20-25 Min – Peak
                                                                             28F, G
                                                    Only
                                                    35 Min – Peak
  Ballston          Orange Line                                              25B
                                                    1 Hr – Off Peak
  VRE                                               OUTBOUND                 INBOUND
                                                                             11 Trains
                                                    11 Trains
  Fredericksburg    Red Line                                                 6:07 a.m. to 1:00
                                                    1:15 p.m. to 7:15 p.m.
                                                                             p.m.
                                                                             9 Trains
                                                    9 Trains
  Manassas          Blue Line                                                5:52 a.m. to 5:
                                                    6:42 a.m. to 7:08 p.m.
                                                                             52p.m.




                                               93
This page intentionally left blank
